<html>
<title> - COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2014</title>
<body><pre>[Senate Hearing 113-]
[From the U.S. Government Publishing Office]



 
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2014

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [Clerk's Note.--The subcommittee was unable to hold 
hearings on nondepartmental witnesses. The statements and 
letters of those submitting written testimony are as follows:]
           Prepared Statement of the Ad Astra Rocket Company
    My name is Dr. Franklin Chang Diaz, and I appreciate the 
opportunity to provide a statement to this Subcommittee on an important 
topic related to the National Aeronautics and Space Administration, its 
fiscal year 2014 budget proposal, and the electric propulsion system 
challenges and decisions ahead.
    Ad Astra Rocket Company is an innovative, developing stage, high 
technology American company, domiciled in Webster, Texas near the 
Johnson Space Center. The key technology for the company is the VASIMR 
rocket, a high-power plasma rocket technology, which is uniquely 
American and presently the most advanced of its class. In the near 
term, the VASIMR rocket will be powered by advanced solar arrays from 
50 kW to several 100s of kW. In this form, VASIMR is Solar Electric 
Propulsion (SEP) technology whose commercial deployment could greatly 
increase in-space transportation capability over conventional chemical 
rockets (through greater payload and reduced costs). In the longer 
term, high-power VASIMR engines will scale into multi-megawatts, 
suitable for advanced nuclear electric power systems, enabling faster 
and more flexible human and robotic deep space missions than are 
possible with conventional chemical and nuclear-thermal technologies 
currently being considered by NASA.
    Since its inception as a private company in 2005, Ad Astra has 
matured the VASIMR technology exclusively on more than $30 million of 
private investment and has brought the engine to a high state of 
development. In December 2008 Ad Astra signed a Space Act Agreement 
with NASA to test a VASIMR engine on the International Space Station as 
an ISS National Laboratory payload. Ad Astra's proposal was duly 
submitted in February 2010, as required by the Space Act Agreement, but 
budget constraints have precluded NASA from providing any funding. Ad 
Astra has requested NASA to extend the term of the Space Act Agreement 
to provide more time for the partnership to reach the flight goal. 
Verbal agreement to do this was obtained on October 9, 2012 and signed 
in December 2012. Our company continues to march to this critical goal 
presently targeted for 2016.
           the issue: high-power electric propulsion systems
    High-power solar electric propulsion (defined by the National 
Research Council as 30 kW to 600 kW) is essential to support a robust, 
commercial space operations market. It is also a key technology 
required for long-term space exploration. It is listed as one of the 
nation's highest priority space goals by the recent National Research 
Council's 2012 report on Space Technology Roadmaps and Priorities:

    ``EP systems have a higher propellant efficiency than other in-
space propulsion technologies that will be available in the foreseeable 
future, with applications to all NASA, Department of Defense (DOD), and 
commercial space mission areas . . .  Development of high-power EP 
systems (30 kW to 600 kW) will enable larger scale missions with heavy 
payloads, including development of a more efficient in-space 
transportation system in Earth-space, sample returns from near-Earth 
objects (NEOs), the martian moons, other deep space destinations . . . 
, precursor demonstrations of in-situ resource utilization (ISRU) 
facilities, and pre-placement of cargo for human exploration 
missions.'' (pp. 118-119, NASA Space Technology Roadmaps and 
Priorities: Restoring NASA's Technological Edge and Paving the Way for 
a New Era in Space, 2012) http://www.nap.edu/
openbook.php?record_id=13354
&page=119

    NASA's fiscal year 2014 Budget Request has recognized this priority 
as well, and that document identifies 300 kW as the target power for 
high-power electric propulsion.

    ``Solar Electric Propulsion Technologies: For the purpose of future 
human missions beyond low Earth orbit, and to support the robotic 
segment of the proposed asteroid retrieval mission, one of the highest 
priority technology development needs is high power (approximately 300 
kilowatts) Solar Electric propulsion.'' (TECH 34, NASA fiscal year 2014 
Budget document)

    In order to accomplish this important goal, NASA should explore 
more than just one, and certainly at least two, of the technologies for 
high-power electric propulsion currently under development, both inside 
and outside of NASA. Particular attention should be given to those 
rocket systems having favorable scalability features to high-power 
applications. With more than 10,000 reliable high-power firings to 
date, the VASIMR engine is one of them. It has demonstrated high 
performance (up to 200kW, 5000sec Isp, 6 N thrust) efficiency (up to 72 
percent) and scalability in the laboratory. However, as its fiscal year 
2014 budget documents suggest, NASA has prematurely down-selected the 
Hall thruster as the only SEP option for NASA's proposed asteroid 
retrieval mission. This decision shuts out potential competing 
technologies, such as VASIMR-SEP, with equal or superior capabilities. 
Pursuing at least two distinct high-power electric propulsion 
technologies increases redundancy, reduces program risk, and is 
consistent with sound business practices.
    Hall thrusters are intrinsically low power density devices, very 
well suited for small spacecraft and satellite orbit maintenance, but 
they do not scale well to the high-power range. They have benefitted 
from many decades of Government support and their performance in the 
low power niche is certainly not to be diminished. But at 500 tons, 
even a small asteroid is too big and Hall thrusters must resort to 
clustering (many thrusters grouped together) to meet even the low end 
of the high-power range. While clustering may be viewed as increasing 
redundancy it also leads to system complexity, size and weight. The 
VASIMR engine is a higher (10x) power density (6 MW/m\2\) device that 
leads to a smaller, simpler system that also favorably scales to much 
higher power levels. Another important consideration is the 
availability and cost of the propellant used. Hall thrusters use xenon, 
a rare and expensive gas (approximately $1000/kg), while the VASIMR 
runs on multiple propellants, including argon (approximately $5/kg) and 
krypton (approximately $300/kg).
    In my judgment, the 50kW target power NASA has set for the asteroid 
retrieval mission surely sets the bar too low, barely in the 
acknowledged range of high-power. For a mission whose planning and 
execution will span nearly a decade, this is hardly in the bold and 
imaginative character or our nation and NASA. Targeting the middle of 
the range (approximately 300kW) would be more in line with what is 
truly ``game changing.'' An asteroid retrieval mission is an exciting 
and long-term project, a motivator to our youth and to our nation's 
entrepreneurs. If properly defined, this effort could stimulate the 
development of true high-power electric propulsion with substantial 
leveraging from the private sector and open many other areas of 
application for the technology, commercial and otherwise. These will 
have a profound impact on sustainable space transportation and on our 
nation's capability to maintain preeminence in space technology. VASIMR 
would be proud to compete with Hall thrusters or any other technology 
in this arena, on a level playing field, in a free and open environment 
where the Government does not become the competitor.
    Ad Astra Rocket has worked successfully with private investors as 
well as with NASA during this technology development period. As an 
astronaut and physicist, I have worked alongside a team of more than 50 
American scientists on this technology since 1980--at first with NASA 
and currently as CEO of Ad Astra. Throughout the past 30 years, I have 
endeavored to work closely with my former Agency. Since our company's 
inception in 2005, there have been numerous non-reimbursable agreements 
with NASA, allowing the Agency to continue to benefit from our rapid 
progress on the technology development, enabled by more than $30 
million of private investment. However, none of these agreements have 
involved any transfer of Federal funds to Ad Astra. A small Federal 
investment would act as a strong amplification factor on private 
investment and, in terms of ``bang for the buck,'' would result in a 
considerable leveraging effect for the Government.
         why is this support in the best interest of the u.s.?
    The financial leveraging capability of the VASIMR team has been 
amply demonstrated. A reasonable, yet compelling expression of direct 
Government support would not be unusual. It is in line with current 
space policy (COTS Program at NASA promoting greater participation of 
the U.S. private sector in the space program) and would greatly enhance 
this leveraging capability. Such action will enable the VASIMR 
technology to be quickly commercialized by the United States for a 
large stake of the global market at a relatively low development cost 
to the taxpayer due to the strong private leveraging. The $30 million 
in private sector investment is already creating high technology jobs 
in the U.S. We have also inspired young minds by sponsoring dozens of 
college internships and multiple PhD and Masters Theses in physics and 
engineering.
    The VASIMR rocket has been predominately developed by a small 
entrepreneurial, minority-owned business in Texas. In doing so, the 
company has developed an outstanding expertise in high-power electric 
propulsion and related technologies. The private venture alone has been 
fielding the totality of the cost to date with U.S. and foreign 
investors. However, without a compelling expression of interest and 
support from the largest space agency in the world, it will be 
difficult to maintain a credible case with private investors alone. Now 
is the time for NASA to take a closer look at this new and powerful 
electric propulsion technology. For while the U.S. is now well ahead of 
potential international competitors in this field, in time, and given 
the excellent technical results obtained thus far, VASIMR-like 
development projects are likely to be initiated by other space-faring 
nations who have the scientific capability to do so. This could preempt 
the U.S. from reaping the economic and engineering benefits of this 
technology.
    In conclusion, NASA is at a critical juncture with regard to the 
future of high-power electric propulsion and its impact on U.S. 
leadership in deep-space exploration. The technology is potentially 
``game changing'' but its full maturation requires a bold and ambitious 
step on the part of the U.S. Government, which is bound to save 
taxpayer money in the long run. Our small company has already taken 
that step and we, and our more than 200 investors, are committed to 
continuing on course. As Americans, we would be most proud to say that 
the U.S. Government and NASA are our partners in this mission. We look 
to your committee's leadership to insist that the 2014 budget provide 
the proper framework for allowing VASIMR and the full range of high-
power electric propulsion technologies to fully develop. Thank you.
                                 ______
                                 
        Prepared Statement of the American Geosciences Institute
    To the Chairwoman and members of the Subcommittee: The American 
Geosciences Institute (AGI) supports Earth science research sustained 
by the National Science Foundation (NSF), the National Oceanic and 
Atmospheric Administration (NOAA), the National Institute of Standards 
and Technology (NIST), and the National Aeronautics and Space 
Administration (NASA). Frontier research on the Earth, energy, and the 
environment has fueled economic growth, mitigated losses, and sustained 
our quality of life. The Subcommittee's leadership in supporting 
geoscience-based research is even more critical as our nation competes 
with rapidly developing countries, such as China and India, for energy, 
mineral, air, and water resources. Our nation needs skilled 
geoscientists to help explore, assess, and develop Earth's resources in 
a strategic, sustainable, and environmentally sound manner and to help 
understand, evaluate, and reduce our risks to hazards. AGI supports the 
President's requests for fiscal year 2014 of $7.626 billion for NSF, 
$928 million for NIST, and $1.85 billion for Earth Science at NASA, 
plus $5.45 billion for NOAA.
    AGI is a nonprofit federation of 48 geoscientific and professional 
societies representing more than 250,000 geologists, geophysicists, and 
other Earth scientists. Founded in 1948, AGI provides information 
services to geoscientists, serves as a voice for shared interests in 
our profession, plays a major role in strengthening geoscience 
education, and strives to increase public awareness of the vital role 
the geosciences play in society's use of resources, resilience to 
hazards, and the health of the environment.
    NSF.--AGI supports an overall budget of $7.626 billion for NSF. The 
forward-looking investments in NSF are fiscally responsible and will 
pay important dividends in future development that drives economic 
growth, especially in critical areas of sustainable and economic 
natural resources and reduced risks from natural hazards. Support for 
science will save jobs, create new jobs, support students, and provide 
training for a 21st century workforce.
    NSF Geosciences Directorate.--The Geosciences Directorate (GEO) is 
the principal source of Federal support for academic Earth scientists 
and their students who are seeking to understand the processes that 
sustain and transform life on this planet. Approximately 60 percent of 
support for basic research in the geosciences at academic institutions 
comes from this directorate.
    AGI asks the Subcommittee to fund the President's request for $267 
million for Atmospheric and Geospace Sciences, $191 million for Earth 
Sciences, $377 million for Ocean Sciences, $465 million for Polar 
Programs, and $94 million for Integrative and Collaborative Education 
and Research (ICER) within GEO. Much of NSF's geosciences research 
budget supports investigations that are critical for current national 
needs, such as water and mineral resources, energy resources, 
environmental issues, climate change, and mitigation of natural 
hazards.
    GEO supports infrastructure and operation and maintenance costs for 
cutting-edge facilities that are essential for basic and applied 
research. Ultimately, the observations and data provide knowledge that 
is used by researchers and professionals in both the public and private 
sectors. GEO research and infrastructure help drive economic growth in 
a sustainable manner. Geoscience-based research tools and academic 
expertise helped to end the BP Deepwater Horizon oil spill, saving 
billions of dollars for industry and untold costs to the environment.
    Within GEO, Polar Programs (PLR) funds basic research in the Arctic 
and Antarctica that helps the United States maintain strategic plans, 
international efforts, security goals, natural resource assessments, 
cutting-edge polar technology developments, and environmental 
stewardship of extreme environs. PLR's funding helps support 
researchers and students, the U.S. military, and the private sector. 
PLR is estimated to directly support more than 3,000 people in fiscal 
year 2014 and thousands of others indirectly.
    AGI strongly supports robust and steady funding for infrastructure 
and operation and maintenance of GEO's major facilities, including the 
Academic Research Fleet, Seismological Facilities for the Advancement 
of Geosciences and EarthScope (SAGE), Geodetic Facilities for the 
Advancement of Geoscience and EarthScope (GAGE), International Ocean 
Discovery Program (IODP), the Ocean Observatories Initiative, and the 
National Center for Atmospheric Research (NCAR).
    NSF Support for Earth Science Education.--Congress can grow the 
depleted geosciences workforce; stimulate economic growth in the 
energy, natural resources and environmental sectors; and improve 
natural resource literacy by supporting the full integration of Earth 
science information into mainstream science education at the K-12 and 
higher education levels. AGI strongly supports the Math and Science 
Partnerships (MSP), the Graduate Research Fellowship Program (GRFP), 
and the Research Experiences for Undergraduates (REU) within NSF's 
Education and Human Resources (EHR) Division. These programs are 
effective in building a science and engineering workforce for the 21st 
century.
    Improving geoscience education, one of the goals of NSF-EHR, to 
levels of recognition similar to other scientific disciplines is 
important in the following ways:
  --Geoscience offers students subject matter that has direct 
        application to their lives and the world around them, including 
        energy, minerals, water, and environmental stewardship. All 
        students should be required to take a geoscience course in 
        primary and secondary school.
  --Geoscience exposes students to a range of interrelated scientific 
        disciplines. It is an excellent vehicle for integrating the 
        theories and methods of chemistry, physics, biology, and 
        mathematics. A robust geoscience course would make an excellent 
        capstone for applying lessons learned from earlier class work.
  --Geoscience awareness is a key element in reducing the impact of 
        natural hazards on citizens--hazards that include earthquakes, 
        volcanic eruptions, hurricanes, tornadoes, and floods. Informal 
        geoscience education that leads to reducing risks and preparing 
        for natural events should be a life-long goal.
  --Geoscience provides the foundation for tomorrow's leaders in 
        research, education, utilization, and policy making for Earth's 
        resources and our nation's strategic, economic, sustainable, 
        and environmentally sound natural resources development. There 
        are not enough U.S.-trained geoscientists to meet current 
        demand and the gap is growing, as shown in the recent National 
        Academies report, Emerging Workforce Trends in the U.S. Energy 
        and Mining Industries: A Call to Action. Support for geoscience 
        research and education is necessary to stay competitive and to 
        wisely manage our natural resources.
    NOAA.--AGI supports the President's request for $5.45 billion for 
NOAA. We hope the Subcommittee will continue to support the National 
Weather Service (NWS), Oceanic and Atmospheric Research (OAR), National 
Ocean Service (NOS), and the National Environment Satellite, Data and 
Information Service (NESDIS). These programs are critical for 
understanding and mitigating natural and human-induced hazards in the 
Earth system while sustaining our natural resources. These programs 
prevent billions of dollars of losses, keep the private and public 
sectors growing, and save lives. For example, drought forecasts are 
worth up to $8 billion to the farming, transportation, tourism, and 
energy sectors while NexRad radar has prevented more than 330 
fatalities and 7,800 injuries from tornadoes since the early 1990s.
    NIST.--We support the President's request for $928 million for NIST 
in fiscal year 2014. Basic research at NIST is conducted by Earth 
scientists and geotechnical engineers and used by the public and 
private sectors on a daily basis. The research conducted and the 
information gained are essential for understanding natural hazards and 
for identifying the infrastructure needed to build resilient 
communities and stimulate economic growth. Advanced infrastructure 
research will help to reduce the estimated average of $52 billion in 
annual losses caused by floods, fires, and earthquakes.
    NIST is the lead agency for the National Earthquake Hazard 
Reduction Program (NEHRP), but has received only a small portion of 
authorized and essential funding in the past. AGI strongly supports the 
reauthorization of the National Earthquake Hazards Reduction Program 
(NEHRP) in this Congress. We hope the appropriations subcommittee will 
continue to support this effective and cohesive program, even if the 
authorizing legislation takes more time to complete. NEHRP is an 
excellent example of how to coordinate different entities for the 
safety and security of all. NEHRP develops effective practices and 
policies for earthquake loss reduction and accelerates their 
implementation; improves techniques for reducing earthquake 
vulnerabilities of facilities and systems; improves earthquake hazards 
identification and risk assessment methods and their use; and improves 
the understanding of earthquakes and their effects.
    NASA.--AGI supports the vital Earth observing programs within NASA. 
AGI supports funding of $1.85 billion for Earth Science programs within 
the Science Mission Directorate at NASA. The investments are needed to 
implement the priorities of the National Academies Earth Science and 
Applications from Space Decadal Survey. NASA needs to maintain its 
current fleet of Earth-observing satellites, launch the next tier and 
accelerate development of the subsequent tier of missions. The 
observations and understanding about our dynamic Earth gained from 
these missions are critical and needed as soon as possible. Earth 
observations are used every day, not just for research, but for 
critical information to aid society in mundane tasks, like weather 
forecasting and emergency services, such as tracking volcanic ash 
plumes or oil spills that disrupt the economy and the environment.
    We applaud the successful launch and ongoing operational testing of 
the NASA-U.S. Geological Survey Landsat Data Continuity Mission. This 
program, soon to be renamed Landsat 8, will continue the 40-year 
Landsat record of land imaging and we support requested funding of $2.2 
million for this mission. We also strongly support the newly created 
Land Imaging project, which will develop new capabilities to continue 
and extend Landsat records. Please support the President's request for 
$30 million for the initial phase of Land Imaging.
    We appreciate this opportunity to provide testimony to the 
Subcommittee and would be pleased to answer any questions or to provide 
additional information for the record.
                                 ______
                                 
          Prepared Statement of the American Geophysical Union
    The American Geophysical Union (AGU), a non-profit, non-partisan 
scientific society, appreciates the opportunity to submit testimony 
regarding the fiscal year 2014 budget request for the National 
Aeronautics and Space Administration (NASA), the National Oceanic and 
Atmospheric Administration (NOAA), and the National Science Foundation 
(NSF). The AGU, on behalf of its over 62,000 Earth and space scientist 
members, would like to respectfully request that Congress appropriates 
at least fiscal year 2012 enacted levels of $1.761 billion for Earth 
Science at NASA, $580.59 billion overall for NOAA, and $7.033 billion 
overall for NSF.
                      national science foundation
    AGU supports an overall budget of at least $7.033 billion for NSF. 
AGU greatly appreciates Congress's support for science and technology 
in past appropriations and through the America COMPETES Reauthorization 
Act of 2010. Investments in NSF provide for America's future in a 
responsible manner. These investments pay out vitally important 
dividends in future development that drives economic growth, especially 
in critical areas of sustainable and economic natural resources and 
reduced risks from natural hazards. Support for science will maintain 
our economic and industrial leadership in the global marketplace, 
ensure economic progress, grow jobs, and uphold society's advancement.
Geosciences Directorate
    AGU requests $885.27 million for the Geosciences Directorate (GEO), 
the principal source of Federal support for academic Earth scientists 
and their students who are seeking to understand the processes that 
sustain and transform life on this planet. Approximately 63 percent of 
support for university-based geosciences research comes from this 
directorate and more than 14,000 people will be directly supported 
through GEO in fiscal year 2014 with thousands of others deriving 
support indirectly.
    Much of the geosciences research budget leads to a better 
understanding of critical national needs, such as water and mineral 
resources, energy resources, environmental issues, climate change, and 
mitigation of natural hazards. AGU asks the Subcommittee to strongly 
support these programs.
    GEO supports infrastructure, operation, and maintenance costs for 
cutting edge facilities that are essential for basic and applied 
research. Geoscience-based research tools and academic expertise helped 
to end the BP Deepwater Horizon oil spill, saving billions of dollars 
for industry and untold costs to the environment. Among the major 
facilities that NSF supports, the Academic Research Fleet, EarthScope 
Operations, Incorporated Research Institutions for Seismology (IRIS), 
Ocean Drilling Activities, the Ocean Observatories Initiative, and the 
National Center for Atmospheric Research are all key to our nation's 
innovation and economic well-being. AGU strongly supports robust and 
steady funding for this infrastructure as well as operation and 
maintenance of these major facilities.
Earth Science Education
    The geosciences workforce is aging and being quickly depleted. 
Congress can grow this workforce, stimulate economic growth in the 
energy, natural resources and environmental sectors, and improve 
natural resource literacy by supporting the full integration of Earth 
science information into mainstream science education at the K-12 and 
higher education levels. AGU strongly supports the Math and Science 
Partnerships (MSP), the Graduate Research Fellowships (GRF) and the 
Research Experiences for Undergraduates (REU) within NSF's Education 
and Human Resources Division. These programs are effective in building 
a science and engineering workforce for the twenty-first century. 
Improving geoscience education, one of the goals of NSF-EHR, to levels 
of recognition similar to other scientific disciplines is critical.
            national oceanic and atmospheric administration
Joint Polar Satellite System (JPSS)
    AGU supports fully funding JPSS in fiscal year 2014. Because the 
fiscal year 2011 funds that were necessary to launch JPSS on time were 
not appropriated, there will be a data gap beginning in 2017. It is 
critical that Congress sufficient funds for JPSS in fiscal year 2014 in 
order to minimize the length of that gap.
    Polar satellites provide the only weather and climate information 
for large portions of the planet and are particularly important for a 
whole host of end users. For military planners, overseas U.S. military 
operations will be greatly affected by the data gap. JPSS will provide 
critical information for long-term forecasts, which are imperative for 
troop deployments and planning operations. Additionally, weather 
forecasts for oil and gas companies doing work in Alaska, as well as 
cargo and cruise ships carrying billions of dollars worth of goods and 
millions of passengers, will be compromised. Furthermore, our ability 
to forecast weather in Alaska will be severely compromised. Others 
impacted by a data gap include the aviation industry, as JPSS will 
observe volcanic eruptions and track the movement of ash clouds; 
agriculture, as farmers rely on polar satellites for drought, extreme 
temperature, and length of growing season information; the fishing 
industry, as fishermen check sea-surface data from polar satellites to 
find fish stocks before heading out for their daily catch; and finally 
weather forecasting, as forecasters' ability to accurately project the 
intensity and trajectory of severe weather events, such as hurricanes, 
will be greatly diminished.
National Weather Service (NWS)
    AGU hopes the Subcommittee will continue to support NWS and will 
fund it at the fiscal year 2012 enacted level of $972 million in fiscal 
year 2014. NWS is critical to protecting American lives, property, and 
commerce. Weather observations provide information that is vital for 
weather modeling and functions like accurate tornado watches and 
warnings and storm forecasting must be preserved. Furthermore, buoy and 
surface weather observations are the backbone of most of the weather 
warning systems. Because at least one-third of U.S. GDP is concentrated 
in weather-sensitive industries, it is critical that Congress maintains 
the United States' robust weather forecasting infrastructure.
             national aeronautics and space administration
Earth Science
    AGU supports the vital Earth observing programs within NASA. AGU 
supports the fiscal year 2012 enacted level of $1.761 billion for Earth 
Science programs within the Science Mission Directorate at NASA. The 
investments are needed to implement the priorities of the National 
Academies Earth Science and Applications from Space Decadal Survey. 
NASA needs to maintain its current fleet of Earth-observing satellites, 
launch the next tier, and accelerate development of the subsequent tier 
of missions. The observations and understanding about our dynamic Earth 
gained from these missions is critical and needed as soon as possible. 
Earth observations are used every day, not just for research, but for 
critical information to aid society in routine tasks, such as weather 
forecasting, emergency services, and tracking volcanic ash plumes or 
oil spills that disrupt the economy and the environment.
Planetary Science
    AGU supports the fiscal year 2012 enacted levels of $1.501 billion 
for the Planetary Science programs within the Science Mission 
Directorate at NASA. Planetary science examines the origin, content, 
and evolution of the solar system and the potential for life elsewhere. 
There are more practical applications for planetary sciences as well. 
The science data from many planetary missions provides scientists with 
critical information for future human spaceflight missions, which 
furthers NASA's exploration agenda. Additionally, Robotic Mars orbiters 
are mapping natural resources such as water and minerals on Mars.
    AGU appreciates this opportunity to provide testimony to the 
Subcommittee and would be pleased to answer any questions or to provide 
additional information for the record. We thank you for your thoughtful 
consideration of our request. For additional information, please 
contact Elizabeth Landau at the American Geophysical Union.
                                 ______
                                 
  Prepared Statement of the American Institute of Biological Sciences
    The American Institute of Biological Sciences (AIBS) appreciates 
the opportunity to provide testimony in support of fiscal year 2014 
appropriations for the National Science Foundation (NSF). We encourage 
Congress to provide NSF with at least $7.626 billion in fiscal year 
2014.
    The AIBS is a nonprofit scientific association dedicated to 
advancing biological research and education for the welfare of society. 
AIBS works to ensure that the public, legislators, funders, and the 
community of biologists have access to and use information that will 
guide them in making informed decisions about matters that require 
biological knowledge. Founded in 1947 as a part of the National Academy 
of Sciences, AIBS became an independent, member-governed organization 
in the 1950s. Today, AIBS has nearly 160 member organizations and is 
headquartered in Reston, Virginia, with a Public Policy Office in 
Washington, DC.
                           nsf and innovation
    The NSF is an important engine that helps power our nation's 
economic growth. Through its competitive, peer-reviewed research 
grants, NSF supports the development of new knowledge that will help to 
solve the most challenging problems facing society, and will lead to 
new scientific discoveries, patents, and jobs. The agency's education 
and training programs are helping to ensure that the next generation 
has the scientific, technical, and mathematical skills employers are 
seeking. Investments in research equipment and facilities enable the 
country to continue to innovate and compete globally.
    These efforts, however, require a sustained Federal investment. 
Unpredictable swings in Federal funding can disrupt research programs, 
create uncertainty in the research community, and stall the development 
of the next great idea.
    NSF is a sound investment that pays dividends. The use of peer-
review to evaluate and select the best proposals means that NSF is 
funding the highest quality research.
    The research supported by NSF is unique from the science funded by 
other Federal programs. Unlike most Federal agencies, which focus on 
applied research, NSF supports basic research that advances the 
frontiers of our knowledge about biodiversity, genetics, physiology, 
and ecosystems. Recent discoveries that stem from NSF-funded research 
include:
  --Development of a robotic fish that mimics live fish behavior. The 
        robot could be used to lead schools of real fish away from 
        dangers such as turbines or oil spills.
  --Identification of the mechanisms that keep natural structures, like 
        plant leaves and butterfly wings, clean. This information could 
        be used to prevent fouling of human-made structures.
  --Calculation of the impact of bark beetle infestations on a forest's 
        ability to store carbon dioxide. This new method can also be 
        used to assess other economic impacts of forest loss.
  --Discovery of the key proteins and enzymes in an insect's outer 
        shell, and identification of which proteins break down easily. 
        These insights could be used to create more effective pest 
        control strategies.
                    biological sciences directorate
    The NSF is the primary Federal funding source for basic biological 
research at our nation's universities and colleges. The NSF provides 
approximately 64 percent of extramural Federal support for non-medical, 
fundamental biological and environmental research at academic 
institutions.
    The Biological Sciences Directorate (BIO) funds research in the 
foundational disciplines within biology. These fields of study further 
our understanding of how organisms and ecosystems function. 
Additionally, BIO supports innovative interdisciplinary research that 
improves our understanding of how human social systems influence--or 
are influenced by--the environment, such as the NSF-wide Science, 
Engineering, and Education for Sustainability program. In collaboration 
with NSF's engineering and math and physical sciences directorates, BIO 
is working to develop new, cutting-edge research fields. For example, 
the BioMaPS program is accelerating understanding of biological 
systems, and applying that knowledge to new technologies in clean 
energy.
    Equally important, BIO provides essential support for our nation's 
place-based biological research, such as field stations and natural 
science collections. The Long-Term Ecological Research program supports 
fundamental ecological research over long time periods and large 
spatial scales, the results of which provide information necessary for 
the identification and resolution of environmental problems.
    The fiscal year 2014 budget request would also sustain an effort to 
digitize high priority specimens in U.S. natural science collections. 
This investment will help the scientific community ensure access to and 
appropriate curation of irreplaceable biological specimens and 
associated data, and stimulate the development of new computer hardware 
and software, digitization technologies, and database management tools.
    The Dimensions of Biodiversity program supports cross-disciplinary 
research to describe and understand the scope and role of life on 
Earth. Despite centuries of discovery, most of our planet's 
biodiversity remains unknown. This lack of knowledge is particularly 
troubling given the rapid and permanent loss of global biodiversity. A 
better understanding of life on Earth will help us to make new bio-
based discoveries in the realms of food, fiber, fuel, pharmaceuticals, 
and bio-inspired innovation.
    The Major Research Equipment and Facilities Construction account is 
funding the construction of the National Ecological Observatory Network 
(NEON). Once completed, NEON will provide the infrastructure necessary 
to collect data across the United States on the effects of climate 
change, land use change, water use, and invasive species on natural 
resources and biodiversity. This information will be valuable to 
scientists, resource managers, and government decision makers as they 
seek to better understand and manage natural systems.
                             stem education
    NSF plays a central role in science, technology, engineering, and 
mathematics (STEM) education. Support for the scientific training of 
undergraduate and graduate students is critically important to our 
research enterprise. Students recruited into science through NSF 
programs and research experiences are our next generation of innovators 
and educators. In short, NSF grants are essential to the nation's goal 
of sustaining our global leadership in science, technology, engineering 
and mathematics, and reigniting our economic engines.
    NSF's education initiatives support STEM education innovation from 
elementary school through post-graduate. The Graduate Research 
Fellowship program is an important part of our national effort to 
recruit and retain the best and brightest STEM students. The Faculty 
Early Career Development program (CAREER) supports young faculty who 
are dedicated to integrating research with teaching and learning.
    Major changes to STEM education programs are proposed in the NSF 
fiscal year 2014 budget request. We appreciate the need for efficient 
and effective government programs, especially in light of the current 
fiscal situation. We are concerned, however, that implementation of 
these changes will proceed before the full details are known. Given the 
considerable consequences for student education and training, we hope 
that Congress will provide careful consideration of the potential 
impacts to our nation's pipeline of researchers and STEM-skilled 
workers.
                               conclusion
    Continued investments in the biological sciences are critical. 
Sustained support for NSF will help spur economic growth and 
innovation, and continue to build scientific capacity at a time when 
our nation is at risk of being outpaced by our global competitors. 
Please support an investment of at least $7.626 billion for NSF for 
fiscal year 2014.
    Thank you for your thoughtful consideration of this request and for 
your prior efforts on behalf of science and the National Science 
Foundation.
                                 ______
                                 
 Prepared Statement of the American Indian Higher Education Consortium
    This statement focuses on the National Science Foundation (NSF) and 
National Aeronautics and Space Administration (NASA).
    On behalf of this nation's 37 Tribal Colleges and Universities 
(TCUs), which collectively are the American Indian Higher Education 
Consortium (AIHEC), thank you for the opportunity to express our views 
and recommendations regarding the Tribal Colleges and Universities' 
Programs with the National Science Foundation (NSF--TCUP) and National 
Aeronautics and Space Administration (NASA--TCUP) for fiscal year 2014.
                          summary of requests
    National Science Foundation (NSF)--Education and Human Resources 
Directorate (EHR).--Since fiscal year 2001, a TCU initiative has been 
funded and administered under the NSF--EHR. This competitive grants 
program enables TCUs to enhance the quality of their science, 
technology, engineering, and mathematics (STEM) instructional, 
research, and outreach programs. TCUs that have been awarded an NSF--
TCUP grant have completed comprehensive institutional needs analysis 
and developed a plan for how to address both their institutional and 
NSF goals, with a primary institutional goal being significant and 
sustainable expansion and improvements to STEM programs. Through NSF--
TCUP, Tribal Colleges and Universities have been able to establish and 
maintain programs that represent a key component of the pipeline for 
the American Indian STEM workforce. We urge the Subcommittee to fund 
the NSF--TCU competitive grants program at a minimum of $13,350,000.
    National Aeronautics and Space Administration (NASA)--NASA 
Headquarters, Office of Education--Minority University Research and 
Education Programs.--The NASA--TCUP offers competitive grants to 
enhance the range of education and research opportunities in STEM areas 
at the nation's TCUs. Programs and activities funded under this vital 
program help to address the science education and research needs of 
TCUs and help in building the Native (and national) STEM workforce, and 
enhance the economic development of the communities they serve. We 
strongly urge the Subcommittee to fund the NASA--TCU grants program at 
the fiscal year 2010 level.
        tcu shoestring budgets: ``doing so much with so little''
    Tribal Colleges and Universities are an essential component of 
American Indian/Alaska Native (AI/AN) education. Currently there are 37 
TCUs operating more than 75 campuses and sites in 15 States, within 
whose geographic boundaries 80 percent of American Indian reservations 
and Federal Indian trust land lie. They serve students from well over 
250 federally recognized tribes, more than 75 percent of whom are 
eligible to receive Federal financial aid. In total, the TCUs annually 
serve about 88,000 AIs/ANs through a wide variety of academic and 
community-based programs. TCUs are accredited by independent, regional 
accreditation agencies and like all U.S. institutions of higher 
education must undergo stringent performance reviews on a periodic 
basis to retain their accreditation status. Each TCU is committed to 
improving the lives of its students through higher education and to 
moving American Indians toward self-sufficiency.
    To do this, TCUs must fulfill additional roles within their 
respective reservation communities functioning as community centers, 
libraries, tribal archives, career and business centers, economic 
development centers, public meeting places, and child and elder care 
centers.
    TCUs have advanced AI/AN higher education significantly since we 
first began four decades ago, but many challenges remain. Tribal 
Colleges and Universities are perennially underfunded, and remain some 
of the most poorly funded institutions of higher education in the 
country.
    The tribal governments that have chartered TCUs are not among the 
handful of wealthy gaming tribes located near major urban areas and 
highlighted in the mainstream media. Rather, they are some of the 
poorest governments in the country. Tribal Colleges and Universities 
are home to some of the most disadvantaged counties in America.
    The Federal Government, despite its direct trust responsibility and 
treaty obligations, has never fully funded the TCUs' institutional 
operating budgets, authorized under the Tribally Controlled Colleges 
and Universities Assistance Act of 1978. Currently, the Administration 
requests and Congress appropriates over $200 million annually, towards 
the institutional operations of Howard University (exclusive of its 
medical school), the only other MSI that receives institutional 
operations funding from the Federal Government. Howard University's 
current Federal operating support exceeds $19,000/student. In contrast, 
most TCUs are receiving $5,665 per Indian Student (ISC) under the 
Tribal College Act, about 70 percent of the authorized level. TCUs have 
proven that they need and have earned an investment equal to--at the 
very least--the congressionally authorized level of $8,000/Indian 
student, which is only 42 percent of the Federal share now appropriated 
for operating Howard University. It is important to note that although 
about 17 percent of the TCUs' collective enrollments are non-Indian 
students living in the local community, TCUs only receive Federal 
funding based on Indian students, which are defined as members of a 
federally recognized tribe or a biological child of a tribal member. 
Please understand that we are by no means suggesting that our sister 
MSI, Howard University does not need or deserve the funding it 
receives, only that the TCUs also need and deserve adequate 
institutional operations funding; however, their operating budgets 
remain grossly underfunded.
    While TCUs do seek funding from their respective State legislatures 
for their students that are non-Indian State-residents (sometimes 
referred to as ``non-beneficiary'' students) successes have been at 
best inconsistent. TCUs are accredited by the same regional agencies 
that accredit mainstream institutions, yet they have to continually 
advocate for basic operating support for their non-Indian State 
students within their respective State legislatures. If these non-
beneficiary students attended any other public institution in the 
State, the State would provide that institution with ongoing funding 
toward its day-to-day operations. Given their locations, often hundreds 
of miles from another postsecondary institution, TCUs remain open to 
all students, Indian and non-Indian, believing that education in 
general, and postsecondary education in particular is the silver bullet 
to a better economic future for their regions.
    TCUs effectively blend traditional teachings with conventional 
postsecondary curricula. They have developed innovative ways to address 
the needs of tribal populations and are overcoming long-standing 
barriers to success in higher education for American Indians. Since the 
first TCU was established on the Navajo Nation in 1968, these vital 
institutions have come to represent the most significant development in 
the history of Tribal higher education, providing access to, and 
promoting achievement among students who might otherwise never have 
known postsecondary education success.
                             justifications
    National Science Foundation/Tribal Colleges and Universities 
Program (NSF--TCUP) in the Education and Human Resources Directorate.--
American Indian students have the highest high school drop-out rates in 
the country. On average, more than 75 percent of all TCU students must 
take at least one developmental course, most often precollege 
mathematics. Of these students, our data indicate that many do not 
successfully complete the course in 1 year. Without question, a large 
proportion of the TCUs' already limited resources is dedicated to 
addressing the perennial failings of K-12 education systems.
    To help rectify this, TCUs have developed strong partnerships with 
their local K-12 feeder schools and are actively working, in large part 
through support from NSF--TCU grant programs, to engage young students 
in community and culturally relevant science and math education and 
outreach programs. These efforts include weekend academies and summer 
STEM camps that reinforce and supplement the instructional programs 
area K-12 schools are able to provide.
    Beginning in fiscal year 2001, NSF--TCUP has provided essential 
capacity building assistance and resources to TCUs. In the years since 
the program began, NSF--TCUP has become the primary Federal program for 
building STEM capacity at the TCUs. NSF--TCUP has served as a catalyst 
for capacity building and positive change at TCUs and the program can 
be credited with many success stories. Today, American Indians and 
Alaska Natives are more aware of the importance of STEM to their long-
term survival, particularly in areas such as renewable energy and 
technology-driven economic development.
    The NSF--TCU program, administered by the Education and Human 
Resources Directorate, is a competitive grants program that enables 
TCUs to develop and expand critically needed science and math education 
and research programs relevant to their respective communities. Through 
this program, TCUs that have been awarded an NSF--TCUP grant have been 
able to enhance their STEM instructional offerings, workforce 
development, research, and outreach programs.
    For example, College of Menominee Nation (CMN) in Keshena, WI has 
established strong programs in Pre-engineering, Computer Science, 
Natural Resources, the Biological and Physical Sciences, and 
Sustainable Development primarily through support from NSF--TCUP. CMN's 
Sustainable Development Institute now hosts regional and sometimes 
international conferences on sustainable practices and in 2011 hosted 
an important conference for tribes located in the Great Lakes region to 
review current research on, and discuss strategies for responding to, 
emerging challenges attributed to climate change. CMN is an example of 
how TCUs are using their STEM programs as a springboard for taking 
critical leadership roles within their communities. Additionally, 
faculty and students at Haskell Indian Nations University in Lawrence, 
KS are using the university's Sequoyah Computer and GIS Lab to support 
their work with the Omaha and Winnebago Tribal Nations in collecting 
and analyzing hydrologic and botanical data necessary to support 
resource management decisionmaking by the tribal leadership.
    Unfortunately, not all of the TCUs have had an opportunity to 
benefit from this dynamic program; yet, funding for this program has 
been static, and the percentage of proposals funded has declined each 
year beginning in 2004. We strongly urge the Subcommittee to fund the 
NSF--TCU grants program at a minimum of $13,350,000.
    National Aeronautics and Space Administration (NASA)--Tribal 
Colleges and Universities Program (NASA--TCUP) in the NASA 
Headquarters, Office of Education--Minority University Research and 
Education Programs.--Since 2010, Navajo Technical College (NTC) in 
Crownpoint, NM, has conducted an extremely successful program initiated 
through and funded under a three year NASA--TCUP grant to the American 
Indian Higher Education Consortium (AIHEC) entitled: Launching 
Undergraduate Native Americans in Research, Education, and Employment 
or AIHEC--LUNAR-e. NTC through a partnership with NASA's Marshall Space 
Flight Center in Huntsville, AL not only offers students unparalleled 
real world science research experience at NASA Centers but has created 
a model for fostering long-term relationships between TCUs and NASA 
Centers. Building on this initial grant, NTC has developed an 
innovative degree program in digital technology, which is providing an 
incubator for developing new American Indian-owned digital technology 
businesses that in turn will foster economic development of Tribal 
communities. We strongly urge the Subcommittee to fund the NASA--TCU 
grants program at the fiscal year 2010 level.
                               conclusion
    Tribal Colleges and Universities provide access to quality higher 
education opportunities, including STEM focused programs, for thousands 
of American Indians. The modest Federal investment that has been made 
in TCUs has paid great dividends in terms of employment, education, and 
economic development. Continuation of this investment represents one of 
the most cost-effective strategies for enabling Tribal (and national) 
STEM-based economic development, and makes sound moral and fiscal 
sense.
    We greatly appreciate your past and continued support of the Tribal 
Colleges and Universities and your serious consideration of our fiscal 
year 2014 appropriation requests.
                                 ______
                                 
    Prepared Statement of the Association of Public and Land-grant 
         Universities' Board on Oceans, Atmosphere, and Climate
    On behalf of the Association of Public and Land-grant Universities' 
(APLU's) Board on Oceans, Atmosphere, and Climate (BOAC), we thank you 
for the opportunity to provide support of and recommendations for the 
proposed fiscal year 2014 budgets for the National Oceanic and 
Atmospheric Administration (NOAA), the National Aeronautic and Space 
Administration (NASA) and the National Science Foundation (NSF). BOAC 
represents over 300 scientists and administrators at APLU's 218 member 
universities and systems. We support the administration's budget 
request of $5.447 billion for NOAA, $17.715 billion for NASA and $7.6 
billion for NSF. In general, APLU supports the Administration's 
attention to STEM education and its importance. Within the NOAA budget, 
however, we do not support the termination of the $4 million in STEM 
education activities within Sea Grant.
    As external partners, we help these agencies fulfill their mission 
to ensure homeland security, maintain global communications, increase 
economic vitality, and inform the public of atmospheric and marine 
ecological health threats. To fulfill these missions, the nation 
depends upon reliable science.
    About $3 trillion or one-third of the U.S. economy, including 
industries as diverse as agriculture, finance, energy, insurance, 
transportation, real estate and outdoor recreation, is highly weather- 
and seasonal climate-sensitive. It was estimated that all weather 
combined can produce a variation in the gross domestic product of 3.4 
percent or $485 in 2008 dollars, the year studied. Extreme weather 
events, like tornadoes, hurricanes, oppressive heat, heavy 
precipitation both wet and frozen, catastrophic floods, dust storms and 
drought, clearly demonstrate both the immediate and long-term impacts 
that weather and seasonal climate can have on a region. In 2012, the 
U.S. had no less than 11-billion-dollar-plus events including: 
Hurricane Sandy ($62 billion), 2012 drought ($35 billion and counting), 
March 2-3 tornado outbreak ($4 billion), June 29 Derecho ($3.75 
billion), and Hurricane Isaac ($2 billion).
    Environmental data collected and distributed by NASA, NSF and NOAA 
represent a national resource used not only by universities for 
research, education and outreach, but also by private industry to 
produce the products and services utilized by the energy, 
transportation, public utility, water, recreation resource, food, 
insurance, homeland security and other sectors of the Nation, all of 
which contribute to the economic vitality of the country and the well-
being of the citizenry.
    In order to address the nation's needs, we need to ensure:
  --A robust observing system, as described by the NRC's 2009 report, 
        ``Observing Weather and Climate from the Ground Up, a 
        Nationwide Network of Networks'';
  --Forecast and predictive capability for the nation;
  --Robust extramural funding to leverage the talents of the nation and 
        to ensure the education of future scientists; and
  --Outreach to help translate the science into actionable items for 
        communities.
    Currently, some of these systems are being damaged by the on-going 
sequester. Furthermore, based on the caps put in place in the Budget 
Control Act of 2011, discretionary spending is poised to bear the brunt 
of cuts for the next decade. A slow bleeding of our nation's science 
agencies will leave our nation poorly prepared for a changing world and 
unable to create the technological innovations needed for future 
challenges. Forecasting the onset, duration and effects of solar 
storms, atmospheric weather events, coastal storms, floods and storm 
surges, sea-level variability, toxic algal blooms, and seasonal climate 
conditions depends on sustained funding of the science and technology. 
As your committee faces the incredibly difficult task of deciding where 
to spend its dollars, please consider the life-saving technologies 
(Doppler radar and its upgrades, 7 day warnings for hurricanes) 
developed from past investments in science by Congress and what 
technologies may come next from investment by this Congress.
    NOAA, NASA and NSF each play unique roles in a number of high-
priority U.S. and international initiatives. All three agencies also 
support research at our member institutions that provides critical 
information to policymakers and communities across the country, as well 
as advances U.S. science and technology through strong collaboration 
with these agencies.
    Below we comment on the needs of each agency and their 
collaborating science communities:
                                  noaa
    NOAA provides important services to all Americans, services that 
are vital to our economy, national security, surface, marine and air 
transportation, human safety and the health of human and marine 
ecological systems.
    Of ongoing concern is the need for increased and sustained support 
of satellite and in situ environmental observing systems. As reported 
in several prior and recent National Research Council studies 
(Observing Weather and Climate from the Ground Up, a Nationwide Network 
of Networks, NRC, 2009), the needs are particularly acute for urbanized 
areas as well as mountain, ocean and coastal regions. Vertical profiles 
of variables such as water vapor, winds, and temperatures are virtually 
non-existent over land and are non-existent over water. Over land, the 
primary recommendation is for the placement of vertical profilers, 
vertically pointing radars, acoustic sounders and lidars that collect 
vertical observations of wind and temperature from the ground up 
through the lower atmosphere.
    While we recommend sustained support for NOAA's satellite programs, 
we point out that this support should not be at the expense of NOAA's 
extramural funding of research, education and outreach. Extramural 
funding is cost effective. Its highly competitive nature ensures up-to-
date qualifications and cutting-edge approaches without the continuing 
costs of developing, maintaining and updating these skills in house. It 
provides essential training in research skills to provide the next 
generation of researchers. In 2004 the NOAA Science Advisory Board's 
Research Review Team report concluded:

    `` . . . Extramural research is critical to accomplishing NOAA's 
mission. NOAA benefits from extramural research in many ways, 
including: access to world class expertise not found in NOAA 
laboratories; connectivity with planning and conduct of global science; 
means to leverage external funding sources; facilitate multi-
institution cooperation; access to vast and unique research facilities; 
and access to graduate and undergraduate students. Academic scientists 
also benefit from working with NOAA, in part by learning to make their 
research more directly relevant to management and policy. It is an 
important two-way street . . . NOAA cannot accomplish its goals without 
the extramural community, specifically the universities and 
institutions that represent the broad range of expertise and resources 
across the physical, biological, and social sciences (emphasis added). 
Moreover, there is the important issue of maintaining a scientific and 
technologically competent workforce in NOAA and the workforce is 
another ``product'' of the extramural research community . . . Also it 
is important that during difficult budget periods that NOAA not 
disproportionately target the extramural research for budget cuts.''

    NOAA's support of environmental research and education via 
Cooperative Institutes and programs such as the Oceanic and Atmospheric 
Research's Sea Grant and the Office of Ocean Exploration and Research 
programs are critical to university research, education and outreach. 
Similarly, NOAA's role in understanding the oceans and coastal areas 
and oceanic resources through the National Centers for Coastal Ocean 
Science support and help maintain sustainable coastal economies.
    While we are highly supportive of the Administration's request of 
$72.7 million for the National Sea Grant College Program, we do not 
support the Administration's request to terminate the Sea Grant Knauss 
Fellowship Program or the Sea Grant-NOAA Fisheries Fellowship Program. 
Though we appreciate the Administration's attention to STEM education, 
we believe these particular programs serve a focused need by a focused 
scientific community that engage NOAA. Terminating these programs and 
expecting a more generic program to pick up the slack would likely lose 
the attention given to building the STEM workforce in fisheries and 
ocean and coastal sciences.
                                  nasa
    In 2007, the National Academies issued the report, ``Earth and 
Science Applications from Space: National Imperatives for the Next 
Decade and Beyond.'' The report found that between 2000 and 2009 
funding for Earth Sciences (ES) had fallen substantially. ES research 
is absolutely critical to understanding climate change, such as the 
decline of Earth's ice sheets and the health of the global oceans. For 
this reason, BOAC is heartened by the Administration's request for 
NASA's expanded and enhanced science mission. Past investments in 
NASA's science mission have funded university research that has 
resulted in the development of new instruments and technologies and in 
valuable advances in weather forecasting, climate projections and 
understanding of Earth ecosystems.
    NASA is instrumental in deploying satellites used by NOAA and in 
cooperating with other countries. Furthermore, without the tools 
developed at NASA, oceanic, atmospheric, hydrologic and earth-system 
scientists and the nation would have only a fragmentary picture of the 
interconnected functioning of the planet's oceans, atmosphere and land. 
NASA plays a role in technology transfer from NOAA by testing new 
sensors. NASA is currently developing a sensor that will for the first 
time give scientists and resource planners a global picture of the 
world's terrestrial water supplies. Currently many lakes and rivers are 
not monitored and there is no centralized location for water resource 
information. The NASA data archive is an irreplaceable collection of 
environmental information that researchers depend upon. Furthermore, 
through its support for young scientists and graduate students, the 
NASA science mission supports innovation.
    Finally, we support funding NASA to develop and implement a 
scatterometer mission with fast community access to those data, 
capability to distinguish between wind and rain and a higher orbit for 
coverage of Alaskan waters. The scatterometer has been a critical 
component of hurricane prediction.
                                  nsf
    BOAC supports funding of NSF, which is critical to U.S. basic 
research. NSF supplies almost two-thirds of all Federal funding for 
university-based, fundamental research in the geosciences. GEO-
supported research increases our ability to understand, forecast, 
respond to and prepare for environmental events and changes. NSF's 
Water Sustainability and Climate program addresses the pressing 
challenge of providing adequate water quantity and quality in light of 
both burgeoning human needs and increasing climate variability and 
change. Through facilities such as the Oceans Observatory Initiative, 
the Integrated Ocean Drilling Program, and NCAR-Wyoming supercomputer, 
NSF provides the academic community with advanced capabilities that it 
would not be able to afford if conducted through individual 
institutions. It does so without growing the needs for increased 
personnel, training and retooling in house at Federal laboratories and 
while training the next generation.
    The National Center for Atmospheric Research (NCAR), based in 
Boulder Colorado, is a federally Funded Research and Development Center 
(FFRDC) of the National Science Foundation, managed by the University 
Corporation for Atmospheric Research (UCAR). It is funded out of the 
Atmospheric and Geospace Sciences Division of the Geosciences 
Directorate. NCAR performs research that positively affects the economy 
and saves lives. The laboratory makes weather forecasts more accurate, 
enables better prediction of severe storms, including tornadoes and 
hurricanes, and manages climate computer models that inform stakeholder 
decisions regarding agriculture, water resource management, 
transportation, and energy resources. It extends the atmospheric 
sciences research capabilities of the nation's universities through 
management of weather and climate observing platforms such as research 
aircraft, radars, and satellites. The laboratory provides computing 
capacity to this broad community through the NCAR-Wyoming 
Supercomputing Center (NWSC), opening this year.
                                summary
    Together, NOAA, NASA, and NSF provide critical earth observations 
and research funding for scientists, engineers and mathematicians 
working to increase understanding of natural phenomena of economic and 
human significance. BOAC thanks the Committee for its continued support 
of these critical agencies.
                                 ______
                                 
      Prepared Statement of the American Society for Microbiology
    The American Society for Microbiology (ASM) is pleased to submit 
the following testimony on the fiscal year 2014 appropriation for the 
National Science Foundation (NSF). The ASM is the largest single life 
science organization in the world with more than 37,000 members.
    The National Science Foundation supports fundamental research and 
education across all fields of science and engineering. There is no 
doubt that NSF funded research contributes greatly to the Nation's 
economic growth and improves quality of life. Since its creation in 
1950, the NSF mission has been to promote the progress of science and 
broadly stimulate discovery and innovation important to human welfare.
    NSF provides more than 20 percent of Federal support for basic 
research at U.S. academic institutions with approximately 11,000 new 
grant awards per year selected from over 40,000 proposals. Every year, 
the NSF supports at least 200,000 scientists, engineers, educators and 
students at universities, laboratories, and research sites throughout 
the United States and worldwide. NSF resources also fuel the Nation's 
strategy to elevate K-12 education in science, technology, engineering 
and mathematics (STEM), toward a science literate public and an 
expanded technical workforce.
    The ASM is concerned about sequestration cuts to the NSF budget. 
NSF's tradition of expending most of its budget to support extramural 
projects will inevitably link budget cuts to diminished research 
throughout the country. We urge Congress to support the NSF fiscal year 
2014 budget at the highest level possible.
     nsf funding stimulates innovation, research and infrastructure
    Each year, nearly all of the NSF's appropriation directly supports 
extramural STEM related activities. In the Agency's fiscal year 2013 
budget request, 81 percent was allocated for research and related 
activities, 12 percent for STEM education and workforce expansion, and 
3 percent for major research equipment and infrastructure construction. 
NSF funding of individual and institutional research collectively 
empowers the U.S. research enterprise as NSF fulfills strategic goals 
to: ``transform the frontiers and innovate for society.''
    Most NSF research funding distributed each year supports U.S. 
academic institutions (77 percent in fiscal year 2013). In a recent 
funding cycle, NSF's share of Federal funding for basic academic 
research in the United States included: 48 percent for physical 
sciences, 39 percent for engineering, 59 percent for environmental 
sciences, 61 percent for social sciences, 64 percent for mathematics, 
64 percent for non NIH biological sciences, and 81 percent for computer 
sciences. The broad scope of the NSF's mission allows for funding to 
most of the nation's academic STEM-associated departments, schools, and 
disciplines. In fiscal year 2011, the NSF awarded 11,200 competitive 
awards to 1,875 institutions, supporting 276,000 researchers, 
postdoctoral fellows, trainees, teachers and students.
    U.S. industries commercializing STEM discoveries are increasingly 
reliant on scientists and engineers outside of industry for basic 
research. Reports like the National Science Board's 2012 ``Science and 
Engineering Indicators'' consistently point to the United States' world 
class universities as incubators for economically valuable technology 
based products, as well as the dire need for more U.S. students in STEM 
graduate programs.
    Declines in State funding are threatening public university 
recruitment of top tier faculty and students, research performance and 
training of new scientists and engineers. According to an NSF report 
released in September, State per student funding for the Nation's 
principal public research universities dropped an average of 20 percent 
between 2002 and 2010, with some States falling as much as 48 percent. 
NSF has a long tradition of supporting new generations of scientists 
and engineers. Since 1952, it has awarded 44,000 Graduate Research 
Fellowships. More than 200 Nobel laureates have benefited from NSF 
funding and include half of the 2012 winners. The fiscal year 2013 
budget request included $19 million for the NSSF Innovation Corps, 
among multiple programs to promote research training and careers.
    NSF skillfully fosters large scale research that would be 
impossible without far sighted Federal grant-award mechanisms. For 
example, the Experimental Program to Stimulate Competitive Research 
(EPSCoR) infuses economic and intellectual resources into States and 
funding projects comprising multiple disciplines and institutions. 
Three fiscal year 2013 examples are Alaska's Adapting to Changing 
Environments project; Utah's Urban Transitions and Arid-region Hydro-
sustainability project; and Wyoming's project to establish a research 
center on watershed hydrology, geophysics, remote sensing, and 
computational modeling. NSF support also builds research infrastructure 
like computational capabilities or multi user facilities such as U.S. 
Antarctic stations. Last year, NSF became lead agency on the new U.S. 
Ignite initiative to build, test, and explore next generation networks, 
to help transform U.S. computing capabilities.
         nsf funding expands frontiers of scientific knowledge
    Research in the United States becomes more expensive and complex 
each year. The NSF recognizes that there is unprecedented potential for 
innovative results. Boundaries that once defined engineering and 
science are dissolving into melded disciplines like geobiology and 
biophysics. Through NSF funding, U.S. researchers explore science, 
engineering and technology in new ways that might otherwise be ignored. 
NSF's inclusive vision of basic research includes both the virologist 
using genetic sequencing in a university laboratory and massive, 
difficult to resolve issues like nationwide energy needs, fragility of 
our environment, or recalcitrant infectious diseases.
    The NSF supports clinical microbiology related research that offers 
public health protection, improves environments, technological advances 
that boost U.S. industry, sustainable energy sources and other 
benefits. NSF funded projects from the past year offer examples of the 
contribution to basic research:
  --Some bacteria that cause deadly cholera outbreaks can resist the 
        human immune system by changing their surface electrical 
        charge, according to a study reported last year. Based on this 
        newly understood mechanism, the researchers are screening 
        potential antibiotics against the pathogen.
  --Scientists described how cytomegaloviruses (CMV) evade host immune 
        defenses with a type of ``accelerator circuit'' in its DNA that 
        allows the virus to quickly reach optimal numbers within the 
        host cell, but stop short of killing the cell--suggesting 
        approaches to developing new therapies against the virus. CMV 
        infects more than half of adults worldwide and normally lies 
        dormant within those infected.
  --University researchers reported how the movement of individual soil 
        bacteria (Myxococcus xanthus) is amplified within bacterial 
        colonies to build waves of motion, spreading to engulf their 
        prey. The scientists used computer modeling, followed by time-
        lapse microscopy, to elucidate the collective wave motion of M. 
        xanthus, an organism useful in the growing field of systems 
        biology.
  --Scientists have discovered a unique symbiosis between single-celled 
        algae and nitrogen-fixing bacteria in the ocean, with algae 
        essentially replacing missing microbial genes typically 
        responsible for several key metabolic pathways--bacteria 
        provide nitrogen to the algae, algae carbon to the bacteria. 
        Genomic analysis points to a possible model for early evolution 
        of plant organelles like choloroplasts. The unusual bacteria 
        are likely central to global nitrogen cycles.
  --Research supported by NSF, the National Institutes of Health (NIH), 
        and the Department of Energy has described how a bacterial 
        plant pathogen (Pseudomonas syringae) tricks a host plant with 
        a chemical signal mimicking part of the plant's immune system, 
        overcoming the host's defenses by keeping open the plant's 
        stomata for more bacteria to invade. P. syringae causes disease 
        in more than 50 plant species.
    NSF excels in its support of collaborative research initiatives 
like the relatively new Ecology and Evolution of Infectious Disease 
(EEID) program, a joint effort with NIH and the U.S. Department of 
Agriculture. Focusing on the dynamics of disease transmission, EEID's 
multidisciplinary research already has added to understanding the 
globalization of infectious disease. Among the latest projects are 
those investigating how human activity like land-use trends has changed 
patterns in vector-borne pathogens, such as those responsible for West 
Nile infection, Lyme disease, and dengue fever. Another will uncover 
the ecological and socio-economic factors behind antibiotic resistance 
acquired by infectious disease pathogens, examining interactions among 
microbes, people, and animals in relatively isolated villages of 
Tanzania. Other 2012 EEID awardees are studying avian influenza, 
computer models of disease among marine invertebrates, and 
leptospirosis in Brazil.
    The ASM appreciates the opportunity to submit comments and strongly 
urges that Congress fund the National Science Foundation at the highest 
possible level in fiscal year 2014.
                                 ______
                                 
     Prepared Statement of the American Society of Plant Biologists
    On behalf of the American Society of Plant Biologists (ASPB), we 
submit this testimony for the official record to support the 
President's budget request of $7.625 billion for the National Science 
Foundation (NSF) for fiscal year 2014. ASPB and its members recognize 
the difficult fiscal environment our nation faces, but we believe that 
sustained investments in scientific research will be a critical step 
toward economic recovery and continued global competitiveness for our 
nation.
    ASPB would like to thank the Subcommittee for its consideration of 
this testimony and for its strong support for the research mission of 
NSF.
    ASPB is an organization of some 4,500 professional plant biology 
researchers, educators, graduate students, and postdoctoral scientists 
with members across the nation and throughout the world. A strong voice 
for the global plant science community, our mission--achieved through 
work in the realms of research, education, and public policy--is to 
promote the growth and development of plant biology, to encourage and 
communicate research in plant biology, and to promote the interests and 
growth of plant scientists in general.
    food, fuel, environment, and health: plant biology research and 
                            america's future
    Plants are vital to our very existence. They harvest sunlight, 
converting it to chemical energy for food and feed; they take up carbon 
dioxide and produce oxygen; and they are the primary producers on which 
most life depends. Indeed, plant biology research is making many 
fundamental contributions in the areas of energy security and 
environmental stewardship; the continued and sustainable development of 
better foods, fabrics, and building materials; and in the understanding 
of biological principles that underpin improvements in the health and 
nutrition of all Americans.
    In particular, plant biology is at the interface of numerous 
scientific breakthroughs. For example, with high throughput 
experimental approaches facilitating extraordinary syntheses of 
information that are NSF-supported, plant biologists are using computer 
science applications to make tremendous strides in our understanding of 
complex biological systems, ranging from single cells to entire 
ecosystems. Understanding how plants function ultimately will result in 
better and more productive crops, new sources of fuel, and the 
development of better medicines to treat diseases like cancer.
    Despite the significant positive impact plants have on our nation's 
economy and in addressing some of our most urgent challenges, including 
food and energy security, Federal investments in plant biology research 
are modest. Still scientists have maximized and leveraged this funding 
in order to understand the basic function and mechanisms of plants, 
providing a foundation for vital advances in practical applications in 
agriculture, health, energy, and the environment.
    To address future societal challenges that might be mitigated 
through investments in plant biology research and to prioritize 
community research efforts, ASPB organized a two-phase Plant Science 
Research Summit held in September 2011 and January 2013. With funding 
from NSF, the U.S. Department of Agriculture, the Department of Energy, 
and the Howard Hughes Medical Institute, the Summit brought together 
representatives from across the full spectrum of plant science research 
to develop a ten-year consensus plan to fill critical gaps in our 
understanding of plant biology in order to address the grand challenges 
we face. As a research community, our vision is to create plant systems 
that are flexible and adaptable to new and existing challenges by 
increasing the predictive and synthetic abilities of plant biology. In 
achieving these goals, the plant science research community will make 
significant contributions to:
  --exploring, conserving, and utilizing our natural resources;
  --protecting, maintaining, and improving crop productivity; and
  --creating new plant-inspired industries.
    ASPB expects to publish a report from the Plant Science Research 
Summit in spring 2013. This report will further detail the plant 
science community's priorities and the key initiatives needed to 
address the grand challenges facing the nation.
           robust funding for the national science foundation
    ASPB supports continuing to increase funding for NSF and encourages 
proportional funding increases across all of the scientific disciplines 
NSF supports. As scientific research becomes increasingly 
interdisciplinary with permeable boundaries, a diverse portfolio at NSF 
is needed to maintain transformational research and innovation.
    NSF funding for plant biology specifically enables the scientific 
community to address cross-cutting research questions that could 
ultimately solve grand challenges related to a sustainable food supply, 
energy security, and improved health and nutrition. This notion is 
reflected in the National Research Council's report A New Biology for 
the 21st Century and the President's Council of Advisors on Science and 
Technology's (PCAST's) recent report Agricultural Preparedness and the 
United States Agricultural Research Enterprise and it will be addressed 
comprehensively in the Plant Science Research Summit's report. 
Additionally, ASPB enthusiastically supports the PCAST report's 
recommendation that calls for increased funding for NSF for basic 
science related to the agricultural sciences.
    The NSF Directorate for Biological Sciences (BIO) is a critical 
source of funding for scientific research, providing 62 percent of the 
Federal support for non-medical basic life sciences research at U.S. 
academic institutions and beyond. BIO supports research ranging from 
the molecular and cellular levels to the organismal, ecosystem, and 
even biosphere levels. These investments continue to have significant 
pay offs, both in terms of the knowledge directly generated and in 
deepening collaborations and fostering innovation among communities of 
scientists.
    The Biological Sciences Directorate's Plant Genome Research Program 
(PGRP) is an excellent example of a high impact program that has laid a 
strong scientific research foundation for understanding plant genomics 
as they relate to energy (biofuels), health (nutrition and functional 
foods), agriculture (impact of changing climates on agronomic 
ecosystems), and the environment (plants' roles as primary producers in 
ecosystems). ASPB supports the President's request to increase PGRP by 
$4 million as well as to have sustained funding growth over multiple 
years to address 21st century challenges. Furthermore, in light of the 
need to create cyberinfrastructure across a wide range of scientific 
disciplines, ASPB supports efforts to homogenize metadata formats and 
enhance data sharing.
    Without significant and increased support for BIO and NSF as a 
whole, promising fundamental research discoveries will be delayed and 
vital collaborations around the edges of scientific disciplines will be 
postponed, thus limiting the ability to respond to the pressing 
scientific problems that exist today and the new challenges on the 
horizon. Addressing these scientific priorities also helps improve the 
competitive position of the United States in a global marketplace.
 continued support for nsf education and workforce development programs
    The National Science Foundation is a major source of funding for 
the education and training of the American scientific workforce and for 
understanding how educational innovations can be most effectively 
implemented. NSF's education portfolio impacts students at all levels, 
including K-12, undergraduate, graduate, and postgraduate, as well as 
the general public.
    As NSF embarks upon a new effort to rethink and improve graduate 
education in the United States, ASPB is supportive of new ideas that 
will enhance student learning, training, retention, access, and 
recruitment. Furthermore, ASPB urges the Subcommittee to support the 
President's request to expand some of NSF's fellowship and career 
development programs--such as the Graduate Research Fellowship (GRF)--
thereby providing continuity in funding opportunities for the country's 
most promising early career scientists. ASPB also requests continued 
support for the Postdoctoral Research Fellowships in Biology and the 
Faculty Early Career Development (CAREER) programs. ASPB further 
encourages the NSF to develop ``transition'' awards that will support 
the most promising scientists in their transition from postdoctoral 
research to independent, tenure-track positions in America's 
universities. The NSF might model such awards after those the National 
Institutes of Health offers.
    Furthermore, the nearly seven-year median for a life-science PhD in 
the United States contrasts with other nations where students 
specialize earlier, thus entering doctoral programs with more uniform 
and advanced scientific foundations. To focus more attention on new 
types of skills, such as private-sector experience and data-science 
training, NSF may wish to consider encouraging universities to tailor 
undergraduate curricula to allow committed students to enter PhD 
programs without needing a significant amount of textbook-style 
coursework. One way to do so would be to offer a seamless, seven-year 
curriculum that combines bachelor's and doctoral education, thereby 
making the career path more attractive and reducing costs to 
investigators, institutions, and funding bodies. NSF may wish to fund 
exploration and development of this kind of program or curriculum.
    ASPB urges support for NSF to further develop programs aimed at 
increasing the diversity of the scientific workforce by leveraging 
professional scientific societies' commitment to provide a professional 
home for scientists throughout their education and careers and to help 
promote and sustain broad participation in the sciences. Discrete 
focused training and infrastructure support programs for Hispanic 
Serving Institutions, Historically Black Colleges and Universities, and 
Tribal Colleges and Universities remain vitally important, because they 
foster a scientific workforce that reflects the U.S. population.
    ASPB urges support for education research that enhances our 
understanding of how educational innovations can be sustainably and 
most effectively implemented in a variety of settings. Additionally, 
investigating and supporting effective approaches toward rolling out 
across the K-16 continuum the new vision for undergraduate biology 
education articulated in the 2010 Vision and Change report are 
particularly valuable. ASPB encourages continued support for education 
research programs within NSF's Education and Human Resources portfolio 
with a focus on understanding how previous investments in educational 
strategies can be made most effective.
    Grand research challenges will not be resolved in a year, an 
administration, or a generation, but will take continued attention and 
investment at Federal research agencies, such as the National Science 
Foundation, over decades.
    Thank you for your consideration of our testimony on behalf of the 
American Society of Plant Biologists. Please do not hesitate to contact 
us if we can be of any assistance in the future.
                                 ______
                                 
           Prepared Statement of the Animal Welfare Institute
    We wish to thank the Subcommittee for accepting our testimony as 
you consider fiscal year 2014 funding priorities under the Commerce, 
Justice, Science and Related Agencies Appropriations Bill. Our 
testimony addresses activities under the Office of Justice Programs 
(OJP) of the Department of Justice (DoJ).
    We are grateful for the DoJ's OJP Bureau of Justice Assistance's 
continuing support for the Association of Prosecuting Attorneys' 
program of training, technical support, and other assistance for 
prosecutors, law enforcement, and others to enhance the prosecution of 
animal abuse and animal fighting crimes. We are proud to partner with 
APA in this ongoing effort (AWI does not receive any Federal funding 
for its work with APA), and I am pleased to be able to share with you 
the work that has been done as a result of BJA's support.
    APA has held three national training conferences--in Los Angeles, 
Denver, and Washington D.C.--with support from BJA as well as from 
other partners. These national meetings bring together participants and 
speakers from many disciplines--law enforcement, psychology, animal 
control, veterinary medicine, the domestic violence and juvenile 
justice communities, etc.--to share their experiences dealing with 
animal cruelty and animal fighting, and to encourage cross-pollination 
among participants. Topics have included the basics of conducting an 
animal cruelty investigation; charging, prosecuting, and sentencing in 
animal cruelty cases; the use of forensics experts in court; the 
benefits of joint Federal-State investigations; and cutting edge 
considerations in the use of digital evidence. Participants then put 
theory into practice through a mock trial.
    As an example of the impact that such training can have, an 
assistant prosecutor from a large urban county attended the very first 
conference. He and a colleague were taking on animal cruelty cases on 
their own, in addition to their regular caseload, and were feeling very 
much out in the wilderness. Today, their animal protection unit boasts 
four prosecutors who review and handle all animal-related cases (as 
well as other cases) and over the past 3 years has achieved a 98 
percent conviction rate. One of the unit's cases resulted in 
significant jail time for two men who set fire to a dog in front of 
several witnesses, including children.
    Two participants in the Los Angeles conference last year submitted 
testimonials that were published in the Fall/Winter 2012/2013 issue of 
Lex Canis, the newsletter of the APA's Animal Cruelty and Fighting 
Program; they are reproduced in part as follows:

    ``As a participant in the 3rd National Animal Cruelty Prosecution 
Conference, I experienced a comprehensive overview of the aspects of 
prosecuting animal abuse cases--from collecting evidence, identifying 
important elements of search warrants, and evaluating a case for 
filing, to communicating with expert witnesses such as veterinarians, 
preparing for trial, and sentencing recommendations . . . .
    ``One important concept that resonated with me is the need for 
cooperation among a wide variety of community stakeholders: 
prosecutors, law enforcement agencies, animal control officers, 
shelters, veterinarians, and of course, community members at large. For 
example, the first witness to animal abuse may be a lay person, such as 
a postal or utility worker, who has noticed odors or debris. 
Furthermore, because animal control officers may not be on duty 24/7, a 
law enforcement officer may be the first responder to a report of 
animal abuse. This underlines the need for community education as well 
as for the training of law enforcement officers in the legal and 
evidentiary issues unique to animal cruelty crimes . . . .
    ``Finally, a hands-on moot court was the focus of the last day . . 
. . Each conference participant received a flash drive to take home 
containing a wealth of resources, including handouts from the 
presentations as well as sample jury instructions, voir dire questions 
specific to animal abuse cases, veterinarian report templates, and 
more. I have had the opportunity to share some of these with the local 
animal control department, and the jury instructions have been 
particularly helpful while reviewing reports for filing consideration.
    ``I found the conference to be incredibly informative, and 
particularly as a new DDA, I feel substantially more prepared to tackle 
animal abuse cases in my community.''
  --By Michelle Bergey, a new deputy district attorney with the San 
        Bernardino County Office of the District Attorney.

    ``Arriving at the 3rd National Animal Cruelty Prosecution 
Conference and trying to choose which session to attend kept me up 
through the early morning hours of day one. . . . The first session, by 
the Los Angeles County District Attorney's Office, was awe-inspiring. I 
cannot think of a better way to kick off an animal cruelty prosecution 
conference than by learning about one of the most innovative 
prosecution programs in the country. From the investigation to the 
prosecution and sentencing of animal cruelty cases, it was incredibly 
helpful to get an outline of handling a case properly from the very 
beginning and to follow through as a zealous advocate of the victim 
through the sentencing phase.
    ``One of the most notable and useful conference sessions applicable 
to the work I do was ``Using Veterinary Forensics to Prove Your Case,'' 
by Dr. Melinda Merck of Veterinary Forensics Consulting, LLC, and 
Sherry Ramsey of the Humane Society of the United States. Understanding 
the nuances of animal cruelty cases is crucial to a successful 
prosecution. Both speakers addressed the unique issues with noteworthy 
examples from past cases, even delving into instances of cruelty not 
traditionally prosecuted. I am constantly reviewing my notes and the 
materials from this session as I work through a current case; and 
learning to ask the veterinarian the right questions, as we did at the 
conference, has proven to be invaluable.
    ``Applying what I learned at the conference to a real case only 
reinforced the importance of the collaborative work we all do in the 
area of animal cruelty prosecution and affirmed the need for outreach 
programs like the new Animal Cruelty Prosecution Clinic at the 
University of Kansas. At least once a week, I refer back to my 
conference notes and the educational material we received. . . . I left 
Los Angeles only wishing I had more time. Thank you to the Association 
of Prosecuting Attorneys and the Bureau of Justice Assistance for 
putting on a stellar conference. I am anxiously awaiting the conference 
in 2013.''
  --By Katie Bray Barnett, an attorney at the Barnett Law Office, LLC, 
        in Lawrence, Kansas. She assists humane societies on a variety 
        of issues and works with area municipalities on animal-related 
        legislation. Katie is the founder of the Student Animal Legal 
        Defense Fund and the Animal Cruelty Prosecution Clinic at the 
        University of Kansas School of Law.

    Training and outreach do not stop with these large meetings, 
however. APA maintains a listserv, hosts Webinars addressing issues of 
practical concern to prosecutors and the many others whose work is 
connected with animal cruelty crimes, and responds to requests for 
technical assistance. The Animal Cruelty and Fighting Program section 
of its Web site makes available such valuable resources as training and 
informational manuals; State animal cruelty statutes; animal cruelty 
case law summaries; a library of briefs, motions, search warrants, and 
legal memos; and downloadable versions of the Webinars.
    APA also publishes, distributes, and posts on its Web site the 
newsletter Lex Canis, each issue of which (there have been 13 so far) 
provides readers with program updates, an in-depth feature, and 
summaries of investigations, cases, changes in the law, and other 
developments. For example, recent features have focused on strategies 
for achieving success in prosecuting cases under State animal cruelty 
laws; dealing with hoarders; the innovative work of the Mayor's Anti-
Animal Abuse Advisory Commission in Baltimore; and, in its very first 
issue in 2009, the effect of the foreclosure crisis on rising abuse and 
abandonment of companion animals.
    APA and AWI have taken advantage of opportunities to address new 
audiences about the relationship between animal cruelty and 
interpersonal violence, and how those audiences can respond both to 
improve prosecutions of such cases and to reduce their incidence. 
Several presentations were made to the National Conference of Juvenile 
and Family Court Judges and to the Pennsylvania Bar Institute.
    Last but not certainly not least, APA has assembled an Animal 
Cruelty Advisory Council composed of prosecutors, investigators, law 
enforcement, veterinarians, psychologists, members of the animal 
protection and domestic violence communities, and others, to identify 
issues, resource needs, and strategies. It brings these same 
professionals together to provide its multidisciplinary training, and 
also calls on them individually for topic-specific Web-based training 
and materials.
    We respectfully urge the Subcommittee to continue funding the BJA's 
National Animal Cruelty and Fighting Initiative and to encourage the 
Department's ongoing interest in addressing animal-related crimes. Such 
crimes create a culture of violence--and a cadre of violent offenders--
and more vigorous attention to such crimes makes communities safer 
overall.
    The connection between animal abuse and other forms of violence has 
been firmly established through experience and through scientific 
studies. Among the most well-documented relationships is that between 
animal cruelty and domestic violence, child abuse, and elder abuse. For 
example, up to 71 percent of victims entering domestic violence 
shelters have reported that their abusers threatened, injured, or 
killed the family pet; batterers do this to control, intimidate, and 
retaliate against their victims. Batterers threaten, harm, or kill 
their children's pets in order to coerce them into allowing sexual 
abuse or to force them into silence about abuse. \1\ Criminals and 
troubled youth have high rates of animal cruelty during their 
childhoods, perpetrators were often victims of child abuse themselves, 
\2\ and animal abusers often move on to other crimes. In 1997, the 
Massachusetts Society for the Prevention of Cruelty to Animals (MSPCA) 
released the results of a review of animal cruelty cases it had 
prosecuted between 1975 and 1996. Seventy percent of the individuals 
involved in those cases had been involved in other crimes, and animal 
abusers were five times more likely to commit a violent offense against 
other people.
---------------------------------------------------------------------------
    \1\ The study ``I'll only help you if you have two legs, or why 
human service professionals should pay attention to cases involving 
cruelty to animals,'' by Loar (1999) as cited on the Web site of the 
National Coalition Against Domestic Violence (www.ncadv.org).
    \2\ ``Woman's Best Friend: Pet Abuse and the Role of Companion 
Animals in the Lives of Battered Women,'' by Flynn (2000), as cited at 
www.ncadv.org.
---------------------------------------------------------------------------
    More recently, an FBI special agent (who is also a member of the 
APA's Animal Cruelty Advisory Council) is currently overseeing a 
research project that involves ``analyzing the criminal histories of 
offenders who were arrested for active animal cruelty, in order to 
further examine the potential link between animal cruelty and violence 
against persons.'' According to an initial analysis published in a 
dissertation (Leavitt, 2011), the majority of the 66 offenders examined 
so far ``had prior arrests for other crimes,'' including interpersonal 
violence (59 percent), assault (39 percent), and assault of a spouse or 
intimate partner (38 percent); 17 percent had a history of sexual 
offenses.
    Another connection that is all too common exists among animal 
fighting, gangs, and drugs, illegal guns, and other offenses. The 
Animal Legal and Historical Center at the Michigan State University 
College of Law describes dogfighting in these stark terms: ``The notion 
that dogfighting is simply an animal welfare issue is clearly 
erroneous. Until the past decade, few law enforcement officials or 
government agencies understood the scope or gravity of dogfighting. As 
these departments have become more educated about the epidemic of 
dogfighting and its nexus with gang activity, drug distribution rings, 
and gambling networks, many have implemented well designed, 
sophisticated task forces. The magnitude of criminal activity 
concurrently taking place at the average dogfight is of such a scope as 
to warrant the involvement of a wide range of agencies, including 
local, regional, and Federal law enforcement agencies and their 
specialized divisions such as organized crime units, SWAT teams, and 
vice squads, as well as animal control agencies and child protective 
services.''
    Further evidence of the accuracy of the above assessment comes from 
a U.S. Drug Enforcement Administration report on the sentencing of a 
Louisiana drug trafficking kingpin, which described him as ``an avid 
pit bull and cock fighter [who] utilized these illegal events as a 
networking tool in order to recruit members to transport and sell 
marijuana and cocaine for his organization.''
    Animal fighting is barbaric and is a violent crime in the truest 
sense of the term. It causes immense suffering to countless numbers of 
innocent animals and its presence threatens the safety of the entire 
community. It is illegal under both State and Federal law, so it well 
serves the entire community for law enforcement to have the most 
powerful tools possible to eradicate it. Animal fighting is fueled not 
just by those who train and fight the animals and finance the fights, 
but also by spectators. Spectators are not innocent bystanders; they 
are active participants in and enablers of these criminal enterprises--
and they also provide ``cover'' during raids by allowing the 
organizers, trainers, etc., to ``blend into the crowd'' to escape 
arrest. The Animal Fighting Spectator Prohibition Act (H.R. 366 and S. 
666) makes knowingly attending an animal fight punishable by fines and 
jail time and also makes it a separate offense, with higher penalties, 
to knowingly bring a minor to such an event, thus closing a significant 
loophole in Federal law. Forty-nine States have already outlawed 
attendance at an animal fight.
    At the same time, it must be remembered that animal abuse is more 
than a ``gateway'' behavior. It is also a crime in its own right. It is 
a crime everywhere in the U.S., and certain egregious acts are felonies 
in 48 States (it was 47 this time last year!) and the District of 
Columbia. Some States have even enacted or are considering provisions 
that enhance the penalty for animal cruelty when it is committed in 
front of a child. Twenty-two States also now allow the inclusion of 
companion animals in domestic violence restraining orders.
    All laws are not created equal, however; activity that constitutes 
a felony in one State may still only be a misdemeanor in another. In 
some States, cruelty rises to a felony only upon a second or third 
offense, or only if the animal dies; if he survives, no matter how 
severe his injuries, it is still a misdemeanor.
    The key to offering animals the most protection possible, however 
weak or strong the statute, lies in ensuring awareness of the law, 
vigorous enforcement, and prosecution of violators. While many in law 
enforcement and the courts recognize animal abuse for the violent crime 
that it is and act accordingly, there are those who do not take it 
seriously, treating it as no more urgent than a parking infraction. 
Others genuinely want to act decisively but may lack the necessary 
resources, support, or expertise. Moreover, enforcement can be 
complicated by the laws themselves--weak laws are bad enough, but 
additional problems may arise from confusion over jurisdiction or 
limitations in coverage--or by pressure to dispose of cases quickly.
    OJP/BJA showed great vision in recognizing that by identifying 
precursor crimes, such as animal cruelty and animal fighting, and 
ensuring proper adjudication of such cases, our criminal justice system 
can reduce the incidence of family and community violence and change 
the path of potential violent offenders. It is especially with respect 
to the latter goal that APA and AWI are also calling attention to the 
impact that experiencing animal cruelty has on children and their 
possible future involvement in the juvenile justice system; many youths 
in juvenile detention facilities have been exposed to community and 
family violence--which arguably includes animal fighting and abuse.
    The National Animal Cruelty and Animal Fighting Initiative sends a 
very strong message to prosecutors and law enforcement that crimes 
involving animals are to be taken seriously and pursued vigorously, and 
that offenders must be held accountable.
                                 ______
                                 
      Prepared Statement of the Association of Zoos and Aquariums
    Thank you, Chairwoman Mikulski and Ranking Member Shelby for 
allowing me to testify on behalf of the nation's 211 U.S. accredited 
zoos and aquariums. Specifically, I want to express my support for the 
inclusion of $3.981 million for the John H. Prescott Marine Mammal 
Rescue Assistance Grant Program and $2,500,000 for the NOAA Ocean 
Education Grants Program in the fiscal year 2014 Commerce, Justice, 
Science, and Related Agencies appropriations bill.
    Founded in 1924, the Association of Zoos and Aquariums (AZA) is a 
nonprofit 501c(3) organization dedicated to the advancement of zoos and 
aquariums in the areas of conservation, education, science, and 
recreation. AZA-accredited zoos and aquariums annually see more than 
182 million visitors, collectively generate more than $16 billion in 
annual economic activity, and support more than 142,000 jobs across the 
country. Over the last 5 years, AZA-accredited institutions supported 
more than 4,000 field conservation and research projects with 
$160,000,000 annually in more than 100 countries. In the last 10 years, 
accredited zoos and aquariums formally trained more than 400,000 
teachers, supporting science curricula with effective teaching 
materials and hands-on opportunities. School field trips annually 
connect more than 12,000,000 students with the natural world.
    During the past twenty years AZA-accredited zoos and aquariums have 
rescued and rehabilitated more than 1,800 marine animals including 
stranded dolphins, whales, sea lions, seals, sea otters, sea turtles, 
and manatees. More than 1,750 (97 percent) of these animals have been 
successfully released back into their natural habitat. While the 
nations' accredited zoos and aquariums support wildlife rehabilitation 
through their ongoing animal rescue programs, these institutions are 
sometimes involved in addressing natural and manmade disasters such as 
the 2010 Deepwater Horizon Gulf oil spill. For example, following the 
oil spill, accredited zoos and aquariums around the country offered 
assistance by pledging the services of 200 animal care professionals 
and donating supplies, vehicles, and other resources to assist in the 
wildlife rescue efforts.
    The John H. Prescott Marine Mammal Rescue Assistance Grant Program 
provides grants or cooperative agreements to eligible stranding network 
participants for the recovery and treatment (i.e., rehabilitation) of 
stranded marine mammals; data collection from living or dead stranded 
marine mammals; and, facility upgrades, operation costs, and staffing 
needs directly related to the recovery and treatment of stranded marine 
mammals and collection of data from living or dead stranded marine 
mammals. Eligible applicants are currently active, authorized 
participants, including AZA-accredited zoos and aquariums, or 
researchers in the National Marine Mammal Stranding Network.
    Without the Prescott grant program, NOAA would have to rely on 
private organizations as it coordinates the response to marine mammals 
in distress; determines disease, injury and potential cause(s) of 
death; and supports emergency response for marine mammals during oil 
spills, outbreaks of diseases, and unusual mortality events. Network 
partners may not have the funds or the ability to respond to some 
stranding events, leaving animals at risk for prolonged exposure and 
likely death. Without funding for this program the critical ability to 
monitor marine mammal health trends, collect scientific data, and 
perform analysis would also be diminished. Information about the causes 
of marine mammal strandings is useful to the public because marine 
mammals can serve as an indicator of ocean health, giving insight into 
larger environmental issues that also have implications for human 
health and welfare.
    At the same time that AZA-accredited zoos and aquariums are working 
with Federal partners to conserve ocean wildlife, they also are 
providing essential learning opportunities, particularly about science, 
for schoolchildren in formal and informal settings. Increasing access 
to formal and informal science education opportunities has never been 
more important. Studies have shown that American schoolchildren are 
lagging behind their international peers in certain subjects including 
science and math.
    The NOAA Ocean Education Grants Program brings students closer to 
science by providing them with the opportunity to learn firsthand about 
our world's marine resources. Through this grant program, aquariums 
work closely with Federal, State, and local partners on projects with 
long-lasting benefits not only for the students but their communities 
as well. For example, previous projects funded by NOAA Ocean Education 
Grants at AZA aquariums have focused on establishing a regional network 
of summer camp programs grounded in ocean science, enhancing teen 
conservation leadership programs, and conserving and managing coastal 
and marine resources to meet our nation's economic, social and 
environmental needs. As schools face increased budgetary pressures, 
these types of education programs at aquariums will become even more 
important in ensuring that American schoolchildren receive the 
necessary foundation in science education that they will need to be 
competitive in the 21st century global economy.
    AZA-accredited zoos and aquariums are essential partners at the 
Federal, State, and local levels to improve education for 
schoolchildren and ensure that current and future generations will be 
good stewards of the world's oceans. Therefore, I urge you to include 
$3.981 million for the John H. Prescott Marine Mammal Rescue Assistance 
Grant Program and $2,500,000 for the NOAA Ocean Education Grants 
Program in the fiscal year 2014 Commerce, Justice, Science, and Related 
Agencies appropriations bill.
    Thank you.
                                 ______
                                 
    Prepared Statement of the Federation of American Societies for 
                          Experimental Biology
    The Federation of American Societies for Experimental Biology 
(FASEB) respectfully requests an appropriation of at least $7.4 billion 
for the National Science Foundation (NSF) in fiscal year 2014. This 
figure enables NSF to continue to support paradigm-shifting basic 
research and essential science, technology, engineering, and math 
education programs that drive the United States innovation economy.
    NSF is the only Federal research agency dedicated to advancing 
fundamental research and education across all fields of science and 
engineering. NSF serves as the primary Federal funding source for 
research in fields such as mathematics, computer science, basic biology 
with direct application to human health, and the social sciences. In 
addition to fostering scientific research, the agency undertakes 
innovative efforts to strengthen science, technology, engineering, and 
mathematics education nationwide. These grants, awarded to projects of 
the highest quality and greatest significance in all 50 States, are 
selected using a rigorous merit-review process that evaluates proposals 
on both scientific and societal value.
    Recent examples of outstanding NSF funded research include using 
light to better understand the brain. The overwhelming complexity of 
the brain limits our ability to understand and treat neurological and 
psychiatric illnesses. The emerging technique of optogenetics 
represents a promising approach to overcoming this limitation by 
deconstructing the brain's complexity. Using light-responsive proteins, 
genetically introduced into the cells of living organisms, optogenetics 
allows the behavior of highly specific and functionally similar 
populations of cells to be controlled. Researchers are using 
optogenetics to make phenomenal progress in the expansion of our 
knowledge of the brain, which lays the foundation for the next 
generation of new breakthrough therapies for Parkinson's disease and 
other devastating disorders.
    NSF is also supporting the exciting work aimed at building 
biological machines. Using only hydrogel, heart cells, and a 3-D 
printer, researchers have created cell-powered, non-electric walking 
machines. The locomotion of the ``bio-bot'' is driven by the beating of 
heart cells. By integrating different types of cells that are sensitive 
to specific environmental stimuli, such as a drugs or toxins, bio-bots 
could be used as sensors. Eventually, bio-bots may be used as 
neutralizers of toxic chemicals and could be customized for 
applications in medicine, energy, defense, and the environment.
    In addition, NSF supports studies aimed at using biodiversity to 
develop biofuel alternatives. The search for alternate energy sources 
is growing in economic importance as the fossil fuel supply rapidly 
depletes and concerns about its environmental effects grow. NSF-
supported research at the Cedar Creek Ecosystem Science Reserve is 
exploring the use of prairie biomass as an alternative biofuel to corn 
and soybean monocultures. Prairie plots with higher species diversity 
yield a greater energy gain than monocultures, and sequester larger 
amounts of carbon dioxide in soil and in underground root systems. The 
discoveries at Cedar Creek suggest that high-diversity prairie biomass 
may be a viable biofuel alternative for our nation's energy needs that 
minimizes production of greenhouse gases, while simultaneously 
providing wildlife benefits and ecosystem values.
    Another example of the groundbreaking science being funded by NSF 
is in the area of hearing loss research. Recently, a team of scientists 
has determined the 3-D atomic structure of an important component of 
inner ear hair cells essential for both hearing and balance. Inner ear 
hair cells have bundles of cilia on their exposed surface that convert 
sound and head position information into neural signals. The 
maintenance of physical linkages among cilia in the bundles is critical 
to proper functioning of the inner ear. Genetic mutations in the 
proteins responsible for this linkage often result in congenital 
deafness and balance disorders. Armed with the atomic structure and 
biological mechanism, results of this research will position 
researchers to develop more powerful therapeutic interventions for 
hearing impairment and balance deficits.
    Finally, NSF plays the crucial role of nurturing the next 
generation of scientists. An NSF program to prepare future scientists 
and engineers, the Graduate Research Fellowship Program (GRFP) annually 
awards approximately 2,000 three-year fellowships to outstanding 
graduate students pursuing advanced degrees in science, technology, 
engineering, or mathematics. NSF graduate research fellows have become 
leaders in the scientific community, including Brian K. Kobilka, the 
2012 Nobel Prize winner in Chemistry and Serge Haroch and David J. 
Wineland, who received the 2012 Nobel Prize in Physics.
    At a time when the United States faces unprecedented fiscal 
challenges, scientific and technological advances are needed to keep 
our nation globally competitive and enable the economic growth that is 
born out of discovery and innovation. NSF's broad portfolio of 
fundamental research expands the frontiers of knowledge, and fuels 
future innovation. Furthermore, through its education and training 
initiatives, NSF ensures the development of a world-class scientific 
and engineering workforce, including at research institutions and high-
tech companies.
    NSF-funded research is a critical source of scientific 
breakthroughs, many of which provide the basic knowledge that fuels 
innovation in other, more mission-oriented agencies. Failure to build 
on prior NSF investments and continue support for the agency as science 
expands, would slow the pace of discovery, discourage the next 
generation of scientists and engineers, and sacrifice our position as 
the global leader in innovation. Therefore, FASEB recommends a minimum 
funding level of $7.4 billion for the National Science Foundation in 
fiscal year 2014 to prevent contraction. Our broader goal is a 
sustainable research program, a return to the demonstrated capacity 
level, and a funding trajectory reflective of the America COMPETES Act 
reauthorization. Our recommended increase of $304 million would fund an 
additional 324 projects.
                                 ______
                                 
                 Prepared Statement of Jillian Worssam
    Quantifiably: over 300 students in Arizona working directly with 
scientists either working for NOAA or associated scientific fields as 
learned about through the NOAA Teacher at Sea Program. Over 500 Arizona 
community members participating in community appearances--presented by 
me--with topics ranging from physical oceanography, ecosystem awareness 
of the Bering Sea, climate change, and Polar Ecology. Over 1,000 fifth 
grade students introduced to ocean science in polar ecosystems. Student 
work Web page--http://scientistsintheclassroom.pbworks.com--documenting 
student work in collaboration with scientists as developed partnerships 
through the NOAA Teacher at Sea Program.
    Topics discussed after Teacher at Sea, related to NOAA mission:
  --Hurricane hunting pilots
  --Tsunami experts
  --Marine Biologist
  --Fisheries biologists
  --Ocean Sciences
  --Polar Ecology
  --Paleo Climatology
  --Oceanic Biologist
  --Submarine Ground Water Discharge
  --Climate Change
    Sampling of Organizations partnering after the Teacher at Sea 
Program (please note I teach in Arizona):
  --MBARI
  --University of Alaska Fairbanks
  --University of Washington
  --Polarfield Services
  --PolarTREC
  --U.S. Coast Guard
  --North Pacific Research Board
  --NOAA
    Thanks to my participation in the NOAA Teacher at Sea Program I 
have been able to develop a one on one mentor program in my science 
classes, which is now expanding school wide, and to the Flagstaff 
Community. I was able to develop and enhance this program because of 
NOAA and the Teacher at Sea Program. My curriculum is directly 
connected to the next generations science standards, collated with ELA 
standards, discusses and uses current scientific data from the field, 
and discusses climate change. A lifetime career has been impacted 
positively all after spending 30 days aboard the NOAA ship Miller 
Freeman (which coincidentally was just decommissioned a little over a 
week ago).
    To think that NOAA is even considering the removal of such a vital 
program is a crime! Arizona, a land locked State where children have a 
limited comprehension of our oceanic planet now know about the 
importance of this massive ecosystem because I participated in the 
Teacher at SEA Program. Much of America is not coastal, how do you 
expect American citizens to understand the vital nature of the oceans, 
and their scientific significance if not through the Teacher at Sea 
Program?
    America's Next Generation Science Standards directly reference 
climate change and the importance of teaching this vital science. As 
the Earth's entire climate is directly related to the processes and 
functions of the ocean and atmosphere interface, I am befuddled to 
think that one would even consider cutting such a vital program as the 
NOAA Teacher at Sea experience. Glaciers are melting, the chemistry of 
the ocean changing, temperatures fluctuating, atmospheric gases at 
alarming levels. NOAA, America's leading scientific organization for 
collecting and disseminating scientific data is the only national 
agency dedicated to supporting and encouraging the collaboration 
between teachers and scientists in their Teacher at Sea Program.
    Please hear my plea, I am a dedicated public educator, supported by 
NOAA and their mission: To understand and predict changes in climate, 
weather, oceans and coasts. To share that knowledge and information 
with others. To conserve and manage coastal and marine ecosystems and 
resources.
    I am the past NOAA Teacher at Sea who quit her teaching job for a 
year to work on the NOAA ship Miller Freeman, to build my skills to 
better serve my constituents, tomorrow's leaders. Why can't today's 
leaders listen and support the future of America! Please do not cut the 
NOAA Teacher at Sea Program!
                                 ______
                                 
        Prepared Statement of the Geological Society of America
                                summary
    The Geological Society of America (GSA) supports strong and 
sustained investments in earth science research and education at the 
National Science Foundation (NSF) and National Aeronautics and Space 
Administration (NASA). These investments are necessary to address such 
issues as energy resources, water resources, climate change, waste 
management, and natural hazards and train the next generation of earth 
science professionals. GSA urges Congress to provide the National 
Science Foundation (NSF) at least $7.033 billion in fiscal year 2014, 
which is the same amount appropriated in fiscal year 2012, and support 
as many of the increases in the Administration's budget request as 
possible. Although this funding level would fall well short of the 
vision to double the NSF budget in the America COMPETES Reauthorization 
Act of 2010, it would allow NSF to return to pre-sequestration levels. 
GSA also supports sustained funding for earth science research at NASA. 
We believe investment in NSF is necessary for America's future economic 
and science and technology leadership, both through discoveries that 
are made through this investment and through the talent developed 
through NSF programs. GSA would like to thank the Senate Appropriations 
Subcommittee on Commerce, Science, Justice, and Related Activities for 
its leadership in increasing investments in the National Science 
Foundation in fiscal year 2013 and its recognition of the critical role 
research plays in our nation's future.
    The Geological Society of America, founded in 1888, is a scientific 
society with over 25,000 members from academia, government, and 
industry in all 50 States and more than 90 countries. Through its 
meetings, publications, and programs, GSA enhances the professional 
growth of its members and promotes the geosciences in the service of 
humankind.
                      national science foundation
    The Geological Society of America (GSA) greatly appreciates your 
efforts to increase the National Science Foundation (NSF) budget in 
fiscal year 2013. Although your efforts prevented the most severe cuts, 
GSA remains concerned about the impact of sequestration cuts on NSF and 
our nation's future innovations and innovators. The cuts from the 
sequester are estimated to cause NSF to fund fewer proposals this 
fiscal year, affecting thousands of scientists, educators, technicians, 
and students. NASA, too, has announced it will decrease the number of 
scientific proposals it will be able to fund. We are greatly concerned 
about areas of investigation that will not be explored as well as the 
impact on the next generation of scientists. As proposal rates 
decrease, young scientists will likely be most affected, leading them 
to consider careers outside of the science and causing the loss of our 
next general of scientists and educators.
    As Congress recognized in the America COMPETES Act and its 2010 
reauthorization, science and technology are engines of economic 
prosperity, environmental quality, and national security. In 2010, the 
National Academies issued a report, Above the Gathering Storm, 
Revisited, that speaks to the need to invest in research, even in a 
tight fiscal environment: ``It would be impossible not to recognize the 
great difficulty of carrying out the Gathering Storm recommendations, 
such as doubling the research budget, in today's fiscal environment . . 
. with worthy demand after worthy demand confronting budgetary 
realities. However, it is emphasized that actions such as doubling the 
research budget are investments that will need to be made if the nation 
is to maintain the economic strength to provide for its citizens 
healthcare, social security, national security, and more.''
    Likewise, the National Commission on Fiscal Responsibility and 
Reform, headed by Erskine Bowles and Alan Simpson, said: ``[W]e must 
invest in education, infrastructure, and high-value research and 
development to help our economy grow, keep us globally competitive, and 
make it easier for businesses to create jobs.''
    GSA urges Congress to provide the National Science Foundation (NSF) 
at least $7.033 billion in fiscal year 2014, which is the same amount 
appropriated in fiscal year 2012, and support as many of the increases 
in the Administration's budget request as possible. Although this 
funding level would fall well short of the vision to double the NSF 
budget as stated in the America COMPETES Act, it would allow NSF to 
return to pre-sequestration levels. We believe investment in NSF is 
necessary for America's future economic and science and technology 
leadership, both through discoveries that are made through this 
investment and through the talent developed through NSF programs.
    The earth sciences are critical components of the overall science 
and technology enterprise and NSF investment. Earth science research 
provides knowledge and data essential for developing policies, 
legislation, and regulations regarding land, mineral, energy, and water 
resources at all levels of government. NSF's Earth Sciences Division 
regularly receives a large number of exciting research proposals that 
are highly rated for both their scientific merit and their broader 
impacts, but many meritorious projects have not been funded due to 
budget constraints. Sequestration and budget cuts increase the number 
of proposals in this category.
    It is critically important to increase NSF's investments in earth 
science research and education to meet challenges posed by human 
interactions with Earth's natural system and to help sustain these 
natural systems and the economy. Increased investments in NSF's earth 
science portfolio are necessary to address such issues as natural 
hazards, energy, water resources, climate change, and education. 
Specific needs include:
  --Natural hazards remain a major cause of fatalities and economic 
        losses world-wide. Several areas in the United States are 
        vulnerable to damages from earthquakes, tsunamis, volcanoes, 
        and landslides--as evidenced by the recent west coast 
        landslide. NSF research that improves our understanding of 
        these geologic hazards will allow for better planning and 
        mitigation in these areas that will reduce future losses. We 
        urge Congress to support NSF investments in fundamental earth 
        science research that stimulate basic understanding and 
        innovations in natural hazards monitoring and warning systems.
  --Energy and mineral resources are the foundation of many 
        technologies and economies. The Division of Earth Sciences 
        supports proposals for research geared toward improving the 
        understanding of the structure, composition, and evolution of 
        the Earth and the processes that govern the formation and 
        behavior of the Earth's materials. This research contributes to 
        a better understanding of the natural distribution of mineral 
        and energy resources for future exploration. In particular, GSA 
        encourages support for research on rare earth materials, for 
        which our nation is dependent upon foreign sources.
  --The devastating droughts last year reminded us of our dependence on 
        water. NSF's research addresses major gaps in our understanding 
        of water availability, quality, and dynamics, and the impact of 
        both a changing and variable climate, and human activity, on 
        the water system.
  --Forecasting the outcomes of human interactions with Earth's natural 
        systems, including climate change, is limited by an incomplete 
        understanding of geologic and environmental processes. Improved 
        understanding of these processes in Earth's deep-time history 
        can increase confidence in the ability to predict future states 
        and enhance the prospects for mitigating or reversing adverse 
        impacts to the planet and its inhabitants.
    Research in Earth science is fundamental to training and educating 
the next generation of Earth science professionals. The United States 
faces a looming shortage of qualified workers in these areas that are 
critical for national security. We are very concerned that cuts in 
earth science funding will cause students and young professionals to 
leave the field, potentially leading to a lost generation of 
professionals in areas that are already facing worker shortages.
    A 2013 report by the National Research Council, Emerging Workforce 
Trends in the Energy and Mining Industries: A Call to Action, found, 
``Energy and mineral resources are essential for the nation's 
fundamental functions, its economy, and its security . . .  In mining 
(nonfuel and coal) a personnel crisis for professionals and workers is 
pending and it already exists for faculty.''
    Another recent study, Status of the Geoscience Workforce 2011, by 
the American Geosciences Institute found: ``The supply of newly trained 
geoscientists falls short of geoscience workforce demand and 
replacement needs. . . . aggregate job projections are expected to 
increase by 35 percent between 2008 and 2018. . . . The majority of 
geoscientists in the workforce are within 15 years of retirement age. 
By 2030, the unmet demand for geoscientists in the petroleum industry 
will be approximately 13,000 workers for the conservative demand 
industry estimate.''
    Increased NSF investments in earth science education at all levels 
are needed because knowledge of the earth sciences is essential to 
science literacy and to meeting the environmental and resource 
challenges of the twenty-first century. NSF's Education and Human 
Resources Division researches and improves the way we teach science and 
provide research and fellowship opportunities for students to encourage 
them to continue in the sciences.
             national aeronautics and space administration
    GSA supports planetary exploration to advance research concerning 
the evolution of Earth; to deepen and expand human understanding of our 
place in the universe; to reinforce science, technology, engineering 
and math (STEM) education and effective training of the next generation 
of scientists; to increase U.S. competitiveness in science and 
technology development; and to enhance the quality of life through 
technological innovation.
    Planetary missions at NASA are designed to collect data to better 
understand the history and workings of the entire solar system, to gain 
insight into the formation and evolution of Earth and the other 
planets, to understand how life began on Earth, and to determine 
whether extraterrestrial habitable environments and life forms exist 
(or ever did exist) elsewhere in the solar system or beyond. To support 
these missions, planetary scientists engage in both terrestrial field 
studies and Earth observation to examine geologic features and 
processes that are common on other planets, such as impact structures, 
volcanic constructs, tectonic structures, and glacial and fluvial 
deposits and landforms. Geochemical studies include investigations of 
extraterrestrial materials now on Earth, including lunar samples, tens 
of thousands of meteorites, cosmic dust particles, and, most recently, 
particles returned from comets and asteroids.
    Exploration of other planets in the solar system requires major 
national and international initiatives, significant funding levels, and 
long timelines for mission planning and collaborative research. For 
scientists, the funding cycle is much shorter than typical mission 
cycles, and in particular, graduate student and career-development 
timelines are much shorter than mission timeframes. Therefore, the 
growth and continued development of a robust workforce capable of 
conducting complex space missions and analyzing the scientific data 
returned from such missions does not depend on individual missions as 
much as it depends upon a consistent, sustained program that educates 
and develops planetary scientists.
    GSA supports NASA earth observing systems and their research into 
our planet. By providing adequate resources to maintain current and 
develop next-generation satellites, the nation will continue to have 
access to data that is used for a range of activities, including 
climate and weather forecasting used by diverse stakeholders ranging 
from farmers to water managers.
    Please contact GSA Director for Geoscience Policy Kasey White for 
additional information or to learn more about the Geological Society of 
America--including GSA Position Statements on water resources, 
planetary research, energy and mineral resources, natural hazards, 
climate change, and public investment in earth science research.
                                 ______
                                 
      Prepared Statement of the Institute of Makers of Explosives
                          interest of the ime
    IME is a nonprofit association founded a century ago to provide 
accurate information and comprehensive recommendations concerning the 
safety and security of commercial explosive materials. IME represents 
U.S. manufacturers, distributors and motor carriers of commercial 
explosive materials and oxidizers as well as other companies that 
provide related services. The majority of IME members are ``small 
businesses'' as determined by the U.S. Small Business Administration.
    Millions of metric tons of high explosives, blasting agents, and 
oxidizers are consumed annually in the United States. These materials 
are essential to the U.S. economy. Energy production, construction, and 
other specialized applications begin with the use of commercial 
explosives. IME member companies produce ninety-nine percent of these 
commodities. These products are used in every State and are distributed 
worldwide. The ability to manufacture, distribute and use these 
products safely and securely is critical to this industry.
    Commercial explosives are highly regulated by a myriad of Federal 
and State agencies. ATF plays a predominant role in assuring that 
explosives are identified, tracked, purchased, and stored only by 
authorized persons. In the absence of the administration's fiscal year 
2014 budget request, we are in uncharted territory in terms of our 
analysis of the President's budgetary priorities. \1\ Likewise, as 
Congress presses ahead to finalize appropriations for fiscal year 2013, 
we are not privy to specifics as to how ATF may prioritize the work of 
the agency's programs overseeing the explosives industry. Nevertheless, 
we offer the following comments to give perspective about the need to 
ensure that the ATF has sufficient funds to carry out its mission to 
ensure that commercial explosives are not misappropriated for criminal 
or terrorist purposes.
---------------------------------------------------------------------------
    \1\ The Budget Act requires the submission of the President's 
budget request by the first Monday in February. The current expectation 
is that the President's fiscal year 2014 request will be released in 
April.
---------------------------------------------------------------------------
                  atf's explosives regulatory program
    As of the date of this comment, it appears that Congress is 
prepared to provide a fiscal year 2013 appropriation of $1.153 billion 
for ATF, subject to a sequestration order if the President fails to 
reach agreement with Congress on an alternative. This is the same 
amount as in the administration's original budget request of fiscal 
year 2013. The administration's fiscal year 2013 budget request 
proposed to decrease resources devoted to ATF's regulation and 
oversight of explosives industries by 24 FTE, a 7 percent reduction, 
from 335 FTE to 311 FTE, for a savings of $940,000. \2\ This FTE 
reduction represents nearly half of the staffing reduction the Bureau's 
Arson and Explosives Program is being asked to absorb. Given that it 
appears Congress is prepared to accept the President's request, we 
assume that the staffing cuts will be enacted. As we look forward to 
fiscal year 2014, the budget situation does not improve. We understand 
that the cap on non-emergency appropriations for fiscal year 2014 to 
drop to $966 billion, down from the cap of $984 billion in fiscal year 
2013.
---------------------------------------------------------------------------
    \2\ See, Fiscal Year 2013 ATF Budget Submission.
---------------------------------------------------------------------------
    We understand the current urgency to address the Federal budget 
deficit. We understand the shared sacrifice that all segments of the 
Government are being asked to make to help the economy recover by 
spurring job growth and investment. We also understand the public 
attention to other programmatic responsibilities of ATF, and the 
attendant pressure to divert resources to the addressing these 
responsibilities. However, the success of the Bureau's explosives 
industry programs to prevent the misappropriation of commercial 
explosives should not be used against us. Budgetary cuts of personnel 
essential to perform services needed by our industry to engage in the 
commerce of explosives, hurts our industry, our customers, and the U.S. 
economy.
    By law, ATF must inspect over 11,000 explosives licensees and 
permittees at least once every 3 years \3\ and conduct background 
checks of so-called ``employee possessors'' of explosives and 
``responsible persons.'' During fiscal year 2012, ATF conducted over 
4,000 such compliance inspections and identified 1,392 public safety 
violations. \4\ In addition to this workload, ATF must process 
applications for new explosives licenses and permits as well as those 
submitted for renewal of existing licenses and permits. Over 2,700 such 
applications were processed during the last full fiscal year. \5\ The 
Bureau must also conduct inspections of all new applicants. Over 56,000 
background checks were completed for employee possessors and over 9,000 
for responsible persons. \6\ These are significant workload indicators.
---------------------------------------------------------------------------
    \3\ ATF estimates that the requirement to inspect 100 percent of 
the licensees and permittees within their three-year license/permit 
cycle consumes between 25 percent and 41 percent of available inspector 
resources in any given year.
    \4\ See, Fiscal Year 2013 ATF Budget Submission.
    \5\ See, Fiscal Year 2013 ATF Budget Submission.
    \6\ See, Fiscal Year 2013 ATF Budget Submission.
---------------------------------------------------------------------------
    ATF recognizes that its ability to perform its statutory 
responsibilities will be negatively impacted by these resource cuts. 
ATF estimates that, in fiscal year 2010, it met its statutory 
responsibilities 95.8 percent of the time. In fiscal year 2012, it 
estimates that this performance rate will fall to 88 percent. And, with 
the resource cuts anticipated in fiscal year 2013, this outcome metric 
will fall to 85 percent, before the potential effect of sequester. The 
Bureau's falling productivity cannot help but have adverse impacts on 
our industry. Without approved licenses and permits from ATF, our 
industry cannot conduct business. Delays in servicing the needs of our 
industry may lead to disruptions in other segments of the economy that 
are dependent on the products and materials we provide.
    At the same time, duplication between Government programs wastes 
resources. The U.S. Government Accountability Office (GAO) has 
highlighted areas of duplication between the ATF and the Federal Bureau 
of Investigation (FBI) that relate to explosives incidents. \7\ As 
early as 2004, duplication and overlap were identified in the areas of 
investigations, training, information sharing and use of databases, and 
laboratory forensic analysis. While ATF's budget request provides 
updates of plans for consolidating and eliminating these redundancies, 
we continue to watch for other potential areas of overlap. In 
describing its role as the sole repository of data on explosives 
incidents, ATF states that ``eight billion pounds of ammonium nitrate 
are produced, of which half is used for explosives.'' \8\ In fact, the 
percentage used by the explosives industry has been rising and 
currently stands at 70 percent. As a regulatory matter, the security of 
ammonium nitrate (AN), along with other explosives precursors, has been 
delegated to the U.S. Department of Homeland Security (DHS). We believe 
that DHS could learn from ATF's regulation of commercial explosives as 
it finalizes rules to secure the commerce of AN. In particular, DHS 
should recognize that employees who have been vetted and cleared by ATF 
to possess explosives should not have to be vetted again in order to 
engage in the commerce of AN.
---------------------------------------------------------------------------
    \7\ ``Opportunities to Reduce Potential Duplication in Government 
Programs, Save Tax Dollars, and Enhance Revenue,'' GAO, March 2011, 
pages 101-104, http://www.gao.gov/new.items/d11318sp.pdf.
    \8\ See, Fiscal Year 2013 ATF Budget Submission. 2012 data 
estimates put total AN production at 6.8 billion pounds.
---------------------------------------------------------------------------
    As the Subcommittee considers ATF's budget request, we ask that the 
Bureau's ability to perform its regulatory oversight of the explosives 
industry in a timely fashion not be compromised in the push for fiscal 
discipline when other areas of duplication and overlap are ripe for 
reform.
                       atf's regulatory workload
    Since 2003 when ATF was transferred to the Department of Justice, 
the agency has issued eight rulemakings of importance to IME (including 
two interim final rules). It has finalized three, withdrawn two, and 
merged two. Of the two rulemakings still pending, one is an interim 
final rule which dates to 2003. In the absence of a process to ensure 
timely rulemaking that is capable of keeping up with new developments 
and safety practices, industry must rely on interpretive guidance and 
variances from outdated requirements in order to conduct business. 
While we greatly appreciate the Bureau's accommodations, these stop-gap 
measures do not afford the continuity and protections that rulemaking 
would provide the regulated community, nor do they allow the oversight 
necessary to ensure that all parties are being held to the same 
standard of compliance. These regulatory tasks are critical to the 
lawful conduct of the commercial enterprises that the Bureau controls. 
ATF should be provided the resources to make timely progress in this 
area.
                        atf-industry partnership
    The ATF Bomb Data Center (BDC) is the sole repository for 
explosives related incident data, and contains information on thousands 
of explosives incidents investigated by ATF and other Federal, State, 
and local law enforcement agencies. While this data helps government 
entities to perform trend analysis and to compare incidents for 
similarities and crime methodologies, BDC data would also help industry 
as it refreshes and updates best practice recommendations. Until 2006, 
this data used to be routinely provided to industry stakeholders. IME 
is currently engaged in discussion with ATF in the hope that the Bureau 
will once again provide the regulated community key data on bomb or 
improvised device fillers, as well as thefts, losses and recoveries by 
type and amount of explosives and point in the supply chain when the 
thefts and losses occurred. ATF needs the resources to continue this 
important service.
    Explosives manufacturers and importers are required to mark our 
products with codes to aid law enforcement agencies in the U.S. and in 
foreign countries in the tracing of these materials when they are lost 
or stolen. Explosives manufacturers and importers and others in the 
global supply chain cooperate in tracing efforts. However, more and 
more government entities are imposing their own unique system of marks 
without reciprocally recognizing each other's marks. These redundant 
and competing marks are creating non-tariff barriers to trade. We are 
asking ATF to join with us in working to harmonize a global marking 
standard.
    Since 2003, ATF, with our support, has required background checks 
of persons authorized to possess explosives. While this background 
check included vetting against the Terrorist-Screening Database (TSDB), 
being named on the database does not disqualify individuals from 
possessing explosives. We think this is an oversight. Recently, Senator 
Frank Lautenberg and Representative Peter King introduced legislation, 
S. 34 and H.R. 720, respectively, to close this glaring security gap in 
Federal explosives law. This legislative change will better harmonize 
the vetting and clearance procedures used by the ATF with other 
government agencies that perform security threat assessments of 
individuals seeking to engage in security-sensitive activities. As 
these standards are harmonized, opportunities to leverage other vetting 
programs and security credentials increases. This outcome would add 
intelligence value to all government vetting programs sharing the same 
platform, and provide savings to the Federal Government and the 
regulated community.
                           industry standards
    We take seriously the statutory obligation that ATF take into 
account industry's standards of safety when issuing rules and 
requirements. \9\ We continue to fulfill this obligation through our 
development of industry best practices for safety and security, 
membership in relevant standard-setting organizations, and active 
participation in forums for training. We have offered ATF 
recommendations that we believe will enhance safety and security 
through participation in the rulemaking process, in the Bureau's 
important research efforts, and in other standard-setting activities.
---------------------------------------------------------------------------
    \9\ 18 U.S.C. 842(j).
---------------------------------------------------------------------------
    In this regard, IME has spent years developing a credible 
alternative to strict interpretation of quantity distance tables used 
to determine safe setback distances from explosives. IME collaborated 
in this development with the Department of Defense Explosives Safety 
Board as well as Canadian and U.S. regulatory agencies, including ATF. 
The result is a Windows-based computer model for assessing the risk 
from a variety of commercial explosives activities called IMESAFR. \10\ 
ATF and other regulatory agencies are recognizing the value of IMESAFR 
and participated in development meetings for Version 2.0. ATF is also 
evaluating existing licensed locations with this risk-based approach 
and exploring use of the software for variance requests. These efforts 
are vital for ATF to remain on the forefront of public safety and we 
strongly encourage ATF's continued support. The benefits of risk-based 
modeling should be officially recognized by ATF and resources should be 
provided to develop policies that allow the use of such models to meet 
regulatory mandates.
---------------------------------------------------------------------------
    \10\ IMESAFR was built on the DDESB's software model, SAFER. The 
DDESB currently uses SAFER and table-of-distance methods to approve or 
disapprove Department of Defense explosives activities. Not only can 
IMESAFR determine the amount of risk presented, but it can also 
determine what factors drive the overall risk and what actions would 
lower risk, if necessary. The probability of events for the activities 
were based on the last 20 years' experience in the U.S. and Canada and 
can be adjusted to account for different explosive sensitivities, 
additional security threats, and other factors that increase or 
decrease the base value.
---------------------------------------------------------------------------
                               leadership
    The resolution of these issues may have to wait the appointment of 
a new ATF director. The Bureau has been without a director since August 
2006. We support President Obama's nomination of B. Todd Jones for this 
position. We hope that the Senate will timely act on this nomination. 
The Bureau has been too long without permanent leadership.
                               conclusion
    The manufacture and distribution of explosives is accomplished with 
a remarkable degree of safety and security. We recognize the critical 
role ATF plays in helping our industry achieve and maintain safe and 
secure workplaces. Industry and the public are dependent on ATF having 
adequate resources to fulfill its regulatory responsibilities. It is up 
to Congress and, in particular, this Subcommittee to ensure that ATF 
has the resources it needs. We strongly recommend full funding for 
ATF's explosives program.
                                 ______
                                 
              Prepared Statement of the Innocence Project
    On behalf of the Innocence Project, thank you for allowing me to 
submit testimony to the Senate Committee on Appropriations Subcommittee 
for Commerce, Justice, Science, and Related Agencies as it considers 
budget requests for fiscal year 2014. I write to request funding for 
the following programs, please:
  --$3 million for the Wrongful Conviction Review and the Capital 
        Litigation Improvement Programs (the Wrongful Conviction Review 
        Program is a part of the Capital Litigation Improvement 
        Program), at the Department of Justice (DoJ), Bureau of Justice 
        Assistance (BJA);
  --$4 million for the Kirk Bloodsworth Post-Conviction DNA Testing 
        Program (the ``Bloodsworth Program'') at the DoJ, National 
        Institute of Justice (NIJ);
  --$12 million for the Paul Coverdell Forensic Sciences Improvement 
        Grant Program (the ``Coverdell Program'') at the NIJ; and
  --$9 million to strengthen the forensic sciences, including support 
        for the National Commission on Forensic Science, research at 
        the National Institute of Standards and Technology for forensic 
        science measurement science and standards, and establishment of 
        a forensic science grant program at the National Science 
        Foundation.
    Freeing innocent individuals and preventing wrongful convictions 
through reform greatly benefit public safety. Every time DNA identifies 
a wrongful conviction, it enables the identification of the real 
perpetrator of those crimes. True perpetrators have been identified in 
approximately half of the over 300 DNA exoneration cases. 
Unfortunately, many of these real perpetrators had gone on to commit 
additional crimes while an innocent person was convicted and 
incarcerated in their place.
    To date, 305 individuals in the United States have been exonerated 
through DNA testing, including 18 who served time on death row. These 
innocents served on average more than 13 years in prison before 
exoneration and release. However, I want to underscore the value of 
Federal innocence programs not to just these exonerated individuals, 
but also to public safety, fairness, and achieving true justice for 
victims of violent crimes. It is important to fund these critical 
innocence programs because reforms and procedures that help to prevent 
wrongful convictions enhance the accuracy of criminal investigations, 
strengthen criminal prosecutions, and result in a stronger, fairer 
system of justice that provides true justice to victims of crime.
                   wrongful conviction review program
    Particularly when DNA is not available, or when DNA alone is not 
enough to prove innocence, proving one's innocence to a level 
sufficient for exoneration is difficult compared to ``simply'' proving 
the same with DNA evidence. These innocents languishing behind bars 
require expert representation to help navigate the complex issues that 
invariably arise in their bids for post-conviction relief. And the need 
for such representation is enormous when only a small fraction of cases 
involve evidence that could be subjected to DNA testing. Realizing the 
imperative presented by such cases, the BJA dedicated part of its 
Capital Litigation Improvement Program funding to create the Wrongful 
Conviction Review program. \1\ The program provides applicants--non-
profit organizations and public defender offices dedicated to 
exonerating the innocent--with funds for providing high quality and 
efficient representation for potentially wrongfully convicted 
defendants in post-conviction claims of innocence. This program forms a 
considerable piece of the Federal package of innocence protection 
measures created in recent years; without it, a great deal of innocence 
claims might otherwise fall through the cracks.
---------------------------------------------------------------------------
    \1\ Reauthorization of the Innocence Protection Act. 111th Cong., 
1st Sess., 8 (2009) (testimony of Lynn Overmann, Senior Advisor, Office 
of Justice Programs).
---------------------------------------------------------------------------
    Numerous Innocence Network organizations have been able to enhance 
their caseloads and representation of innocents as a result of the 
Wrongful Conviction Review grant program, including those in Alaska, 
Minnesota, Pennsylvania, and at the University of Baltimore. During the 
past 2 years, the Florida Innocence Project was able to achieve the 
exoneration of Derrick Williams through the support of this program, 
and the Mid-Atlantic Innocence Project helped secure the exoneration of 
Thomas Haynesworth in Virginia. Grant funds enabled the Northern 
California Innocence Project to hire staff to screen cases, thereby 
permitting their existing attorneys to commit to litigation, which 
resulted in the exonerations of three innocent Californians, Obie 
Anthony, Maurice Caldwell, and Franky Carillo. With Wrongful Conviction 
Review funding, the Innocence Project of Minnesota was able to prove 
that Michael Hansen did not kill his 3 month old. Additionally, Darrin 
Hill was exonerated after being wrongly confined at a State mental 
health facility for 20 years. Staff, who were cataloging evidence at 
Orleans Parish Criminal District Court pursuant to the grant secured 
for the State by the Innocence Project New Orleans (IPNO), found the 
rape kit that was collected in the case. IPNO's research suggests this 
is the first case ever in which a person so committed has been freed 
due to proof of innocence. The DNA testing not only freed Darrin, it 
has also provided law enforcement with the actual rapist's DNA profile.
    To help continue this work, we urge you to provide a total of $3 
million for the Wrongful Conviction Review and the Capital Litigation 
Improvement Programs. (The Wrongful Conviction Review Program is a part 
of the Capital Litigation Improvement Program.)
                        the bloodsworth program
    The Bloodsworth Program provides hope to innocent inmates who might 
otherwise have none by helping States more actively pursue post-
conviction DNA testing in appropriate situations. These funds have had 
a positive impact that has led to great success. Many organizational 
members of the Innocence Network have partnered with State agencies 
that have received Bloodsworth funding. \2\
---------------------------------------------------------------------------
    \2\ The Innocence Network is an affiliation of organizations 
dedicated to providing pro bono legal and investigative services to 
individuals seeking to prove innocence of crimes for which they have 
been convicted and working to redress the causes of wrongful 
convictions.
---------------------------------------------------------------------------
    The Bloodsworth Program does not fund the work of organizations in 
the Innocence Network directly, but instead funds State applicants 
which seek support for a range of entities involved in settling 
innocence claims, including law enforcement agencies, crime 
laboratories, and a host of others, and often in collaboration. Through 
this process, the Bloodsworth Program has fostered the cooperation of 
organizations in the Innocence Network and State agencies. For example, 
the Arizona Justice Project, in conjunction with the Arizona Attorney 
General's Office, began the Post-Conviction DNA Testing Project. 
Together, they have canvassed the Arizona inmate population, reviewed 
cases, worked to locate evidence and filed joint requests with the 
court to have evidence released for DNA testing. In addition to 
identifying the innocent, Arizona Attorney General Terry Goddard has 
noted that the ``grant enables [his] office to support local 
prosecutors and ensure that those who have committed violent crimes are 
identified and behind bars.'' \3\ Such joint efforts have also been 
pursued in Connecticut, Louisiana, Minnesota, North Carolina, and 
Wisconsin. According to NIJ, Bloodsworth Program funding has 
contributed to at least 15 exonerations. Most recently, Robert Dewey 
was released from prison after serving nearly 18 years for a rape and 
murder he did not commit. Colorado's Justice Review Project was able to 
achieve his exoneration through DNA testing funded by the program. 
Additionally, the true perpetrator has been identified through several 
Bloodsworth Program exonerations. For example, Virginian Thomas 
Haynesworth was freed thanks to Bloodsworth-funded testing that also 
revealed the real perpetrator. We ask that you please provide $4 
million to continue the work of the Bloodsworth Post-Conviction DNA 
Testing Program.
---------------------------------------------------------------------------
    \3\ Arizona receives Federal DNA grant, http://
community.law.asu.edu/news/19167
/Arizona-receives-federal-DNA-grant.htm (last visited Mar. 13, 2012).
---------------------------------------------------------------------------
                         the coverdell program
    Recognizing the need for independent government investigations in 
the wake of forensic scandals, Congress created the forensic oversight 
provisions of the Coverdell Program, a crucial step toward ensuring the 
integrity of forensic evidence. Specifically, in the Justice for All 
Act, Congress required that

[t]o request a grant under this subchapter, a State or unit of local 
government shall submit to the Attorney General . . . a certification 
that a government entity exists and an appropriate process is in place 
to conduct independent external investigations into allegations of 
serious negligence or misconduct substantially affecting the integrity 
of the forensic results committed by employees or contractors of any 
forensic laboratory system, medical examiner's office, coroner's 
office, law enforcement storage facility, or medical facility in the 
State that will receive a portion of the grant amount. \4\

    \4\ 42 U.S.C. section 3797k(4) (emphasis added).
---------------------------------------------------------------------------
    The Coverdell Program provides State and local crime laboratories 
and other forensic facilities with much needed Federal funding to carry 
out their work both efficiently and effectively. Now, more than ever, 
as forensic science budgets find themselves on the chopping block in 
States and localities nationwide, the very survival of many crime labs 
may depend on Coverdell funds. As the program supports both the 
capacity of crime labs to process forensic evidence and the essential 
function of ensuring the integrity of forensic investigations in the 
wake of serious allegations of negligence or misconduct, we ask that 
you please provide $12 million for the Coverdell Program in fiscal year 
2014.
          forensic science research and standards development
    The Innocence Project was happy to learn about the establishment of 
a joint DOJ-NIST National Commission on Forensic Science, and we 
request that the Subcommittee allocate $1 million for the Commission to 
initiate and sustain its work. We also urge the Subcommittee to provide 
$3 million directly to NIST to support research for the development of 
measurement science and standards in support of forensic science. 
Additionally, we request that the Subcommittee allocate $5 million to 
the National Science Foundation to support a forensic science grant 
program to establish forensic science research centers.
additional note on the department of justice's fiscal year 2014 budget 
                                request
    The Department of Justice's fiscal year 2014 budget request, as it 
has in previous years, proposes to ``block grant'' two of the above 
programs--the Coverdell and Bloodsworth Programs--into a larger DNA 
Initiative. We are concerned about the impact that zeroing out the 
Bloodsworth and Coverdell Programs would have both on supporting 
forensic work that is not specifically DNA related, as well as the 
requirements and incentives that both programs currently provide for 
States to prevent wrongful convictions and otherwise ensure the 
integrity of evidence. Additionally, funding these programs would help 
to achieve their unique goals of providing access to post-conviction 
DNA testing for those who have been wrongfully convicted, and providing 
critically needed support to State and local crime labs to process the 
significant amount of forensic evidence critical to solving active and 
cold cases, helping to ensure public safety. The Innocence Project 
urges the Subcommittee to maintain and fund these two programs by name, 
in order to continue to prioritize both DNA and non-DNA forensic work, 
as well as to preserve their important incentive and performance 
requirements.
    Thank you so much for your time and consideration of these 
important programs.
                                 ______
                                 
     Prepared Statement of the Independent Tribal Court Review Team
    Thank you for the opportunity to provide testimony today and 
address the serious funding needs that have limited and continue to 
hinder the operations of Tribal judicial systems in Indian Country. I 
am the Lead Judge of the Independent Tribal Court Review Team. We are 
here today to request funding for Tribal Courts in the Department of 
Justice, Office of Justice Programs for the Tribal Courts Assistance 
Program.
             budget priorities, request and recommendations
    Increase funding for Tribal Courts by $10 million.
    Maintain the set-aside for Tribal Courts.
    Fully fund all provisions of the Tribal Law and Order Act of 2010.
    Fully fund all provisions of the VAWA Act of 2013.
    $58.4 million authorized under the Indian Tribal Justice Act of 
1993, Public Law 103-176, 25 U.S.C. 3601 and re-authorized in year 2000 
Public Law 106-559 (no funds to date).
    We support the 7 percent Tribal set-aside ($81,375,000) from all 
discretionary Office of Justice Programs to address Indian Country 
Public Safety and Tribal Criminal Justice Needs. However, this is not 
sufficient to address the need in terms of equity for Indian Country 
relative to funding appropriated for State, local and other Federal 
justice assistance programs. On behalf of the Independent Review Team, 
I ask that you give every consideration to increasing this program to 
the fiscal year 2010 enacted level for the Tribal Assistance Account 
and allow for greater flexibility for Tribes to use these funds at the 
local level.
    We support an increase in funding for:
  --Hiring and Training of Court Personnel.--Tribal Courts make do with 
        underpaid staff, under-experienced staff and minimal training. 
        (We have determined that hiring Tribal members limits the 
        inclination of staff to move away; a poor excuse to underpay 
        staff.)
  --Compliance with the 2010 Tribal Law & Order Act.--To provide 
        Judges, Prosecutors, Public Defenders, who are attorneys and 
        who are barred, to do ``enhanced sentencing'' in Tribal Courts.
  --Compliance with the 2013 VAWA Act.--To provide Tribal Courts with 
        the ability to provide non-Indians with all the rights under 
        the U.S. Constitution in domestic violence actions in Indian 
        country.
  --Salary Increases for Existing Judges and Court Personnel.--Salaries 
        should be comparable to local and State Court personnel to keep 
        pace with the non-Tribal judicial systems and be competitive to 
        maintain existing personnel.
  --Tribal Courts Need State-of-the-Art Technology.--(software, 
        computers, phone systems, tape recording machines.) Many Tribes 
        cannot afford to purchase or upgrade existing court equipment 
        unless they get a grant. This is accompanied by training 
        expenses and licensing fees which do not last after the grant 
        ends.
  --Security and Security Systems to Protect Court Records and Privacy 
        of Case Information.--Most Tribal Courts do not even have a 
        full time bailiff, much less a state-of-the-art security system 
        that uses locked doors and camera surveillance. This is a 
        tragedy waiting to happen.
  --Tribal Court Code Development.--Tribes cannot afford legal 
        consultation. A small number of Tribes hire on-site staff 
        attorneys. These staff attorneys generally become enmeshed in 
        economic development and code development does not take 
        priority. Tribes make do with under-developed codes. The Adam 
        Walsh Act created a hardship for Tribes who were forced to 
        develop codes, without funding, or have the State assume 
        jurisdiction. (States have never properly overseen law 
        enforcement in a Tribal jurisdiction.)
  --Financial Code Development,--We have rarely seen Tribes with 
        developed financial policies. The process of paying a bond, for 
        example, varies greatly from Tribe to Tribe. The usual process 
        of who collects it, where it is collected and how much it is, 
        is never consistent among Tribes.
    Nationwide, there are 184 Tribes with Courts that receive Federal 
funding. For the past 7 years, the Independent Court Review Team has 
been traveling throughout Indian Country assessing how Tribal Courts 
are operating. During this time, we have completed some 84 court 
reviews. There is no one with more hands-on experience and knowledge 
regarding the current status of Tribal Courts than our Review Team.
    We have come into contact with every imaginable type of Tribe, 
large and small, urban and rural, wealthy and poor. What we have not 
come into contact with is any Tribe whose Court system is operating 
with financial resources comparable to other local and State 
jurisdictions. Our research indicates Tribal Courts are at a critical 
stage in terms of need.
    There are many positive aspects about Tribal Courts. It is clear 
that Tribal Courts and justice systems are vital and important to the 
communities where they are located. Tribes value and want to be proud 
of their Court systems. Tribes with even modest resources tend to send 
additional funding to Courts before other costs. After decades of 
existence, many Tribal Courts, despite minimal funding, have achieved a 
level of experience and sophistication approaching, and in some cases 
surpassing, local non-Indian Courts.
    Tribal Courts, through the Indian Child Welfare Act, have mostly 
stopped the wholesale removal of Indian children from their families. 
Indian and Non-Indian Courts have developed formal and informal 
agreements regarding jurisdiction. Tribal governments have recognized 
the benefit of having law-trained Judges, without doing away with 
Judges who have cultural/traditional experience. Tribal Court systems 
have Appellate Courts, jury trials, well-cared-for Courthouses (even 
the poorer Tribes), and Tribal Bar listings and fees. Perhaps most 
importantly, Tribes recognize the benefit of an Independent Judiciary 
and have taken steps to insulate Courts and Judges from political 
pressure. No longer in Indian Country are Judges automatically fired 
for decisions against the legislature.
    Assessments have indicated that the Bureau of Indian Affairs (BIA) 
only funds Tribal Courts at 26 percent of the funding needed to 
operate. This funding will be critically impacted with the 5 percent 
reduction and an additional impending rescission of 0.96 percent. The 
remainder is funded by the Tribes. Tribes who have economic development 
generally subsidize their Tribal Courts. On the flip side, Tribes who 
cannot afford to assist in the financial operations of the Court are 
tasked with doing the best they can with what they have even at the 
expense of decreasing or eliminating services elsewhere. This while 
operating at a disadvantage with already overstrained resources and 
underserved needs of the Tribal members. The assessment suggests that 
the smaller Courts are both the busiest and most underfunded.
    We thank this Committee for the additional $10.0 million funding in 
fiscal year 2010. These funds were a Godsend to Tribes. Even minimal 
increases were put to good use. The additional funding in fiscal year 
2014 will be a big asset and coupled with Tribes having flexibility on 
how to use these funds will greatly improve access to funding for 
Tribal courts.
    The grant funding in the Department of Justice is intended to be 
temporary, but instead it is used for permanent needs, such as funding 
a Drug Court Clerk who then is used as a Court Clerk with Drug Court 
duties. When the funding runs out, so does the permanent position. We 
have witnessed many failed Drug Courts, failed Court management 
software projects (due to training costs) and incomplete Code 
development projects. When the Justice funding runs out, so does the 
Project.
    As a directive from the Office of Management and Budget, our 
Reviews specifically examined how Tribes were using Federal funding. In 
the past several years, there were only two isolated incidents of a 
questionable expenditure of Federal funds. It is speculated that 
because of our limited resources, we compromise one's due process and 
invoke ``speedy trials'' violations to save Tribal Courts money. 
Everyone who is processed through the Tribal judicial system is 
afforded their Constitutional civil liberties and civil rights.
    We do not wish to leave an entirely negative impression about 
Tribal Courts. Tribal Courts need an immediate, sustained and increased 
level of funding. True. However, there are strong indications that the 
Courts will put such funding to good use.
    There are several courts where the roofs leak when it rains and 
those courthouses cannot be fixed due to lack of sufficient funds. The 
Team took pictures of those damaged ceilings for the BIA hoping to have 
additional funds for the Tribes to fix the damaged ceilings.
    Tribal Courts have other serious needs. Tribal Appellate Court 
Judges are mostly Attorneys who dedicate their services for modest fees 
that barely cover costs for copying and transcription fees. Tribal 
Courts offer Jury Trials. In many Courts, one sustained Jury Trial will 
deplete the available budget. The only place to minimize expenses is to 
fire staff. Many Tribal Courts have Defense Advocates. These advocates 
are generally law trained and do a good job protecting an individual's 
rights (including assuring that speedy trial limitations are not 
violated). This is a large item in Court budgets and if the defense 
advocate, or Prosecutor should leave, the replacement process is slow.
    The need is greater if the Tribal Courts follow the Tribal Law & 
Order Act of 2010 (TLOA), that requires barred attorneys to sit as 
judges, prosecutors, defense attorneys, when using the ``enhanced 
sentencing'' and enhanced jail detention, options of this Act. Partial 
funding for TLOA is not an option if Indian Country is expected to 
benefit from the intent of Congress. We ask that you fully fund the 
investment you made in Tribal Justice Systems by authorizing both the 
Tribal Law and Order Act of 2010 and the Indian Tribal Justice Act of 
1993. Otherwise the continued lack of resources for Tribal Justice 
Systems will continue to pose a threat to Native citizens and the 
future of Indian country.
    There is an additional need if the Tribal Courts are to follow the 
newly enacted VAWA Act of 2013 in domestic violence with jurisdiction 
over non-Indians in providing the full constitutional rights afforded 
under the United States Constitution.
    We feel it is our duty to submit this testimony and provide these 
facts on behalf of Tribes' Tribal Courts to advocate for better 
funding. Tribes ask us to tell their stories. They open their files and 
records to us and say, ``We have nothing to hide.'' Tell Congress we 
need better facilities, more law enforcement, more detention 
facilities, more legal advice, better codes . . .  the list goes on and 
on. But, as we have indicated, it all involves more funding. This 
Congress and this administration have advanced legislation that 
improves health and safety for Indian people. However, not fully 
funding the authorized appropriations in these bills only partially 
fulfills the intent of the legislation. Put the money where your 
promises have been!
    Finally, we support the requests and recommendations of the 
National Congress of American Indians.
    On behalf of the Independent Tribal Court Review Team, thank you.
                                 ______
                                 
        Prepared Statement of the Lummi Indian Business Council
    Good morning distinguished Committee Members and thank you for this 
opportunity. As an elected official of the Lummi Indian Business 
Council, it is an honor to speak on behalf of the Lummi Nation and 
present our appropriation requests for fiscal year 2014 to the 
Department of Commerce, Justice, Science and Related Agencies.
    The Lummi Nation is one of the signatories to the Point Elliot 
Treaty of 1855. We are located in the northwest coast of Washington 
State. We have over 5,000 enrolled tribal members with a land base of 
25,000 acres with 12 miles of tidelands. We are a fishing community 
with over 560 registered fishers. Since 1988, we have been at the 
forefront of the tribal self-governance initiative which includes: BIA 
and IHS.
    Lummi Nation Justice System.--The Lummi Nation has a sophisticated 
justice system. Our Law Enforcement officers make nearly 4,000 arrests 
and our courts hold in excess of nearly 5,000 civil and criminal 
hearings annually. One of the biggest challenges we face is the high 
cost of incarceration. The Lummi Nation, like most Tribal governments, 
does not have its own jail facilities. We have developed and 
implemented an extensive web-based in-home detention system. We are 
developing a traditional restorative justice model to enable the 
incorporation of traditional values into our correctional services. 
This initiative is coordinated with multiple Tribal-wide efforts to 
restore our traditional values into our contemporary services.
    Violence Against Women Act (VAWA) Implementation.--Lummi Nation is 
requesting that Congress assure all tribes that all available funds are 
on the table to implement VAWA and the Tribal Law and Order Act (TOLA). 
We urge the committee to adopt criteria for implementation that 
provides the maximum flexibility for Tribes. During the implementation 
phase Tribes need access to all services that are available to State 
and county governments. This includes but is not limited to the Office 
of Victims of Crimes and the financial assistance that is available 
through the crime victim's fund, Federal and State forensic labs, rape 
kits and sexual assault nurse examiners (SANE). The Department of 
Justice should recognize its trust responsibility assumed by the United 
States of America delegated to the Department of Justice.
    VAWA Funding Strategy.--We realize that the reauthorization of VAWA 
with tribal provisions is an historic landmark for recognizing tribal 
sovereignty. Therefore, we are prepared to engage in a planning, 
implementation and enforcement strategy, which identifies and transfers 
existing non-discretionary funding to the tribes and also identifies 
shortfall funding gaps.
                 department of justice recommendations
    We have prepared some recommendations for significant changes in 
the structure and operations of the Department of Justice to improve 
its ability to work effectively with Tribal Governments. We believe 
these recommendations should be one of the Committee's highest 
priorities.
Indian Justice Bureau (New)
    Unlike the Bureau of Indian Affairs or Indian Health Service, the 
Department of Justice does not have a dedicated Indian bureau office 
and/or agency to oversee its trust responsibilities and legal 
obligations to Indian tribes. Which include providing adequate public 
safety to protect Indian citizens and oversee resources administered to 
Indian tribes. Currently, DOJ offers services for 567 tribal 
governments, which are provided by only three (3) permanent dedicated 
employees and literally hundreds who have some detailed or recurring 
partial responsibility. Therefore, we urge the Department of Justice to 
develop a true government-to-government relationship with all tribes.
            Recommended Directives
    Direct the Department to begin planning to create an Indian Justice 
Bureau within the Justice Department which will carry out programs, 
services and budgetary policies of the Department services and staff 
from Indian Country working directly with Tribal governments.
    The Committee needs to schedule and hold hearings on this request, 
based on the current Bureau of Indian Affairs Law Enforcement 
organization structure and policies. We want to urge the committee to 
make this a high priority.
    Direct the Department of Justice and Interior to develop and 
implement a plan to move BIA law enforcement services to DOJ and employ 
Indian Preference in all staffing actions. This was presented as Option 
B in the Report of The Executive Committee for Indian Country Law 
Enforcement Improvements Final Report, to the Attorney General and the 
Secretary of the Interior October 1997.
    At that time Option A was selected. This option proposed to re-
organize the three (3) Bureau of Indian Affairs' Law Enforcement 
Programs into a single command structure. This option has not addressed 
the staffing of uniformed officers, training of officers, correctional 
services and jurisdictional issues that still plague the Department of 
Interior and Department of Justice Law Enforcement Programs.
    Example: Lummi Nation is served by regional BIA law enforcement 
official, who has done little or no coordination to the Lummi Nation 
for the past 5 years.
Recruitment of Qualified Tribal Members
    There are very few qualified tribal members among the hundreds of 
DOJ employees responsible to carry out civil and criminal 
jurisdictional authority in Indian country over members of Indian 
tribes. These competencies are essential and must be reflected in DOJ's 
leadership and line positions. No member of an Indian tribe is a 
Federal judge, a U.S. Attorney, holds a leadership position, or 
oversees Federal policy or resources for Indian tribes.
    Restore Tribal Youth Coordinator--position needs to be recruited 
and hired. This position provides subject matter expertise to multiple 
DOJ staff. This position needs to be filled with a person who is 
experienced and grounded in Indian Communities.
            Recommended Directives
    Direct the DOJ to create an Indian law training module that enables 
senior, line and station personnel to work effectively with Tribes. 
Hundreds of non-Indian senior leaders, FBI agents, U.S. Attorneys and 
their staff, victim specialists, U.S. Marshals, grants managers, and 
dedicated Indian staff are not tribal members and need to be educated 
and trained on how to work with tribes to understand the political 
relationship and responsibilities.
    Create hiring standards that require knowledge of working with 
Indian tribes and Indian law.
    Create a plan for the recruitment and hiring of members of Indian 
tribes for political and career senior and staff line positions.
Funding Recommendations
    Competitive funding awarded to Indian tribes is insufficient to 
meet their complex jurisdictional issues and social needs.
            Recommended Directives and Hearing Requests
    Direct the Department to create recurring funding like DOJ provides 
to State and local governments; create a dedicated Indian program to 
develop a non-competitive flexible grant program similar to Tribal 
Self-Governance.
    Further we want to request that the committee consider holding 
hearings for funding strategies that have worked for Indian Country for 
the past three decades. Self-governance has worked for the Lummi Nation 
for the past 24 years. We offer our experience and knowledge to work 
with the Committee to develop these funding solutions.
Consultation
    Seek and incorporate input from Tribal governments on Federal 
operations and policy. Since 1998, after 15 years of being directed by 
the President to implement a Tribal Consultation Policy, the Department 
of Justice still does not have one.
            Recommended Directives
    Direct the Department to implement a DOJ Tribal Consultation Policy 
reflecting the recommendations provided by the Tribal Nations 
Leadership Council and the former Tribal Justice Advisory Group.
    Make the Tribal Nations Leadership Council a permanent FACA exempt 
advisory group. National organizations whose governing boards are 
composed of elected tribal leaders should also receive this exemption.
    Apply the intergovernmental exception to all Justice Tribal 
advisory groups and task forces, representing tribal governments, 
elected and appointed officials.
    Develop recruitment, promotion and hiring policies which highlight 
the direct experience of working in tribal governments and communities 
and who are knowledgeable of tribal governance, culture, language, and 
laws.
    These requests are consistent with Tribal Law and Order Act, 
Section 235 Sub-part ``(m) Nonapplicability of FACA.--The Federal 
Advisory Committee Act (5 U.S.C. App.) shall not apply to the 
Commission.''
                 department of commerce recommendations
    Lummi Nation has also developed the following recommendations for 
the U.S. Commerce Department:
Climate Change
    We believe that climate change is a big factor in the decline of 
our fisheries and our way of life. Some of the factors that contribute 
to the water crisis are due to climate change. The Lummi Nation has 
seen increased flooding, increased temperatures, increased erosion, 
loss of habitat, loss of wild salmon, loss in other species; sturgeon, 
river smelt, eels, spring Chinook, chum, further we believe this also 
impacts marine wildlife, eagles, beavers, seals, etc.
    The Nooksack River has been a life source for the Lummi Nation and 
other tribes for their way of living that we are losing. We are 
witnessing the destruction of the eco-system in the Nooksack River. We 
need assistance to identify the impact of climate change on our 
fisheries, housing, land base which is made up of 12 miles of tidelands 
which produce substantial amounts of shellfish and are particularly 
susceptible to the negative impact of climate change. Therefore, we are 
asking the Committee for support in protecting this resource for the 
Lummi Nation and the next seven generations to come.
State of Art Salmon Hatchery
    We believe there is a need for a plan describing the next 
generation of state of the art salmon hatcheries. We envision energy 
savings, operational savings, increased production, sustainability for 
the community. We want to remind the Committee that this hatchery will 
not only service our community but the 15 user groups that would 
benefit 500,000 people. We have evidence that our fish have been 
identified as far south as California and as far north as Alaska. We 
are requesting financial support for this planning project.
    Hy'shqe,
    Henry Cagey, Councilmember
                                 ______
                                 
        Prepared Statement of the Marine Conservation Institute
    Ms. Chairwoman and Members of the Subcommittee: Marine Conservation 
Institute, based in Seattle, WA, is a nonprofit conservation 
organization that uses the latest science to identify important marine 
ecosystems around the world, and advocates for their protection for us 
and future generations. I wish to thank the members of the subcommittee 
for the opportunity to submit written testimony on the fiscal year 2014 
appropriations in regards to the National Oceanic and Atmospheric 
Administration (NOAA). NOAA's satellite and weather programs are vital 
to alerting citizens about oncoming weather events; however, these 
programs should not continue to be funded at the expense of NOAA's 
ocean and coastal activities. Marine Conservation Institute supports 
$35.5 million in additional funding (compared to previously enacted 
levels) to restore support to a select few ocean programs mentioned 
below.
    NOAA is one of the premier science agencies in the Federal 
Government and provides decision makers with critically important data, 
products, and services that promote and enhance the nation's economy, 
security, environment, and quality of life. According to the National 
Ocean Economics Program, the U.S. ocean economy contributes more than 
$258 billion to our nation's Gross Domestic Product through fisheries 
and seafood production, tourism, recreation, construction, and 
transportation. Additionally, over 2.7 million jobs in the U.S. depend 
on the marine environment. \1\ NOAA's programs are critical to 
protecting ocean health for sustained use and long term survival of its 
wildlife.
---------------------------------------------------------------------------
    \1\ National Oceanic and Atmospheric Administration. Economics: 
National Ocean Watch (ENOW). 2013. www.csc.noaa.gov/digitalcoast/data/
enow (accessed March 4, 2013).
---------------------------------------------------------------------------
    I would like to highlight a few programs that Marine Conservation 
Institute believes are essential to NOAA's conservation mandate.
                      national marine sanctuaries
    National marine sanctuaries preserve biologically and culturally 
important areas of our nation's oceans for us and future generations. 
Presently, the Office of National Marine Sanctuaries (ONMS) is 
responsible for managing the nation's 13 marine sanctuaries and 
Papahanaumokuakea Marine National Monument in the Northwestern Hawaiian 
Islands.
    Our marine sanctuaries support thousands of coastal businesses, 
protect underwater and maritime treasures, and provide ocean 
recreation, research, and education for the public. For example, more 
than 400,000 visitors to the Florida Keys sanctuary spent over 2 
million person-days of recreational fishing in 1 year and spent $274 
million in nearby counties.
    Continued underfunding will force ONMS to cut treasured public 
access and recreation opportunities, cancel collaborative efforts with 
museums and universities, and dismantle successful education 
initiatives that benefit local communities.
    Marine Conservation Institute recommends $60.5 million in fiscal 
year 2014. This amount includes $55 million for the operations and 
research account, and $5.5 million for the construction account. This 
would allow ONMS to better fulfill its responsibilities, particularly 
as ONMS is being asked to do more with less. For example, in 2013 the 
Marine Protected Area Center was subsumed by the ONMS and the National 
Marine Sanctuary of American Samoa was expanded by 13,580 square miles; 
however, additional resources have not been allocated to cover these 
responsibilities.
                   pacific marine national monuments
    Three marine national monuments (Pacific Remote Islands Marine 
National Monument, Rose Atoll Marine National Monument, and Marianas 
Trench Marine National Monument) were established in 2009 by President 
George W. Bush in the Pacific Ocean. Together with Papahanaumokuakea 
Marine National Monument (established in 2006), they protect 
approximately 331,797 square miles of spectacular marine habitat.
    Compared to other marine ecosystems, the marine monuments 
ecosystems are relatively intact and rich in biodiversity. These areas 
include some of the most pristine tropical islands and coral reef 
ecosystems in the world and contain vast amounts of shallow-water reef-
building coral species, hundreds of fish species, and dozens of species 
of seabirds. Mostly uninhabited, the marine monument waters are 
relatively free from the problems plaguing many other marine 
ecosystems: over-exploitation, disturbance, and pollution. Using these 
remarkably intact tropical ecosystems, we are developing an 
understanding of what healthy and productive places really look like 
which is helping to identify negative impacts to marine ecosystems 
closer to home and showing us the benefits of restoration.
    With the establishment of the monuments came the responsibility of 
developing and implementing appropriate management measures to 
adequately protect these biologically and historically significant 
areas. Without sufficient and sustained resources, NOAA cannot 
adequately protect these areas from illegal fishing, invasive species, 
vessel groundings and other threats. Continued budget cuts will reduce 
critical research and outreach grants to university scientists and non-
Government organizations and lessen the United States' ability to share 
information and ideas with other Pacific island nations about 
monitoring climate change, conserving endangered and threatened 
species, and developing remote surveillance capabilities. Therefore, 
Marine Conservation Institute recommends $3 million for the Pacific 
Marine Monuments Program in fiscal year 2014.
                      hawaiian monk seal recovery
    NOAA has responsibility for reviving populations of the Hawaiian 
monk seal, one of the most critically endangered marine mammals in the 
world. It is also the only marine mammal whose entire distribution 
range lies within our national jurisdiction; thus the U.S. has sole 
responsibility for its continued survival. Over the last 50 years, the 
Hawaiian monk seal population has experienced a severe decline of 60 
percent, and now the population is slightly more than 1,000 
individuals. Various factors have contributed to the seal's decline 
including: human hunting of the species to near extinction in the mid-
1800s; entanglement in marine debris; being hooked or entangled by 
fishing gear; loss of habitat for pupping and resting; and competition 
for food in the Northwestern Hawaiian Islands; to name a few.
    There is reasonable hope for the monk seal if a small subpopulation 
in the main Hawaiian Islands can continue to grow. However, this 
population growth has generated increased conflicts with recreational 
fishermen who unintentionally hook or entangle monk seals. In 2012 
alone, there were 15 confirmed hooking incidents, and three died as a 
result. Hostility toward the seal has become toxic in some communities, 
prompting at least four intentional seal killings on Kaua'i and 
Moloka'i in a little over a year.
    It has been conservatively estimated that 30 percent of the monk 
seals alive today are due to direct actions by NOAA and its partners. 
\2\ However, we are concerned that funding for the monk seal has 
severely decreased in recent years (a level as low at $2.7 million in 
2011). Furthermore, our analysis indicates that cuts to the monk seal 
program have been disproportionate compared to other marine mammal 
species under NOAA's jurisdiction.
---------------------------------------------------------------------------
    \2\ McAvoy, Audrey. ``Feds--Efforts to rescue monk seals helping 
species.'' Associated Press in West Hawaii Today, January 26, 2012.
---------------------------------------------------------------------------
    Lower funding levels in recent years have already severely affected 
recovery efforts by reducing field camps essential for population 
monitoring and seal protection; hampering critical community liaison 
efforts to explore and explain the importance of the monk seal in 
Native Hawaiian culture; removing specialists who eliminate sharks 
preying on seal pups; and diminishing research programs that develop 
mitigation measures for fisheries interactions and other human-seal 
interactions. Marine Conservation Institute strongly recommends the 
subcommittee moderately increase funding to $4.5 million in fiscal year 
2014 to begin to reinstate NOAA's lost capability to recover the 
species.
                            law enforcement
    NOAA's Office of Law Enforcement (OLE) is responsible for enforcing 
the laws that conserve and protect our nation's fisheries, threatened 
and endangered species, and marine sanctuaries and monuments. The 
office is also responsible for enforcing the United States' 
international commitments to fight illegal, unregulated and unreported 
(IUU) fishing (also called ``pirate fishing''), a practice that 
threatens to undermine global fish stocks, such as the Pacific tuna 
fishery in which the U.S. participates. IUU fishing also affects U.S. 
fishermen and fishing communities by reducing opportunities and prices 
for fish here at home.
    NOAA's jurisdiction spans 3.4 million square miles of coastal and 
marine environments, including the nation's 13 marine sanctuaries and 4 
marine national monuments mentioned above. The Pacific region alone 
poses a huge challenge for NOAA OLE because it covers 1.5 million 
square miles, nearly one-half of the U.S. Exclusive Economic Zone.
    The most recent analysis indicates that the U.S. commercial fishing 
alone contributed $7.3 billion to the U.S. Gross Domestic Product. 
However, over a quarter of the U.S. fish stocks are over-exploited. 
Additionally, as fish stocks decline worldwide, the threat of foreign 
poaching of U.S. fishing stocks becomes greater, particularly in remote 
areas. Officials estimate the global value losses from IUU fishing 
ranges between $10 billion and $23.5 billion annually. For domestic and 
international fish stocks to recover, strict regulations and increased 
enforcement must be put in place, particularly in remote areas such as 
the Pacific marine monuments. \3\
---------------------------------------------------------------------------
    \3\ National Oceanic and Atmospheric Administration. Illegal 
Fishing: Not in Our Ports, 2012. http://www.nmfs.noaa.gov/ia/iuu/
portstate_factsheet.pdf (Accessed July 7, 2012).
---------------------------------------------------------------------------
    Marine Conservation Institute strongly supports $67.7 million for 
NOAA's Office of Law Enforcement in fiscal year 2014. This will allow 
OLE to maintain current capabilities, while also providing modest 
additional funding to the Pacific Region for the added responsibility 
of protecting the marine monuments from IUU fishing by foreign fleets.
                   marine operations and maintenance
    The Office of Marine and Aviation Operations (OMAO) operates NOAA's 
fleet of specialized ships to fulfill the agency's environmental and 
scientific missions. OMAO provides vessels for fisheries research, 
oceanographic and atmospheric research, and hydrographic surveys. Ships 
are also used for monitoring marine sanctuaries and monuments, and 
servicing the early warning tsunami and weather system equipment.
    Not since 2007 has OMAO operated its ships at full capacity, 
largely due to budget constraints. In 2012, NOAA's 17 fully operational 
vessels were at sea for an average of 158 days each, which is about 72 
percent of the fleet's operational capability (max = 220 days per 
vessel). However, NOAA's program offices had to ``buy'' 19 percent of 
the total days-at-sea to fulfill some of their basic mandates. For 
instance, the National Marine Fisheries Service purchased 396 days in 
fiscal year 2012. \4\ Unfortunately, the line offices are experiencing 
budget constraints as well.
---------------------------------------------------------------------------
    \4\ National Oceanic and Atmospheric Administration--FY 2012 Fleet 
Allocation Plan. 2012. http://www.omao.noaa.gov/shipallocation.html 
(Accessed July 9, 2012).
---------------------------------------------------------------------------
    A substantial cut would also hinder NOAA's ability to meet 
important fishery management provisions of the Magnuson-Stevens Fishery 
Conservation and Management Act which support our fishing industry and 
communities and the Marine Mammal Protection Act.
    It makes no sense for NOAA's ships to be partially idle when one of 
NOAA's primary missions is to manage and restore our oceans. Marine 
Conservation Institute supports $175.5 million for OMAO in fiscal year 
2014. This is a step toward more fully funding NOAA's fleet in order to 
fulfill its mandates.
    In summary, Marine Conservation Institute respectfully requests 
that the subcommittee maintain or slightly augment funding for the 
conservation side of the NOAA budgets by the amounts discussed above.
    Respectfully,
    Emily J. Douce
                                 ______
                                 
 Prepared Statement of the National Association of Marine Laboratories
    Madam Chair, Ranking Member Shelby and Members of the Subcommittee, 
my name is Jo Ann Leong and I am the director of the Hawaii Institute 
of Marine Biology at the University of Hawaii. I submit this statement 
as President of the National Association of Marine Laboratories (NAML).
    NAML recommends the following actions to help maintain the health 
of the nation's ocean, coastal, and Great Lakes research and education 
enterprise:
  --Maintain strong support for extramural investigator-initiated 
        research and education programs within NSF, NOAA and NASA by 
        supporting the administration's research budget requests for 
        these agencies;
  --Support the NOAA Science Advisory Board's recommendations for 
        increased use of extramural research programs as part of the 
        effort to strengthen the health of the NOAA R&D portfolio;
  --Reject the administration's proposal to terminate STEM education 
        funding in the mission agencies, including:
    -- NOAA (specifically Sea Grant's STEM education funding including 
            the Sea Grant Knauss and the Sea Grant-NMFS Fellowships and 
            the other education programs administered by the NOAA 
            Office of Education);
    --NASA (and its informal education programs);
    --the Environmental Protection Agency (the EPA graduate fellowship 
            STAR program and the Greater Research Opportunities 
            Undergraduate Student Fellowships); and
    --the National Institutes of Health (Science Education K-12 
            Program).
  --Support efforts to incorporate NAML labs as sites for complementary 
        marine and coastal networks to allow for the sharing and 
        integration of data and observations leading to more cost 
        effective research, increased access to valuable technical 
        assistance, and an improved understanding of the relationships 
        among and between multiple ecosystems; and
  --Support an innovative and cost saving national partnership effort 
        to co-locate Federal scientists and their research 
        infrastructure at NAML sites and facilities.
    NAML is grateful to this subcommittee for the long-standing support 
it is has provided for ocean, coastal, and Great Lakes research and 
education through the National Science Foundation (NSF), the National 
Oceanic and Atmospheric Administration (NOAA), and the National 
Aeronautics and Space Administration (NASA).
the role of marine laboratories in the nation's research and education 
                               enterprise
    NAML is a nonprofit organization of member institutions 
representing coastal, marine, and Great Lakes laboratories in every 
coastal State, from Guam to Bermuda and Alaska to Puerto Rico. NAML 
laboratories conduct research and provide education and public service 
programs to enable local and regional communities to better understand 
and manage their ocean, coastal and Great Lakes cultural and natural 
resources. The member institutions of NAML work together to improve the 
quality, effectiveness and relevance of ocean, coastal and Great Lakes 
research, education and outreach. Locally, NAML labs provide 
accessible, reliable, and relevant information to support wise coastal 
management and the understanding and protection of natural resources, 
nationwide.
 oceans, coasts, and great lakes are vital for economic growth and the 
                        well-being of the nation
    The ocean is a major economic asset. For example, in the U.S. and 
using 2010 statistics, 52 percent of the population lived in coastal 
watershed regions generating nearly 60 percent of the nation's GDP in 
2010. Most imported goods (over $1.2 trillion/yr.) and exports moved 
through coastal waterways and ports. Commercial fishing generated over 
$32 billion in income and more than one million jobs, while 
recreational fishing supported $19 billion in income and millions of 
additional jobs. Over 25 percent of U.S. domestic oil was produced from 
coastal and offshore waters. Oil refineries and wind farms, military 
installations and assets, rail and road networks, all crucial for 
national security, energy, commerce, and transportation, are 
concentrated along coasts. In our globally connected world, land-locked 
nations derive many benefits from the ocean such as general commerce 
and ocean products, and are impacted by the ocean's influence on the 
distribution of rainfall and heat.
    Meeting stewardship responsibilities for the oceans, coasts, and 
the Great Lakes requires a robust ocean and coastal research and 
education enterprise. Coastal areas face challenges that threaten our 
fisheries resources, impact recreational and commercial resources and 
impact ecosystems. We must reinvest in the nation's research enterprise 
that has been responsible for our long-term prosperity and 
technological preeminence through interdisciplinary research spanning a 
landscape of disciplines, from physics to geology, chemistry to 
biology, engineering to social sciences, and modeling to observation.
   recommendations regarding federal marine and coastal research and 
                               education
    NAML believes that research and education programs at the major 
Federal science agencies with marine portfolios--including the National 
Science Foundation (NSF), the National Oceanic and Atmospheric 
Administration (NOAA), and the National Aeronautics and Space 
Administration (NASA)--should be viewed as priority investments in the 
future health and well-being of the Nation. While much attention has 
been justifiably focused on the need for our Nation to continue its 
support of premier basic research programs, it is equally important to 
maintain strong support for mission-oriented ocean, coastal, and Great 
Lakes research, observing, monitoring, and education programs. Programs 
that enhance agency internal research capabilities and support the 
extramural community in competitive, merit-based research provide 
highly cost-effective returns on investment and distribute economic and 
societal benefits over a broad array of communities.
    Existing education and outreach programs focus on connecting 
experts in marine and coastal research with students, educators, and 
citizens who benefit from the knowledge provided and by personal 
contact with those conducting the research. There is a real concern 
that the centralization of some of these education and outreach 
programs proposed by the administration in the fiscal year 2014 budget 
request will both sever those connections and likewise dumb-down 
science while making real scientific understanding inaccessible to 
those who the programs are meant to serve.
    National Science Foundation.--NSF funds vital basic research that 
enhances the public understanding of the Nation's oceans, coasts, and 
Great Lakes. NSF also supports science, engineering and education to 
inform the societal actions needed for environmental and economic 
sustainability and sustainable human well-being. A sustainable world is 
one in which human needs are met equitably and without sacrificing the 
ability of future generations to meet their needs. Meeting this 
challenge requires a substantial increase in our understanding of the 
integrated system of society, the natural world, and the alterations 
humans bring to Earth. NSF's Science, Engineering, and Education for 
Sustainability (SEES) initiative (including efforts such as the Coastal 
SEES initiative, ocean acidification, dimensions of biodiversity, 
sustainable energy pathways, water sustainability and climate, etc.) is 
an example of how this vital need is being met. Research in this area 
as well as in other ocean and coastal areas is supported via a highly 
competitive, merit-based process through a variety of modes of support 
at NAML labs involving individual investigators, small 
interdisciplinary teams of researchers, and students.
    NAML is particularly supportive of the creation of new research 
networks that connect NAML labs and other entities in ways that would 
further enhance other ecosystem networks supported by NSF. NAML 
believes that research infrastructure support is needed to move the 
research enterprise forward and therefore we continue to support the 
longstanding modest program that provides competitive support via the 
Field Stations and Marine Laboratories (FSML) program. On the broader 
issue of national infrastructure support, NAML is concerned, however, 
that in an era of particularly scarce resources, an appropriate balance 
must be achieved that protects as much as possible that part of the 
portfolio that supports the actual conduct of research and training so 
that it does not become overshadowed by larger scale infrastructure 
efforts.
    National Oceanic and Atmospheric Administration.--NOAA is a 
critical Federal leader in ocean, coastal and Great Lakes research and 
education. NOAA's extramural support for research and education at 
marine labs and universities greatly expands its access to world-class 
expertise and unique facilities, complementing and expanding the work 
carried out within NOAA labs. NOAA's extramural partnerships contribute 
invaluable information to our coastal resource managers. These include: 
the National Sea Grant College (NSGC) Program and Coastal Services 
Center; Aquaculture Initiatives; Prescott Marine Mammal Program; Highly 
Migratory Shark Fishery Research Program; NOAA Cooperative and Joint 
Institutes; the Integrated Ocean Observing Systems; NOAA's Center for 
Sponsored Coastal Ocean Research harmful algal bloom, hypoxia, and 
ecological forecasting initiatives; the National Estuarine Research 
Reserve System; the National Marine Sanctuary Program; and NOAA's 
Office of Education.
    NAML urges the Subcommittee to reiterate its support for these 
important extramural programs as well reject, again, the 
administration's plan to terminate the National Undersea Research 
Program, the Prescott Marine Mammal Program, and the STEM education 
programs in the Office of Education and the Sea Grant program (i.e. the 
Knauss Fellowships and the Sea Grant-NMFS Fellowships) which are all 
tightly integrated with the mission of the agency and the research 
activities that NOAA supports.
    NAML strongly supports recent recommendations made to the NOAA 
Science Advisory Board that calls for priority support for NOAA 
extramural programs. Increased extramural research enables NOAA to 
leverage its R&D investment with the resources of the nation's leading 
university scientists resulting in greater and faster scientific 
advances at lower costs. A predictable and reliable partnership with 
the extramural research community is critical to NOAA's long-term 
success. As available resources become scarcer and major program 
reorganization is being considered, NOAA should enhance its partnership 
with the extramural research community in creative and innovative ways. 
NOAA should expand its efforts to co-locate agency research staff and 
infrastructure at non-Federal marine labs. Such actions will not only 
result in significant cost savings, achieve a greater return for its 
investment, and increase scientific collaborations and productivity. A 
robust NOAA budget directly coupled with solid support for extramural 
partnerships is essential for NOAA to serve national needs.
    National Aeronautics and Space Administration.--Part of NASA's 
mission is to develop an understanding of the total Earth system and 
the effects of natural and human-induced changes on the global 
environment. Oceans play a major role in influencing these changes. 
Long-term ocean data from satellites make it possible to employ 
modeling techniques for global mapping of seasonal changes in ocean 
surface topography, currents, waves, winds, phytoplankton content, sea-
ice extent, rainfall, sunlight reaching the sea, and sea surface 
temperature. Studying these patterns at a global scale can help 
forecast and mitigate the effects of floods and drought. Ocean 
observing satellite images tell us about the most fundamental climate 
changes. Satellite data have improved forecasting model capabilities to 
predict events such as El Nino and other global and regional climate 
cycles. Expanding NASA extramural support will further develop the 
ability to better predict ocean phenomena.
    Education, Diversity and an Ocean Literate America.--The U.S. 
continues to be at risk with respect to student achievement in science, 
technology, engineering and math among industrialized nations, as well 
as, emerging industrializing nations. Therefore, it is critically 
important that we improve ocean literacy and workforce development 
among all sectors of our diverse nation. NAML labs seek to expand the 
engagement of individuals from groups that have been historically 
under-represented in ocean research, education and outreach through 
their own and university programs at marine laboratories. This is 
particularly important in fulfilling the goal of achieving a 
diversified STEM pipeline for future science and ocean workforce needs. 
Marine laboratories play an important role in formal and informal 
education and workforce development by providing students with a place 
to learn. Marine labs serve as primary training grounds for 
experiential ocean education and are committed to enhancing diversity 
within the field of ocean, coastal and Great Lakes research and 
education.
    NAML laboratories continue to strongly support partnerships with 
Federal agencies to address the ocean education needs of the Nation as 
an integral part of the research enterprise. These include the NSF's 
Louis Stokes Alliance for Minority Participation, Centers for Ocean 
Science Education Excellence, Research Experiences for Undergraduates, 
and Research on Learning in Formal and Informal Settings programs; 
NOAA's Expanding Partnerships Program in the NOAA Education Office and 
the National Sea Grant College Program--including the Knauss and Sea 
Grant-NMFS Fellowships. The importance of marine labs in support of 
coastal States' Environmental Literacy Plans is essential in developing 
a literate public.
    It is important that Federal research agencies continue to 
integrate their research and education programs and maintain their 
support and involvement in formal and informal learning at all age 
levels, by all disciplines, and for all Americans. Therefore we call on 
the Subcommittee to reject the administration's proposal to terminate 
the mission agencies' support for education as part of the 
administration's STEM consolidation proposal.
    Thank you for the opportunity to express our concerns. We would be 
happy to provide additional information if it would be helpful to the 
Subcommittee.
                                 ______
                                 
   Prepared Statement of SEARCH, the National Consortium for Justice 
                       Information and Statistics
    Introduction.--Subcommittee members, thank you for the opportunity 
to submit written testimony regarding the Department of Justice (DOJ) 
funding to be provided for in the fiscal year 2014 Commerce, Justice, 
Science, and Related Agencies appropriations bill. SEARCH recommends 
the National Criminal History Improvement Program (NCHIP) receive an 
appropriation of $50 million and that the National Instant Criminal 
Background Check System (NICS) Act Record Improvement Program (NARIP) 
receive an appropriation of $25 million.
    SEARCH, The National Consortium for Justice Information and 
Statistics (SEARCH), is a nonprofit membership organization created by 
and for the States. SEARCH's Governor-appointed, dues-paying members 
from each of the 50 States and territories have the responsibility, 
among other things, to oversee both NCHIP and NARIP within their 
States.
    Over the years, States have made great strides in meeting their 
criminal history record improvement goals under both programs, despite 
severely limited funding levels for each program. SEARCH recognizes 
that these are difficult budgetary times that have strained investments 
in criminal history improvement over the past several years.
    There is still work to be done to realize a truly complete and 
accurate national criminal history background check system. That system 
informs a variety of critical public safety decisions, as well as non-
criminal justice decisions, such as those regarding applicants for 
employment and licensing, to volunteers who work with children and 
other vulnerable populations, to individuals purchasing firearms. In 
light of recent, tragic events due to gun violence, and the 
simultaneous demand for accurate, complete and timely criminal records 
for a range of decisions, there should be a priority placed on NCHIP 
and NARIP funding.
 nchip and narip: critical investments for public safety decisionmaking
    It is important to note that both NCHIP and NARIP each focus on 
improvements to the efficiency, effectiveness, timeliness and accuracy 
of criminal history record and associated data for decisionmaking 
purposes. However, each program emphasizes specific and distinct goals, 
while also complementing one another. NARIP funding has been heavily 
focused on enhancing decisionmaking for firearms purchases, such as 
increasing the number of disqualifying mental health records available 
to the system. NCHIP is focused on a broader range of criminal history 
improvements that individual States have prioritized (improving arrest 
and disposition matching, increasing conviction record availability in 
the Federal systems, etc.). These improvements benefit the system as a 
whole, and impact all criminal and non-criminal justice decisions, as 
well as firearms purchase decisions. Perhaps most significantly, by 
current law, only 20 States qualify for NARIP funding to improve their 
contributions to NICS. \1\ States that cannot qualify for NICS funding 
will be significantly hampered in their efforts to help improve the 
nation's criminal history record system if they cannot access 
sufficient resources via NCHIP. Thus, the majority of the States rely 
on NCHIP for criminal history record and repository improvements 
related to all criminal and non-criminal justice decisionmaking.
---------------------------------------------------------------------------
    \1\ NARIP has two main requirements: States must (1) establish a 
process where those adjudicated as ``mentally defective'' can seek to 
reinstate their right to purchase a firearm, and (2) comply with a 
process to estimate the number of NICS disqualifying records they 
maintain. Only 20 States have met requirement #1.
---------------------------------------------------------------------------
    As such, SEARCH recommends that Congress invest in background 
screening for firearms purchases by supporting President Obama's budget 
proposal of $50 million for NCHIP. Meanwhile, SEARCH also advocates 
continuing funding for NARIP, but at an increased level of $25 million, 
which will allow States that have met the grant program qualifications 
to use that funding for targeted efforts to improve records for 
firearms purchase decisions.
           investment in both programs is critical to success
    Since the recent tragedies in Aurora, Colorado, and Newtown, 
Connecticut--compounded by the nearly daily reports of gun-related 
violence--significant focus has been placed on the nation's background 
screening system for firearms purchases: NICS. Some of that focus has 
been mistakenly critical of the States and their contributions to the 
databases used for such screening. Indeed, the vast majority of records 
used to make firearms transfer determinations are records maintained 
and made available by the States. Thus, the overwhelming majority of 
firearms transfer denials are based on State records. States have made 
their records available despite facing many extraordinary, and well-
documented, obstacles to effectively sharing information at the 
national level and in support of this national system.
    Those obstacles include lack of sufficient investment \2\ to help 
build the infrastructure for electronic information sharing, continuing 
challenges with making disqualifying records (such as felony 
convictions) available to NICS, and significant policy challenges 
(particularly with sharing mental health records). NICS has been very 
successful in denying the sale and transfer of guns to those prohibited 
from having them. The States and FBI rely on NICS for robust 
decisionmaking on daily firearms transactions. There are, however, 
opportunities for improving the timeliness and availability of 
information to NICS that could be addressed by targeted funding. For 
example, there are still millions of records related to felony 
convictions, under indictment/information, fugitive from justice and 
drug abuser prohibiting categories that are not always available to 
NICS. With a more substantial investment in NCHIP, States will be able 
to address priority issues that are standing in the way of full records 
sharing.
---------------------------------------------------------------------------
    \2\ Both NCHIP and NARIP funding have suffered over the past 
several years and each have only been funded at a very small percentage 
of their authorized levels.
---------------------------------------------------------------------------
    It is important to note that the need for additional funding is not 
dependent on the expansion of the background checking system; it is to 
improve the system's effectiveness for existing requirements related to 
background screening for firearms purchases.
    SEARCH urges the Committee to make a meaningful investment in 
building our nation's capabilities to effectively conduct background 
screening for firearms purchases. For that investment to be successful, 
it should also remove the roadblocks to successful State participation 
and develop strategies to improve the availability of disqualifying 
records to the NICS Index. With a $50 million investment in NCHIP in 
fiscal year 2014, States that qualify for the funding will be able to 
concentrate on criminal history record priorities that would allow them 
to increase their record contributions to NICS.
    It is also critical that decisionmakers ensure all States receive 
or are eligible for grant funding to support improvements to NICS--
based on incentives, not penalties--and that new funding is authorized 
and appropriated for this work. It is likely that many States will not 
meet the ``relief from disabilities'' requirement attached to NARIP 
funding. While SEARCH does not have a policy position on this 
requirement, to disqualify States from funding to improve their 
criminal history record system only weakens the potential for a 
national system that provides the most complete, accurate, and timely 
records to inform critical decisionmaking. The fact that more than half 
of the States do not qualify for NARIP makes NCHIP that much more 
important.
                       examples of state success
    NCHIP's broad objective is to enhance the criminal justice 
capabilities of State governments by improving the accuracy, 
completeness and timeliness of criminal history records. These State 
systems support Federal records systems, including the Federal Bureau 
of Investigation (FBI) Interstate Identification Index (III). \3\ 
Indeed, 70 percent of all III records are maintained by the States and 
30 percent are maintained by the FBI. \4\ The operational enhancements 
fostered by NCHIP funding continue to motivate improved public safety 
on both a State and national level.
---------------------------------------------------------------------------
    \3\ The Interstate Identification Index is the national system 
designed to provide automated criminal history record information of 
Federal offenders and records of offenders submitted by all States and 
territories.
    \4\ Survey of State Criminal History Information Systems 2010, 
Bureau of Justice Statistics, U.S. Department of Justice, Office of 
Justice Programs (November 2011) (https://www.ncjrs.gov/pdffiles1/bjs/
grants/237253.pdf).
---------------------------------------------------------------------------
    The Vermont Department of Public Safety has a long history of 
participation in the NCHIP grant program and the funds have been 
critical in driving advances in the access and completeness of criminal 
history information. The initial conversion of State criminal history 
records from paper to electronic format would not have been possible 
without NCHIP, nor would the conversion to a standard database format 
in the following years. Other technical achievements include 
implementing the Global Justice XML Data Model, National Standardized 
Rap Sheet, Interstate Identification Index and the National Fingerprint 
File program. Outcomes fostered by NCHIP have not been limited to 
technical upgrades. For example, Vermont's criminal history database 
was updated with multiple years of missing court disposition 
information with NCHIP funding.
    Alaska has been a recipient of NCHIP for several years. Funding has 
allowed the State to automate various system interfaces, implement 
charge tracking systems, develop uniform offense citations, and locate 
and add nearly 4,000 missing dispositions critical to NICS. With NCHIP 
funds, the State has also conducted recidivism studies and implemented 
Live Scan stations, which raised compliance rates from 56 percent to 
over 90 percent mandatory fingerprinting at the Anchorage courthouse 
during the 2-year pilot project. Funds also helped the State institute 
electronic sharing of automated court criminal records.
    The Kentucky State Police (KSP) recently used NCHIP funding for a 
number of enhancements, including collection and electronic storage of 
disposition documents, a quality control application and security 
enhancements for court dispositions, transmission of State prison 
commitment information, and to process the disposition backlog. All of 
these initiatives improve the accuracy, consistency and volume of 
records available in Kentucky's computerized criminal history system, 
which ultimately allows for increased participation in III, NICS and 
Identification For Firearms Sales.
                  an investment in improvement is key
    NCHIP has suffered over the past several years due to considerably 
reduced funding. In fiscal year 2010 congressional appropriations were 
approximately $12 million for this program, dropping to $10 million in 
fiscal year 2011, and to $6 million in 2012. In fact, the program has 
been so significantly under-funded that some States no longer receive 
any allocation from the NCHIP grants. Because State criminal history 
records are the primary source for the FBI III database, any 
constraints on the States weakens the ability of many Federal programs 
to identify threats and keep our nation safe. Meanwhile, despite the 
NARIP authorization of $1.25 billion for fiscal year 2009-2013, 
congressional appropriations have been a small fraction of that ($20 
million, $17 million, and $5 million in fiscal year 2010-2012, 
respectively). Meanwhile, the U.S. Department of Justice's Bureau of 
Justice Statistics (BJS)--which administers the grant program--received 
grant applications requesting funding far above the amounts 
appropriated.
    Today, the accuracy, completeness and reliability of the nation's 
criminal history record system is more important than ever before, for 
law enforcement investigations; officer safety; sentencing and other 
criminal justice purposes; for expungement and other reentry 
strategies; for homeland security and anti-terrorism purposes; for 
public non-criminal justice purposes, such as security clearances and 
employment suitability; and for research and statistical programs that 
provide critical guidance for justice assistance decisions and for 
shaping law and policy. Without an adequate level of funding for the 
States, the quality of criminal records available nationwide will 
continue to be negatively impacted.
                               conclusion
    SEARCH thanks the Chair and members of the Subcommittee for their 
steadfast support of these programs in the face of daunting budget 
challenges. Given the reliance on criminal history record systems for 
critical decisions that keep our citizens safe from guns, predators, 
terrorists and other criminals, it is a worthwhile and needed 
investment.
    We urge Congress to make a substantial investment in the Federal-
State criminal background screening partnership that comprises the 
national instant criminal background check system. It is a critical 
tool in the fight against gun violence, but funding for its improvement 
must envision a national scope that is inclusive of all the States. As 
the States' examples noted, their successes with information sharing 
would not have been possible without the support of NCHIP and NARIP 
funding. Meaningful NCHIP and NARIP funding will more broadly improve 
this nation's criminal justice information sharing backbone. And the 
Federal investment can be leveraged many times over by contributing to 
the ability of State and local criminal justice agencies to provide 
timely, accurate and compatible information to Federal programs such as 
III.
    On behalf of SEARCH, its governors' appointees, and the thousands 
of criminal justice officials who participate in the SEARCH network and 
who benefit from SEARCH's efforts, thank you for your support.
                                 ______
                                 
       Prepared Statement of the New England Ocean Action Network
    Dear Chair Mikulski and Ranking Member Shelby: The undersigned 
members of the New England Ocean Action Network (NEOAN) believe that 
creating a comprehensive plan for New England's ocean and coasts has 
the potential to minimize user conflicts in an increasingly crowded 
ocean, protect the economic value of New England's fisheries and 
restore the health of our marine ecosystems. Therefore, we are 
submitting the attached programmatic funding request for $10 million 
for Regional Ocean Partnership Grants within NOAA's budget for the 
Commerce, Justice, Science and Related Agencies Appropriations 
Subcommittee. Regional Ocean Partnership Grants funding is an essential 
part of NOAA's budget, and one upon which regional ocean management 
initiatives in New England rely. We believe that Regional Ocean 
Partnership Grant funding is important for New England, and we ask you 
to include this program as an appropriations priority in the Commerce, 
Justice, and Science Appropriations Subcommittee on the fiscal year 
2014 budget.
    The Regional Ocean Partnerships Grants program supports the 
Northeast Regional Ocean Council (NROC), a State-Federal partnership 
that is the hub for development of the Nation's first regional ocean 
plan. NROC was formed in 2005 and now has the support of the governors 
of New Hampshire, Vermont, Massachusetts, Maine, Rhode Island and 
Connecticut. Today, all six States' governors continue to participate 
in this important partnership. NROC works directly with the 11 Federal 
agencies to better manage the impacts of increasing human uses, to 
better plan for disasters and prevent recurring future damages, and to 
use the best scientific information so Massachusetts can achieve its 
economic goals and maintain a healthy ocean.
    The northeast region was awarded $1.545 million in fiscal year 2011 
and $625,000 in fiscal year 2012 in Regional Ocean Partnership funding. 
This critical funding has been used to engage important stakeholders in 
the region, develop data and science products, and begin creation of a 
regional ocean plan. Continued funding is needed to create regional 
products like the Northeast Ocean Data Portal (an interactive data 
tool) and the Northeast Recreational Boater Survey, which provide the 
tools needed to integrate environmental needs with existing and 
emerging human uses and ensure full public participation to reduce user 
conflicts.
    Traditional ocean industries such as fishing, shipping, tourism and 
recreation are all critical parts of New England's economy. The same 
ocean now has potential to launch new jobs in growing industries such 
as aquaculture and renewable energy. However, these new ocean 
industries should not be developed at the expense of the businesses and 
communities that rely on access to a healthy ecosystem for their 
livelihoods. Comprehensive ocean planning, which gives existing ocean 
industries and stakeholders a real voice in the development of a plan, 
could help us find the right locations and develop the kind of 
appropriate mitigation measures that will allow new and existing 
industries to thrive side by side.
    Thank you for your kind consideration of this request.

Sean Cosgrove, Director of Campaigns, Conservation Law Foundation, 
Boston, Massachusetts
Jack Clarke, Director of Public Policy & Government Relations, Mass 
Audubon, Boston, Massachusetts
Richard Nelson, Lobsterman and Captain, F/V Pescadero, Friendship, 
Maine
Nick Battista, Marine Programs Director, Island Institute, Rockland, 
Maine
Susan Little Olcott, Outreach Manager, CMSP, Ocean Conservancy, 
Brunswick, Maine
Melissa Gates, Northeast Regional Coordinator, Surfrider Foundation, 
Rockland, Maine
Meghan Jeans, Director, Fisheries and Aquaculture Programs, New England 
Aquarium, Boston, Massachusetts
Noona Joseph, Chair, Surfrider Foundation, Massachusetts Chapter, 
Somerville, Massachusetts
Berl Hartman, Director, Environmental Entrepreneurs, New England 
Chapter, Cambridge, Massachusetts
Megan Amsler, Executive Director, Cape & Islands Self Reliance, 
Cataumet, Massachusetts
Marcia Wilkins, Chapter Conservation Chair, Sierra Club, Connecticut 
Chapter, Connecticut
Jamie Rhodes, Director, Clean Water Action Rhode Island, Providence, 
Rhode Island
Richard Delaney, President and CEO, Provincetown Center for Coastal 
Studies, Provincetown, Massachusetts
Dan Pingaro, Chief Executive Officer, Sailors for the Sea, Newport, 
Rhode Island
Rob Moir, President and Executive Director, Ocean River Institute, 
Cambridge, Massachusetts
Jonathan Stone, Executive Director, Save the Bay, Providence, Rhode 
Island
                                 ______
                                 
Prepared Statement of the National Ecological Observatory Network, Inc.
    My name is Dr. Russell Lea and I am the Chief Executive Officer of 
NEON, Inc. I appreciate the opportunity to submit this statement to the 
Subcommittee to ask for your support for the President's Budget Request 
for the National Science Foundation for fiscal year 2014 and the 
National Ecological Observatory Network (NEON) that is included in the 
request for the Major Research Equipment and Facilities Construction 
Account. The administration's request for NEON in fiscal year 2014 is 
$98.2 million.
    On behalf of the scientific community who will be using NEON, I 
would like to express our appreciation for the strong support that 
Congress has consistently provided NSF, and in particular the NEON 
project and core funding for NSF's Biological Sciences Directorate. 
Sustained investments in science and technology are critical for a 
knowledge-intensive economy and for maintaining U.S. scientific 
leadership. To this end, the MREFC account was designed to fund unique, 
transformational research infrastructure at the frontiers of science 
and engineering.
    NEON is a world-class distributed environmental Observatory that is 
a prime example of such infrastructure. NEON sites are located 
throughout the United States. Sites in the vicinity of Washington, DC, 
include the Blandy Experimental Farm located in Virginia's 
Congressional District 10, the nearby Smithsonian Conservation Biology 
Institute, and the Smithsonian Environmental Research Center in 
Maryland.
    Planning and Building the Observatory.--NEON has undergone a series 
of rigorous reviews mandated by NSF's Major Facilities Office. NSF has 
clearly promulgated its ``no-cost overruns'' policy with regards to the 
construction of facilities like NEON. This is instituted through a 
rigorous planning process that details, for each year of the 
anticipated project duration, the project's budget and schedule. These 
schedules and budgets with estimated out-year costs are thoroughly 
reviewed through a series of NSF managed panels. Authorization to 
commence construction by the National Science Board, the NSF Director, 
OMB, and Congress is contingent on the successful outcome of these 
reviews.
    Impacts of Profile Perturbations.--NEON is currently approaching 
the middle of its approved construction profile that commenced in 
fiscal year 2011. Perturbations to that profile will impact contracts 
and agreements to industry for work in progress. This will impact a 
variety of activities, ranging from the hiring of local skilled labor 
for the installation of civil infrastructure like electrical power and 
concrete foundations for NEON's bio-meteorological towers, to the 
procurement of automated sensors from high-tech industries. Delays in 
these activities, coupled with the cost of maintaining skilled 
Observatory staff, will ultimately increase the cost of this project. 
The construction process is subject to NSF's ``no cost-overruns'' 
policy. If funding falls below what is needed to build this 
observatory, it will result in a facility that will fall short of its 
scientific promise.
    Guided by environmental grand challenges proposed by the National 
Research Council (NRC), NEON scientists and engineers partnered with 
the scientific community to define the capabilities required of the 
Observatory to enable transformational science. These capabilities were 
reviewed and approved by NSF panels, and consequently a construction 
profile crafted to deliver those capabilities. NEON must be built to 
those specifications if the scientific community is to successfully 
address the NRC grand challenges. Only then can we begin to understand 
the impacts of large-scale environmental changes on our ability to 
sustainably meet society's food, fiber, energy, and water needs. Only 
then will the United States have the unique distinction of possessing 
the only large-scale scientific infrastructure capable of listening to 
the pulse of an entire continent's ecosystem.
    Conclusion.--NEON is not only an essential investment for continued 
U.S. scientific leadership, but it also helps fuel the Nation's long-
term competitiveness and innovation agenda. I recognize the severe 
budget constraints facing Congress. Funding such projects as closely as 
technically feasible to the levels proposed in their funding profiles 
will ensure the efficient use of taxpayer dollars, while delivering 
essential capabilities to the scientific community to enable 
transformational science.
    Thank you for the opportunity to appear before you today. I would 
be happy to answer any questions you might have.
                                 ______
                                 
     Prepared Statement of the National Estuarine Research Reserve 
                              Association
    The National Estuarine Research Reserve Association (NERRA) is a 
not-for-profit scientific and educational organization dedicated to the 
protection, understanding, and science-based management of our nation's 
estuaries and coasts. Our members are the 28 reserves that make up the 
National Estuarine Research Reserve System (NERRS). Established in 
1987, NERRA facilitates its members' mission to protect our nation's 
estuaries and to promote conservation-based research, education, and 
stewardship through the reserves. For fiscal year 2014, NERRA strongly 
recommends the following reserve system programs and funding levels 
within the National Oceanic and Atmospheric Administration (NOAA):
  --NERRS Operations--$22.3 million.
  --NERRS Procurement, Acquisition, and Construction (PAC)--$1.69 
        million.
    Additionally, NERRA also requests appropriation language directing 
NOAA to ensure that every reserve will get no less than the fiscal year 
2012 allocation. This will enable all reserves to meet obligations for 
core operations associated with research, education, stewardship, and 
coastal training responsibilities.
    NERRS are 28 protected estuaries--home to our most productive 
habitats and populated communities--that support effective coastal 
resource management, research, and education to meet the national 
interest as mandated by Congress in the Coastal Zone Management Act 
(CZMA) of 1972. The States have been entrusted to operate and manage 
NOAA's program in 22 States and Puerto Rico where over 1.3 million 
acres of land and water are protected in perpetuity. What sets this 
program apart from other place-based Federal programs, like the 
National Marine Sanctuaries or National Wildlife Refuges for example, 
is that the reserves manage a Federal partnership program, implemented 
locally by States or universities.
    NERRS assists our coastal communities, industries and resource 
managers to enhance coastal resiliency in a changing environment. 
Through science-based management of these protected areas, NERRS 
provides numerous benefits to communities such as improved water 
quality, increased flood control, and buffers from storms. NERRS is a 
leader in coastal monitoring that provides immediate and long-term data 
to understand harmful algal blooms, assess water quality, identify 
habitat impacts from changing sea levels, aid in weather forecasting, 
and improve response to storm surges and inundation.
    The reserves have a tremendous positive impact on our economy 
including work to maintain clean water, keep the seafood and fishing 
industry viable, and provide communities with practical help and 
science-based information to address coastal hazards and maintain 
tourism. Estuaries, where rivers meet the sea, provide nursery ground 
for \2/3\ of commercial fish and shellfish: in NERRS States, the 
shellfish (wholesale market value) and seafood industry (total sales 
generated by the seafood industry) contributed over $2.7 billion to the 
economy in 2010 (Source: National Ocean Economic Program and NOAA 
Fisheries, Office of Science and Technology). Protection of these 
important estuaries within the NERRS can have a significant impact on 
specific species. For example, the Apalachicola Reserve in Florida is 
one of three reserves in the State: approximately 90 percent of 
Florida's oyster harvest and 10 percent of U.S. total harvest comes 
from Apalachicola Bay (Source: Wilber, 92).
    The work at each reserve goes beyond its property boundaries and 
creates a number of environmental and economic benefits for the 
communities and regions where they exist. For example, in 2010, NERRS 
coastal counties provided 4.4 percent of total wages earned in the U.S. 
and 4.2 percent of the nation's jobs: contributing over $26 billion in 
economic output (measured in gross State product) and supporting more 
than 468,000 jobs in ocean-dependent industries (Source: Bureau of 
Labor Statistics; NOAA).
          about the national estuarine research reserve system
    Since 1974, beginning with the designation of the South Slough 
National Estuarine Research Reserve in Oregon, the coastal States and 
the Federal Government have collaborated to create a unique network of 
estuarine areas protected for long-term research and education. The 
NERRS added its 28th reserve on Lake Superior, Wisconsin in October 
2010. Currently, NOAA is working with Hawaii to designate its 29th 
reserve.
    Pursuant to the CZMA, each reserve is chosen because it is a 
representative estuarine ecosystem able to contribute to the 
biogeographical and typological balance of the NERRS and because the 
area within the reserve is protected in perpetuity and is available for 
suitable public purposes such as education and interpretive use. The 
reserves are a network of protected areas established for long-term 
research, education, training, and stewardship.
    The NERRS's priorities are developed through a collaborative 
approach between the States and NOAA to address both national and local 
concerns. The reserves have a mandate pursuant to Section 315 of the 
CZMA to support the coastal States through research and education as 
the States address today's most pressing coastal issues such as impacts 
from changes in sea and lake levels and increased nutrient loading. The 
reserves conduct research, monitoring, restoration, education, and 
training designed to improve our understanding and management of coasts 
and estuaries. The reserves are public places that have significant 
local, regional, and national benefits because the lands are publicly 
owned and function as living laboratories and classrooms that are used 
by scientists, decision makers, educators, and people of all ages. They 
are located in pristine coastal areas that serve as ``sentinel sites,'' 
places where early indicators of environmental change are 
scientifically measured to provide up-to-date information to local 
officials and the public to support environmental decisionmaking, and 
inform assessment of trends at the regional and national levels.
         national estuarine research reserve system operations
    NERRA requests that program operations be funded at a level of 
$22.3 million, an amount level with the Congressional Appropriations 
Act fiscal year 2012 level. This funding will be shared by the 28 
programs to enable the NERRS to manage and maintain healthy estuaries. 
Healthy estuaries support fishing, seafood, ecotourism, recreation, 
clean water, and communities. Beyond the economic impact to our 
national, State, and local economies, reserves have national 
infrastructure that support bringing science to the management of our 
coasts and helping our communities prepare for weather-related 
disasters. In the aftermath of Superstorm Sandy, the Jacques Cousteau 
Reserve in New Jersey is cited by CNN as being ``a natural sponge . . . 
for absorbing storm and tidal surges.'' (November 3, 2012). NERRS 
supports local government and community planning initiatives by 
providing training to local officials and residents about critical 
resource management issues such as impending hazards, storm water 
control, shoreline management, and habitat restoration. These local 
planning initiatives are designed to help people on the ground and to 
get resources in the hands of the community--all of which amount to a 
greater than $13.4 million offset annually. This was also recently 
evidenced in the Deepwater Horizon Oil Spill of 2010, a coastal area 
that is home to five reserves. We know that the billion dollar tourism 
and seafood industries depend on clean water, and during the Deepwater 
Horizon Oil Spill crisis the communities and industries along the Gulf 
Coast relied on disaster support efforts including data supplied by 
some of the five Gulf Coast National Estuarine Research Reserves, some 
of which continue today.
    Each reserve receives operation funds from NOAA that are matched by 
the States and are used to leverage significantly more private and 
local investments that results in each reserve having on average more 
than five program partners assisting to implement this national 
program. In addition, the program significantly benefits from 
volunteers that are engaged in habitat restoration, education and 
science which offset operation costs at reserves by donating thousands 
of hours. Between fiscal year 2006 and fiscal year 2010, volunteers 
have contributed more than 460,400 hours to the NERRS. In fiscal year 
2010 volunteers contributed more than 100,000 hours to the NERRS 
(Source: NOAA).
    NERRS have made countless economic contributions to their local 
communities, States, and the nation. In the category of eco-tourism, 
more than 2 million people annually visit the NERRS: an estimated more 
than $20 million is generated annually in direct benefit from these 
visitor use opportunities (estimated using Federal, State, and local 
park entry fees). Visitors to our reserves walk the trails, paddle the 
waterways, bird watch, snowshoe, and participate in activities and 
events at each of our 28 reserves.
    In 2011, NERRS contributed more than $10 million to science and 
research. One example of this is NERRS water and weather monitoring 
programs are used at the local, State, and national levels to support 
assessment of water quality and guide and track remediation strategies, 
aid in weather and marine forecasts, support emergency response, and 
aid the water dependent and insurance industries. NERRS land 
conservation ensures that 1.3 million acres of coastal property worth 
more than $6.5 billion are protected. (Estimated based on the average 
cost of Federal investment per acre of land added to reserves over the 
last 10 years.)
    In addition, NERRS strategically contributes more than $4.9 million 
annually in education relief offsets to communities that face tight 
budgets in meeting the needs of local school districts, educating over 
83,000 children annually through school based programs grades K-12. 
This is a major benefit in some communities where local school 
districts have been forced to cut programs in these economic times. 
Through its Estuaries 101 curriculum, reserves prepare the next 
generation workforce in the key disciplines of science, technology, 
engineering and math (STEM education).
         nerrs procurement, acquisition, and construction (pac)
    NERRA requests $1.69 million for land conservation and facilities 
to maintain, upgrade, and construct reserve facilities and acquire 
priority lands. This competitive funding program is matched by State 
funds and has resulted in not only the preservation of critical coastal 
lands as described above, but also in the increase of construction 
jobs. For example NERRS creates more than 60 jobs for each $1 million 
of Federal construction (PAC) money spent. In addition, NERRS leveraged 
investments of more than $114 million to purchase 30,000+ acres of 
coastal property over the last 10 years. A recent assessment of 
construction and acquisition priorities at the reserves shows that the 
NERRS have needs for more than $60 million for fiscal years 2011 
through 2015.
          support requested for coast and ocean and management
    NERRS are connected to the coast and ocean management work done by 
its State and Federal partners. Specifically, in the States, reserves 
primary partners are the State coastal management programs in the 
majority of the States. NERRA requests Subcommittee support for Coastal 
Zone Management (CZM) grants at $67 million. In addition, many reserves 
rely on congressionally appropriated Bay Watershed Estuary Training (B-
Wet) funds to augment educational funds. Therefore, NERRA request your 
support for this program in the appropriation for B-Wet grants. 
Finally, the reserves depend on NOAA's technical assistance and 
partnership capacity. NERRA requests support of $29.2 million for the 
Coastal Services Center and $8 million for CZM Stewardship.
                               conclusion
    NERRA greatly appreciates the support the Subcommittee has provided 
in the past. This support has been critical to sustain and increase the 
economic viability of the coast and estuary-based industries. We urge 
you to give every consideration to these requests as you move forward 
in the fiscal year 2014 appropriations process. If we can provide any 
additional information, please contact Executive Director Rebecca K. 
Roth or NERRA President David Ruple, manager of the Grand Bay National 
Estuarine Research Reserve.
                                 ______
                                 
    Prepared Statement of the Northwest Indian Fisheries Commission
    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to provide written testimony on the fiscal year 2014 
Commerce, Justice, Science and Related Agencies appropriations. My name 
is Billy Frank, Jr. and I am the Chairman of the Northwest Indian 
Fisheries Commission (NWIFC). The NWIFC is comprised of the 20 tribes 
that are party to the United States v. Washington \1\ (U.S. v. 
Washington). I submit the following requests for the National Oceanic 
and Atmospheric Administration/National Marine Fisheries Service and 
National Ocean Service and identify four specific funding requests.
---------------------------------------------------------------------------
    \1\ United States v. Washington, Boldt Decision (1974) reaffirmed 
Western Washington Tribes' treaty fishing rights.
---------------------------------------------------------------------------
           summary of fiscal year 2014 appropriations request
    National Oceanic and Atmospheric Administration:
  --Provide $110.0 million for the Pacific Coastal Salmon Recovery 
        Fund.
  --Provide $7.859 million for the Pacific Salmon Treaty and the 
        additional $3.0 million for the 2008 Chinook Salmon Agreement.
  --Provide $15.9 million for the Mitchell Act Hatchery Program.
  --Provide $20.0 million for the Regional Ocean Partnership Grants 
        Program.
         treaty rights at risk and the federal trust obligation
    Last year we brought to your attention an initiative that we have 
been pursuing--our Treaty Rights at Risk (TRAR) initiative. The treaty 
rights of the western Washington treaty tribes are in imminent danger. 
Salmon are critical to the tribal cultures, traditions and their 
economies. The treaty-reserved right to harvest salmon continues to 
decline due to ongoing loss of habitat. All of this is due to the 
inability to restore salmon habitat faster than it is being destroyed. 
Wild salmon and their habitat continue to decline despite massive 
reductions in harvest and a significant investment in habitat 
restoration.
    The Federal Government has a fiduciary responsibility and an 
obligation to protect these treaty-reserved natural resources. This 
obligation is met through policy and funding support that is provided 
to tribes to allow them to perform the necessary management 
responsibilities to protect these resources. Without this continued 
support the treaties will have no meaning as these natural resources 
disappear. The tribes' treaties are constitutionally-protected and have 
been confirmed by the Federal courts, including the U.S. Supreme Court. 
As a signer to these treaties, the Federal Government has an ongoing, 
non-discretionary obligation to provide adequate funding to the tribes 
to allow them to protect and preserve these treaty rights.
    On behalf of our 20 member tribes, I am providing our fiscal year 
2014 natural resources management funding requests for the National 
Oceanic and Atmospheric Administration (NOAA). Of particular interest 
to us is the Pacific Coastal Salmon Recovery Fund. This is a critical 
funding source to restoring salmon habitat and assists tribes in the 
implementation of salmon recovery plans. It also moves us in the 
direction of achieving the recovery goals, which is a direct request in 
our TRAR initiative. We are pleased that the fiscal year 2014 
President's budget continues to be supportive of the northwest natural 
resources funding requests. In addition to our specific requests 
described below, we also support the budget priorities and funding 
requests of the National Congress of American Indians.
                       justification of requests
    Provide $110.0 million for the Pacific Coastal Salmon Recovery 
Fund.--The Pacific Coastal Salmon Recovery Fund (PCSRF) is a multi-
State, multi-tribe program established by Congress in fiscal year 2000 
with a primary goal to help recover wild salmon throughout the Pacific 
Northwest and Alaska. The PCSRF supports projects that restore, 
conserve and protect Pacific salmon and steelhead and their habitats. 
PCSRF is making a significant contribution to the recovery of wild 
salmon throughout the region by financially supporting and leveraging 
local and regional efforts.
    The tribes' overall goal in the PCSRF program is to restore wild 
salmon populations. The key tribal objective is to protect and restore 
important habitat that promotes the recovery of ESA listed species and 
other salmon populations in Puget Sound and along the Washington coast 
that are essential for western Washington tribes to exercise their 
treaty-reserved fishing rights consistent with U.S. v. Washington and 
Hoh v. Baldrige. \2\ These funds support policy and technical 
capacities within tribes to plan, implement, and monitor recovery 
activities.
---------------------------------------------------------------------------
    \2\ Hoh v. Baldrige--A Federal court ruling that required fisheries 
management on a river-by-river basis.
---------------------------------------------------------------------------
    It is for these reasons that the tribes strongly support the PCSRF. 
The tribes have used these funds to support the scientific salmon 
recovery approach that makes this program so unique and important. 
Related to this scientific approach has been the tribal leadership 
effort which has developed and is currently implementing the ESA-listed 
Puget Sound Chinook Recovery Plan approved by NOAA.
    We respectfully request $110.0 million for the PCSRF. These funds 
have decreased over the past decade from the peak of fiscal year 2002 
of $110.0 million. We continue to support the original intent of 
Congress that would enable the Federal Government to fulfill its 
obligations to salmon recovery and the treaty fishing rights of the 
tribes. Salmon restoration projects not only benefit fish populations 
and their habitat but provide much needed jobs for the local 
communities. This would continue to cover watershed restoration and 
salmon recovery work as well as fish hatchery reform efforts.
    Provide $7.859 million in funding for the Pacific Salmon Treaty and 
the additional $3.0 million associated with the 2008 Chinook Salmon 
Agreement.--In 1985 the Pacific Salmon Treaty (PST) was created through 
the cooperative efforts of tribal, State, U.S. and Canadian 
governments, and sport and commercial fishing interests. The Pacific 
Salmon Commission (PSC) was created by the United States and Canada to 
implement the treaty. As co-managers of the fishery resources in 
western Washington, tribal participation in implementing the PST is 
critical to achieve the goals of the treaty to protect, share and 
restore salmon resources.
    Adult salmon returning to most western Washington streams migrate 
through U.S. and Canadian waters and are harvested by fisherman from 
both countries. For years, there were no restrictions on the 
interception of returning salmon by fishermen of neighboring countries. 
The 2008 update of the treaty gave additional protection to weak runs 
of Chinook salmon returning to Puget Sound rivers. The update provided 
compensation to Alaskan fishermen for lost fishing opportunities, while 
also funding habitat restoration in the Puget Sound region.
    We support the Pacific Salmon Commission/U.S. Section's request of 
$7.859 million for the PST. We also support their request of $1.5 
million for the Puget Sound Critical Chinook Stock Program and $1.5 
million for the Coded-Wire-Tagging (CWT) Improvement Program as 
required by the 2008 PST Chinook Annex Agreement. This funding covers 
the operation and maintenance costs for the hatchery augmentation 
programs. These programs were initiated in connection with the 2008 
Chinook Agreement of the U.S./Canada Pacific Salmon Treaty as the 
conservation needs of these populations could not be met by harvest 
restriction actions alone. The funding also allows for continued 
maintenance and improvement of the coast-wide CWT program. This is 
essential for the sustainability and management of our fisheries 
resources.
    Provide $15.9 million in funding for the Mitchell Act Hatchery 
Program.--Salmon produced by the Mitchell Act hatcheries on the lower 
Columbia River are critically important in that they provide 
significant fish production for harvest opportunities for tribal treaty 
fisheries in the Columbia River, and for ocean and in-river 
recreational and commercial fisheries, including tribal treaty 
fisheries along the Washington coast. This hatchery production is 
intended to mitigate for the lost production caused by the hydropower 
dam system on the Columbia River. Overall hatchery production has been 
reduced from more than 100 million to fewer than 60 million fish.
    We respectfully request $15.9 million for the Mitchell Act Hatchery 
Program. Funding is provided for the operation of 17 fish hatcheries 
with the release of between 50 million and 60 million juvenile salmon 
and steelhead in Oregon, Washington, and Idaho. Providing adequate 
funding to maintain the current production levels from the Mitchell Act 
hatcheries on the Columbia River is important as this production 
supports coastal salmon fisheries and dampens the impact of Canadian 
fisheries under the terms of the PST Chinook Annex on Puget Sound and 
coastal stocks. Adequate funding will also allow these facilities to be 
retrofitted to meet current ESA standards as identified through the 
hatchery reform process.
    Provide $20.0 million for the Regional Ocean Partnership Grants 
Program.--The Hoh Tribe, Makah Tribe, Quileute Tribe, and the Quinault 
Indian Nation have deep connections to the marine resources off the 
Washington coast. They have pioneered cooperative partnerships with the 
State of Washington and the Federal Government in an effort to advance 
management practices in the coastal waters. The four tribes, the State 
of Washington and NOAA's National Ocean Service, through the Marine 
Sanctuary Program, formed the Intergovernmental Policy Council (IPC), 
which is intended to strengthen management partnerships through 
coordination and focus of work efforts. Through this partnership, the 
entities hope to maximize resource protection and management, while 
respecting existing jurisdictional and management authorities.
    We respectfully request $20.0 million for the Regional Ocean 
Partnership (ROP) Grants Program, within the National Ocean Service 
Coastal Management account. This would be an ideal program to support 
tribal participation in this regional ocean planning body. Funding for 
this competitive grant program supports regional ocean partnerships, 
including coastal and marine spatial planning.
    The four coastal tribes and the State also wish to engage in an 
ocean monitoring and research initiative to support and transition into 
an ecosystem-based fisheries management plan for the Washington coast. 
This tribal-State effort would be in collaboration with NOAA and 
consistent with regional priorities identified by a regional planning 
body. For the tribes and State to conduct an ocean monitoring and 
research initiative off the Washington coast, they will need funding to 
support this effort. Regional ocean governance mechanisms facilitate 
the effective management of ocean and coastal resources across 
jurisdictional boundaries by improving communications, aligning 
priorities, and enhancing resource sharing between State, local, tribal 
and Federal agencies. Healthy oceans are essential if we value stable 
climates that will sustain our economies and our lives. Tribes must be 
partners in the efforts to research, clean up and restore the 
environment in order to deal with identified problems.
                               conclusion
    The treaties and the treaty-reserved right to harvest are the 
supreme law of the land under the U.S. Constitution. Some of the treaty 
tribes have had to give up even their most basic ceremonial and 
subsistence fisheries. Tribes are key partners in the management of 
natural resources by virtue of treaty-reserved rights and our legal 
status as co-managers. We have all made a huge investment in the 
recovery of salmon and their habitat but it has not been enough.
    We are sensitive to the budget challenges that Congress faces. 
However, we urge you to continue to support our efforts and funding 
requests. Thank you.
                                 ______
                                 
     Prepared Statement of the National Marine Sanctuary Foundation
    For 13 years, the National Marine Sanctuary Foundation (NMSF) has 
worked with Congress, the National Oceanic and Atmospheric 
Administration (NOAA), and a national network of local, non-profit 
organizations to connect our fellow citizens to the underwater places 
that define the American ocean--the National Marine Sanctuary System.
    We very much appreciate the Subcommittee's strong and continuing 
effort to provide adequate funding for NOAA's Office of National Marine 
Sanctuaries (ONMS). In particular, the Committee's fiscal year 2013 
restoration of sanctuary funds--and the report language recognizing the 
impact of sanctuary funding cuts--sent a powerful and necessary message 
about the economic growth and job creation benefits of the National 
Marine Sanctuary System, and it also underscored the continuing 
educational and ecological value of America's underwater treasures.
    In recognition of the ongoing coastal job creation benefits 
provided by national marine sanctuaries--especially through PAC 
funding--and ONMS' additional responsibilities in fiscal year 2014, 
NMSF respectfully requests that in fiscal year 2014 the Committee 
consider appropriating:
  --$5.5 million to the Marine Sanctuaries Construction Base, within 
        NOAA's Procurement, Acquisition, and Construction (PAC) 
        account; and
  --$55 million to Sanctuaries and Marine Protected Areas, within 
        NOAA's Operations, Research, and Facilities (ORF) account. \1\
---------------------------------------------------------------------------
    \1\ Previously Marine Sanctuary Program Base.
---------------------------------------------------------------------------
    Joining NMSF in this request are nine community-based organizations 
that support specific sites within the sanctuary system. On behalf of 
their members from coast to coast, the Channel Islands Sanctuary 
Foundation (CA), Cordell Marine Sanctuary Foundation (CA), Farallones 
Marine Sanctuary Association (CA), Friends of Thunder Bay National 
Marine Sanctuary (MI), Hawai`i National Marine Sanctuary Foundation 
(HI), Monterey Bay Sanctuary Foundation (CA), Olympic Coast Alliance 
(WA), Sanctuary Friends Foundation of the Florida Keys (FL), and 
Stellwagen Alive! (MA) support funding the National Marine Sanctuary 
System at these levels.
    significant changes to onms responsibilities in fiscal year 2014
    While we recognize the challenges associated with providing 
increased funding in the current budget climate, ongoing changes within 
NOAA have worsened the existing shortfall in sanctuary budgets. A 
slight increase in ORF funding is warranted in fiscal year 2014 to 
accommodate the following new priorities.
    Marine Protected Areas Center.--Despite the realization of 
management efficiencies that are actively lowering costs, the proposed 
fiscal year 2013 consolidation of NOAA's Marine Protected Areas Center 
(MPAC) with ONMS was accompanied by funding cuts that sharply reduced 
capacity. We strongly encourage the Committee to consider the 
complementary nature of activities performed by MPAC and ONMS, and we 
urge you to ensure that any fiscal year 2014 funding intended for MPAC 
is added to the Marine Sanctuary Program base level. Furthermore, given 
the fiscal year 2013 consolidation, it is critical that MPAC funds are 
appropriated to ONMS rather than NOAA's Coastal Management Program (as 
was the case in prior years).
    National Marine Sanctuary of American Samoa.--Following an 
extensive public process, in November 2012 the Fagatele Bay National 
Marine Sanctuary expanded from 0.25 to 13,581 square miles, 
incorporating the Rose Atoll Marine National Monument. We strongly 
encourage the Committee to ensure that fiscal year 2014 funding 
intended for Rose Atoll management is added to the Marine Sanctuary 
Program base level. Furthermore, given the incorporation of Rose Atoll 
into the re-named National Marine Sanctuary of American Samoa, it is 
critical that Rose Atoll funds are appropriated to ONMS rather than 
NOAA's National Marine Fisheries Service (as was the case in prior 
years).
    Site Evaluation List Reactivation Under the National Ocean 
Policy.--The National Ocean Policy Implementation Plan directs NOAA to 
reactivate and repopulate the sanctuary Site Evaluation List (SEL) with 
marine areas that have been identified as nationally significant, and 
we strongly encourage the Committee to ensure that any fiscal year 2014 
funding intended for new site evaluation is added to the Marine 
Sanctuary Program base level. No new marine areas have been considered 
for sanctuary designation since at least 1995, and sufficient resources 
will allow ONMS to engage in a transparent and public process that can 
inform and complement NOAA's report on plans to expand marine 
sanctuaries, per the Committee's direction in fiscal year 2013.
      national marine sanctuaries are unique and successful ocean 
                           conservation tools
    Sanctuaries embody our nation's commitment to preserve the best of 
the American ocean for future generations--they are our underwater 
national parks. They support economic vitality and thousands of 
businesses in coastal communities, preserve vibrant underwater and 
maritime treasures for our children and grandchildren to enjoy, and 
provide critical public access for ocean recreation, research, and 
education. Through stakeholder-driven planning processes designed to 
accommodate multiple uses of the ocean and validated repeatedly over 
the 40-year history of the sanctuary program, ONMS successfully manages 
13 national marine sanctuaries and the Papahanaumokuakea Marine 
National Monument.
    Numerous external reviews have concluded that sanctuaries are 
fundamentally well-conceived, cover gaps in other Federal laws, and are 
making progress towards long-term protection of marine ecosystems. 
Unlike most other ocean resource laws, which focus on controlling 
specific activities or managing specific species, the National Marine 
Sanctuaries Act protects nationally significant places, along with the 
natural, historical, and cultural riches that make them worth 
preserving for future generations. Experience shows that this approach 
is vital to maintaining the healthy seascapes that underpin our 
incredibly productive coastal economies--and that the return on our 
investment in sanctuaries is simply too valuable to ignore.
     national marine sanctuaries are economic engines for coastal 
                              communities
    Between 2005 and 2009, when overall U.S. employment dropped by 2.3 
percent, coastal tourism and recreation employment grew by 2.7 percent 
and helped our nation survive the recession.
    Sanctuary stewardship efforts are vital to the success of coastal 
businesses. According to the National Ocean Economics Program, 72 
percent of ocean and coastal employment--over 1.8 million jobs in 
2009--in the tourism and recreation sector depends on visitor 
opportunities that require the clean beaches, clean water, and abundant 
fish and wildlife promoted by the National Marine Sanctuary System. 
Investing in sanctuaries does much more than simply protect small areas 
of the ocean--national marine sanctuaries are fueling job creation in 
coastal communities, and investing in sanctuaries is a down payment on 
the future of equipment manufacturers, hospitality operators, and ocean 
recreation vendors, not to mention the many other Americans whose 
livelihoods are dependent on a healthy ocean and coasts. We offer the 
following examples to suggest that the benefits of funding our national 
marine sanctuaries far outweigh the Federal outlays that support them:
  --Management of the Stellwagen Bank National Marine Sanctuary off 
        Massachusetts costs taxpayers under $2 million annually, and 
        healthy sanctuary waters draw the tourists who spent $126 
        million on commercial whale-watching trips there during 2008 
        alone, supporting 31 businesses and almost 600 jobs.
  --Taxpayers spend less than $3 million per year to manage the 
        Monterey Bay National Marine Sanctuary off California, whose 
        waters are the focus of a marine science and education industry 
        that employed over 2,100 people and had a $291 million budget 
        in 2012.
  --The Florida Keys National Marine Sanctuary, where management costs 
        less than $6 million per year, protects coral reefs and legal 
        fishing opportunities that are the backbone of a marine tourism 
        and recreation industry in the two adjacent counties--employing 
        over 70,000 people and contributing $4.5 billion per year to 
        State GDP.
    national marine sanctuaries start and stay in local communities
    The designation and management of new sanctuaries are wholly 
dependent on ``bottom-up'' processes where local communities are 
involved from the very beginning--sanctuaries actually devolve power 
from Washington, DC and give constituents control over the destiny of 
their coasts. All sanctuary rules and regulations are developed on a 
site-by-site basis, and sanctuaries are designed from the outset to 
accommodate multiple uses of the ocean. Coastal communities have a 
controlling influence on sanctuary priorities, ensuring that they 
address unique, local circumstances. This community-driven approach to 
decide where sanctuaries are located and what is allowed within them is 
one of the most public in our democracy--and it's only one reason why 
98 percent of sanctuaries remain open to fishing.
    National marine sanctuaries are created by and for the people: 
citizens and communities propose sites and then have at least three 
additional chances to weigh in during the process. In addition, over 
700 Sanctuary Advisory Council representatives from the fishing, 
tourism, and maritime commerce industries; Tribes, State and local 
government; and researchers, educators, and conservationists spend over 
13,000 hours each year to help manage sanctuary operations day-to-day. 
Sanctuaries are also hubs for volunteer activity: over 100,000 hours 
are contributed by local sanctuary volunteers each year, and sanctuary 
volunteer programs in California and Hawai`i have won the Federal 
Government's Take Pride in America Award (for Outstanding Federal 
Volunteer Program) for the past 2 years.
national marine sanctuaries' programmatic outlook under reduced fiscal 
                        year 2014 funding levels
    Sequestration alone will likely result in the termination of 15 
contractors, and six FTE-equivalent positions will remain unfilled 
(this combination is equivalent to a 5 percent workforce reduction). In 
addition, a decrease of $500,000 in funding for vessel operations and 
maintenance will most likely result in cancelled cruises and degraded 
equipment.
    We project that additional budget cuts will result in more 
terminations of contractors who perform FTE-equivalent duties; reduced 
operations at visitor centers; a lack of contingency funding needed in 
case of emergencies like oil spills; and additional inoperable vessels 
tied up at the docks. In addition, lack of funds will likely result in 
cuts to public access and recreation opportunities, cancellation of 
partnerships that leverage private funds for taxpayer benefits, and the 
dismantling of successful education initiatives.
    The potential impact of reducing sanctuary appropriations goes far 
beyond the individual sanctuaries themselves: limiting visitor center 
hours, eliminating research programs, and diminishing enforcement 
capacities will prevent ONMS from fulfilling its statutory mandates 
while also reducing the economic activity and job creation that 
surround healthy sanctuary communities from coast to coast. For 
example, funding national marine sanctuaries below the recommended 
levels could force the program to:
  --Cut treasured public access and recreation opportunities for all 
        Americans. Funding cuts risk the Florida Keys National Marine 
        Sanctuary's 767 mooring buoys, which provide public access and 
        recreational opportunities within the sanctuary while 
        protecting coral reefs and shipwrecks from anchor damage, 
        preserving them for future generations.
  --Restrict enforcement operations that protect legal fishermen. Lack 
        of funding jeopardizes on-water patrols for illegal fishermen 
        in the Florida Keys National Marine Sanctuary. In a single 2013 
        case, illegal fishermen were charged with over 1,300 violations 
        for pilfering 664 yellowtail snapper from a closed area that 
        was recently shown to have provided benefits to both fish 
        populations and commercial and recreational anglers.
  --Dramatically shrink visitor center hours. Sanctuary visitor centers 
        serve as the public face of NOAA and see over 350,000 visitors 
        per year, including the Monterey Bay National Marine Sanctuary 
        Exploration Center (Santa Cruz, CA), Mokupapapa Discovery 
        Center (Hilo, HI), Great Lakes Maritime Heritage Center 
        (Alpena, MI), and Florida Keys EcoDiscovery Center (Key West, 
        FL).
  --Eliminate collaborations with museums that leverage private funds 
        for taxpayer benefits. Placing educational exhibits in partner 
        institutions, like the California Academy of Sciences' three-
        story ``California Coast'' aquarium, is a successful and cost-
        effective method for reaching the American public. Over 1 
        million Academy visitors each year learn how the Gulf of the 
        Farallones National Marine Sanctuary protects America's 
        valuable ocean and maritime resources.
  --Cancel partnerships with universities that leverage private funds 
        for taxpayer benefits. Funding cuts could risk research 
        alliances with Oregon State University, Stanford University, 
        and the University of California for collection of wind, tide, 
        current, and marine life data critical to maritime commerce and 
        search-and-rescue operations within the Channel Islands, 
        Monterey Bay, Gulf of the Farallones, Cordell Bank, and Olympic 
        Coast National Marine Sanctuaries.
  noaa needs sufficient funds to fulfill its responsibilities to the 
                            american people
    From weather forecasts to fisheries management, NOAA provides 
decision makers with critically important data, products, and services 
that promote and enhance the nation's economy, security, environment, 
and quality of life. As a member of the Friends of NOAA coalition, NMSF 
strongly encourages the Committee to support funding NOAA at or above 
the President's Request of $5.4 billion for fiscal year 2014 to avoid 
endangering lives and livelihoods that depend on NOAA services.
                                 ______
                                 
     Prepared Statement of the Natural Science Collections Alliance
    The Natural Science Collections Alliance appreciates the 
opportunity to provide testimony in support of fiscal year 2014 
appropriations for the National Science Foundation. We encourage 
Congress to provide the National Science Foundation (NSF) with at least 
$7.626 billion in fiscal year 2014.
    The Natural Science Collections Alliance is a non-profit 
association that supports natural science collections, their human 
resources, the institutions that house them, and their research 
activities for the benefit of science and society. Our membership 
consists of institutions which are part of an international community 
of museums, botanical gardens, herbaria, universities, and other 
institutions that contain natural science collections and use them in 
research, exhibitions, academic and informal science education, and 
outreach activities.
                the role of nsf in scientific excellence
    Federal support for science is an investment in our nation's 
future. The NSF supports research that creates new knowledge and helps 
to drive innovation and economic growth. NSF-supported research has led 
to improvements in human health, food and national security, energy, 
and natural resource management.
    NSF also trains the next generation of researchers and science 
educators. The agency supports graduate student research training 
programs that help maintain our nation's global competitiveness. 
Moreover, K-12 education initiatives ensure a pipeline of 
scientifically skilled workers for tomorrow's jobs.
    America's continued excellence in science and technology depends on 
sustained investments in research and science education. The progress 
of basic scientific research requires a steady Federal investment. 
Unpredictable swings in Federal funding can disrupt research programs, 
create uncertainty in the research community, and impede the 
development of solutions to the nation's most pressing problems.
                       biological research at nsf
    NSF's Biological Sciences Directorate (BIO) is the primary Federal 
funding source for fundamental biological research. BIO serves a vital 
role in ensuring our nation's continued leadership in the biological 
sciences by providing about 64 percent of Federal grant support for 
basic biological research conducted at our nation's universities and 
other nonprofit research centers, including natural history museums.
    BIO's support of transformative research has advanced our 
understanding of complex living systems and is leading the way forward 
in addressing major challenges, such as understanding how biological 
species diversity helps to regulate environmental systems, identifying 
novel and cost-effective methods for combating invasive species, and 
developing new bio-inspired technologies.
    Equally important, BIO provides essential support for our nation's 
biological research infrastructure, such as natural science collections 
and natural history museums. These research centers enable scientists 
to study the basic data of life, conduct modern biological and 
environmental research, and provide undergraduate and graduate students 
with hands-on training opportunities.
                   support for scientific collections
    Scientific collections play a central role in many fields of 
biological research, including disease ecology and biodiversity 
science. Our member institutions also provide critical information 
about existing gaps in our knowledge of life on Earth. Indeed, the 
Federal Interagency Working Group on Scientific Collections recognized 
this value in their 2009 report, which found that ``scientific 
collections are essential to supporting agency missions and are thus 
vital to supporting the global research enterprise.''
    We strongly encourage Congress to sustain NSF's support for the 
digitization of high priority U.S. specimen collections. NSF's 
investment in digitization will enable the scientific community to 
ensure access to and appropriate curation of irreplaceable biological 
specimens and associated data, and will stimulate the development of 
new computer hardware and software, digitization technologies, and 
database management tools. This effort is bringing together biologists, 
computer science specialists, and engineers in multi-disciplinary teams 
to develop innovative imaging, robotics, and data storage and retrieval 
methods. These tools will expedite the digitization of collections and 
contribute to the development of new products or services of value to 
other industries.
    NSF has supported efforts by the biological collections community 
to make biocollections and their associated data more accessible. A 
series of workshops of biocollection experts has resulted in a 
community-wide initiative to develop a Network Integrated 
Biocollections Alliance (NIBA). The NIBA is envisioned as a 
coordinated, large-scale effort to digitize the nation's biological 
collections. Federal support is necessary if this goal is to be 
achieved. For example, the effort will require new initiatives that 
will support advanced engineering of biocollections 
cyberinfrastructure, enhanced training for collections staff, and 
infusing specimen-based learning into education, among other 
recommendations.
    The fiscal year 2014 request would also create a new program to 
link long-term planetary biodiversity data with specimen and 
collections data. This integration of data will enable novel 
interdisciplinary research in biodiversity science.
                           other nsf programs
    The Dimensions of Biodiversity program supports cross-disciplinary 
research to describe and understand the scope and role of life on 
Earth. Despite centuries of discovery, most of our planet's biological 
species diversity remains unknown. This lack of knowledge is 
particularly troubling given the rapid and permanent loss of global 
biological diversity. Better understanding of life on Earth will help 
us protect valuable ecosystem services and make new bio-based 
discoveries in the realms of food, fiber, fuel, pharmaceuticals, and 
bio-inspired innovation.
    The Directorate for Geosciences (GEO) also supports research and 
student training opportunities in natural history collections. GEO 
supports cross-disciplinary research on the interactions between 
Earth's living and non-living systems--research that has important 
implications for our understanding of water and natural resource 
management, climate change, and biodiversity.
    Within the Directorate for Education and Human Resources, the 
Advancing Informal STEM Learning program is furthering our 
understanding of informal science, technology, engineering, and 
mathematics (STEM) education. This program, formerly called the 
Informal Science Education program, supports projects that create tools 
and resources for STEM educators working outside traditional 
classrooms, such as at museums, botanic gardens, and zoos.
                               conclusion
    Continued investments in the NSF programs that support natural 
science collections research and education are essential if we are to 
maintain the United States' global leadership in innovation. Sustained 
investments in NSF will help spur economic growth and new discoveries 
and continue to build scientific capacity at a time when our nation is 
at risk of being outpaced by our global competitors. Please support an 
investment of at least $7.626 billion for NSF for fiscal year 2014.
    Thank you for your thoughtful consideration of this request and for 
your prior support of the National Science Foundation.
                                 ______
                                 
              Prepared Statement of the Ocean Conservancy
    Thank you for this opportunity to provide Ocean Conservancy's 
recommendations for fiscal year 2014 funding for NOAA. We urge Congress 
to provide an overall funding level for NOAA that both funds the 
request for NOAA's satellite procurements and restores overall funding 
for ocean and coastal programs to fiscal year 2010 levels or above. We 
recommend the following funding levels for specific programs:

                          [Dollars in millions]
------------------------------------------------------------------------
                                                           Fiscal Year
                                           Fiscal Year         2014
      Account, Program or Activity        2012 Enacted     Recommended
                                                              Level
------------------------------------------------------------------------
Operations, Research and Facilities:
National Ocean Service:
    Regional Ocean Partnerships........            $3.5            $10
    Marine Debris......................             4.6              6
National Marine Fisheries Service:
    Expand Annual Stock Assessments....            63.5             75
    Fisheries Statistics...............            23.1             24
Office of Oceanic and Atmospheric
 Research:
    Integrated Ocean Acidification.....             6.2             11.6
Program Support:
    Office of Marine and Aviation                 182.9            210
     Operations........................
------------------------------------------------------------------------

    Ocean Conservancy has worked for nearly 40 years to address ocean 
threats through sound, practical policies that protect our ocean and 
improve our lives. We recognize that real leadership means real 
cooperation--between governments, businesses, scientists, policymakers, 
conservation organizations, and citizens. Our focus is on creating 
concrete solutions that lead to lasting change--so we can benefit from 
the ocean for generations to come.
    We simply cannot afford the under-funding of NOAA's ocean and 
coastal programs. NOAA's mission in protecting, restoring and managing 
our oceans and coasts is vitally important not only to our oceans and 
coasts but also to our coastal and national economies. In 2010, 
according to the National Ocean Economics Program, coastal tourism and 
recreation contributed more than $89 billion to the Gross Domestic 
Product and accounted for over 1.9 million jobs. Just last year, 
Superstorm Sandy showed how critical NOAA's coastal resilience programs 
are for protecting lives and property from damaging storms. Covering 
two-thirds of Earth's surface, the ocean is home to 97 percent of all 
life. Even the air we breathe is connected to a healthy ocean--more 
than half of the oxygen in the atmosphere is generated by ocean-
dwelling organisms.
    While we recognize these are tough fiscal times, and Congress is 
trimming government budgets across-the-board, NOAA's ocean programs 
have been particularly hard-hit with a roughly 14 percent reduction 
since 2010. On top of these cuts, the Government-wide sequester 
currently in place reduces NOAA's budget by another 5 percent. With 
satellite procurement costs continuing to grow, we urge Congress to 
maintain a balanced portfolio on investments across NOAA's missions. 
Americans shouldn't have to choose between forecasting the weather and 
protecting our ocean. We need both.
    We recommend a total funding for NOAA that provides the resources 
needed to make smart choices for a healthy ocean that will not just 
benefit those who live and work along the coast, but the American 
economy and environment as a whole.
    Within the recommended funding of the Operations, Research, and 
Facilities account, Ocean Conservancy would like to highlight the 
following as top priorities for robust funding:
            investments in fisheries science and information
    Expand Annual Stock Assessments, $75 million.--Stock assessments 
provide critically needed resources for fisheries managers to assess 
priority fish stocks, implement the requirement for annual catch limits 
(ACLs), and ensure the successful recovery of overfished populations. 
The survey and monitoring and stock assessment activities funded under 
this line give fishery managers greater confidence that their ACLs will 
avoid overfishing while providing optimal fishing opportunities. 
Because the information provided by stock assessments is so vital to 
the implementation of ACLs and long-term goals for sustainable 
management of U.S. fisheries, increased funding for stock assessments 
should remain among the highest priorities in fiscal year 2014 and 
beyond. In 2012, NOAA turned the corner on ending overfishing and 
achieved a landmark for Federal fisheries management in the U.S. 
through the implementation of ACLs for all federally managed fish 
stocks. In addition, better catch data contribute to more robust stock 
assessments, increasing the accuracy of fish population size estimates 
and allowing for better identification of catch targets and thresholds 
that prevent overfishing.
    Fisheries Statistics: Marine Recreational Fisheries Monitoring, $24 
million.--Despite their often sizeable economic and biological impacts, 
much less data are collected from recreational saltwater fisheries than 
commercial fisheries due to the sheer number of participants and 
limited sampling of anglers' catches. The low level of data collection 
and lack of timely reporting of data in these fisheries are a large 
source of uncertainty and have become a flashpoint for controversy in 
regions where catch restrictions have been adopted to rebuild 
overfished stocks, particularly in the Southeast. By all accounts, 
improved sampling and timelier reporting of catch data are needed for 
successful management of marine recreational fisheries.
    OMAO Operations and Maintenance, $210 million.--Base funding for 
NOAA's Office of Marine and Aviation Operations (OMAO) supports a fleet 
of 10 Fishery Research Vessels whose primary mission is to provide 
baseline information on fish populations that is critical to the 
development and regular updating of fishery stock assessments for the 
catch-setting process. More than 80 percent of stock assessments for 
species rely on this data. In recent years, however, rising operating 
costs (largely attributable to rising fuel costs) and budget 
constraints have sharply reduced the base-funded days at sea (DAS) for 
NOAA's fleet. The number of base-funded DAS for NOAA's fleet declined 
40 percent between 2006 and 2011 forcing NMFS to spend its program 
funds to ``buy back'' days at sea not covered by OMAO in order to 
maintain its regularly scheduled surveys and collect data that is 
needed to set appropriate catch limits. Without the independent surveys 
conducted by these vessels managers must increase the uncertainty when 
setting catch limits which can decrease fishing opportunities.
             regional ocean partnership grants: $10 million
    The Regional Ocean Partnership (ROP) Grants program provides 
competitively awarded funds to advance regional priorities for ocean 
and coastal management and science, ensuring that ocean management 
priorities are set at the State and regional level and determined by 
actual, on-the-ground needs. Regional approaches continue to be the 
most effective and efficient way to address ocean management 
challenges.
    Nearly all coastal governors have voluntarily joined together to 
establish Regional Ocean Partnerships that connect State and Federal 
agencies, tribes, local governments, and stakeholders to tackle ocean 
and coastal management issues of common concern, such as siting 
offshore energy, habitat restoration, coastal storm mitigation and 
reducing marine debris. While the priorities, structures, and methods 
of each partnership may differ to suit the needs of each region, they 
are collectively working toward an improved ocean environment and a 
stronger ocean and coastal economy. The grant program also helps 
Regional Ocean Partnerships leverage Federal agencies' scientific 
research and data collection capacity by linking their activities with 
Federal programs. Regional Ocean Partnerships are already producing on-
the-ground results that benefit both the economy and the environment, 
including cutting edge scientific research, monitoring and practical 
tools like maps and surveys.
    If these competitive grant funds are reduced or eliminated, States 
and their partnerships will be weakened--making them less able to 
assist local and regional ocean and coastal management needs and 
priorities, or leverage the Federal Government's support, expertise, 
and data collection capacity. For fiscal year 2014, we request $10 
million, $6.5 million above the fiscal year 2012 enacted level of $3.5 
million.
                       marine debris: $6 million
    Marine debris has become one of the pervasive pollution problems 
facing the world's oceans, coasts and waterways. Research has 
demonstrated that persistent debris has serious effects on the marine 
environment, wildlife and the economy. Marine debris causes wildlife 
entanglement, ghost fishing, destruction of habitat, navigational 
hazards, and vessel damage and pollutes coastal areas. The problem of 
marine debris has been growing over the past several decades and 
natural disasters such as the 2011 Japanese tsunami tragedy and 
Superstorm Sandy can exacerbate an already challenging issue. Trash 
travels and tsunami debris is impacting the West Coast now. Boats, a 
dock and various other forms of debris have washed onshore creating 
removal challenges and concerns over invasive species. On the East 
Coast, entire piers were washed into the ocean when Superstorm Sandy 
hit.
    While the quantity of marine debris in our ocean has greatly 
increased, funding for NOAA's Marine Debris Program has remained well 
below the historically authorized level of $10 million. Additional 
resources are needed to ensure NOAA has the capacity to monitor and 
respond to the impacts of debris from the tsunami, the Superstorm, and 
other sources. In order to sustain current programs and allow NOAA the 
capacity to evaluate, track and clean up debris, for fiscal year 2014 
we request $6 million, $1.5 million above fiscal year 2012 funding 
levels.
         integrated ocean acidification program: $11.6 million
    In recent years, scientists have raised the alarm about ocean 
acidification--a process whereby ocean waters' absorption of carbon 
dioxide emissions alters marine acidity. Over the last 250 years, 
oceans have absorbed 530 billion tons of carbon dioxide, triggering a 
30 percent increase in ocean acidity. These changes can have far-
reaching consequences for marine life, including economically important 
species like shellfish and corals. For example, the shellfish industry 
in the Pacific Northwest has been devastated in recent years as more 
acidic waters encroached upon important oyster hatcheries, nearly 
wiping out several years-worth of oyster ``seed.''
    Recognizing the dire need for better understanding of this emerging 
economic threat, in early 2009 Congress passed and enacted the Federal 
Ocean Acidification Research and Monitoring (FOARAM) Act. Under FOARAM, 
Congress instructed NOAA to establish an ocean acidification program to 
coordinate research, establish a monitoring program, develop adaptation 
strategies, and provide critical research grants to improve the 
understanding of ocean acidification's ecological and socioeconomic 
impacts. Because economic impacts like those seen in the shellfish 
industry are on the leading edge of what will be a growing problem, 
adequate funding for this line item is critical to fulfill Congress's 
directives and build the scientific foundation needed to protect 
vulnerable industries from ocean acidification.
    We believe that the President's fiscal year 2012 request of $11.6 
million is reflective of the actual on-the-ground needs for Ocean 
Acidification. As stated in the President's fiscal year 2012 NOAA 
Congressional Budget Justification, funding at the $11.6 million level 
will allow NOAA to develop more cost-efficient acidification sensors 
for monitoring; conduct an assessment of acidification effects on 
commercial and recreational marine fish stocks; and create a Coral Reef 
Ocean Acidification Observing Network. By increasing the programmatic 
funding for Integrated Ocean Acidification to this level, NOAA will be 
able to take these concrete actions to more effectively tackle the 
economic, on-the-ground implications of ocean acidification and prepare 
more effectively for future adaptation strategies that will protect our 
nation's key ocean and coastal economic assets.
    Thank you for the opportunity to provide this testimony. If you 
would like further information, please contact Emily Woglom.
                                 ______
                                 
            Prepared Statement of the Quinault Indian Nation
    $1.3 Million Appropriations Request--Budget for Quinault Nation 
Narcotics Enforcement Team (QNNET) Annual Staffing and Operations
    (1) Staffing (two field agents, two administrative agents, one 
administrative assistant): $670,000.
    (2) Operating expenditures: $630,000.
    Honorable Chairman Wolf and members of the Appropriations 
Subcommittee, I submit the following comments on behalf of the people 
of the Quinault Indian Nation, a sovereign Treaty Indian Tribe located 
on the Pacific Ocean in the State of Washington. The Quinault Indian 
Reservation is a land of beautiful forests, rivers, and lakes and 23 
miles of unspoiled Pacific coastline. Our people have flourished in 
this region for thousands of years, sustained by the magnificent 
natural resources provided by our Creator. Our culture remains enriched 
by the principles of our heritage and we are committed to high 
standards of stewardship and the objectives of sustainable prosperity.
    However, there are challenges forced upon us in some measure by the 
excesses of contemporary non-tribal society, which threatens our 
existence, as we know it. My testimony shall, in particular, address 
the drug and weapons trafficking on and through our Reservation.
    The commitment level of the Quinault tribal government to 
eliminating illegal drugs and guns as well as smuggling from our lands 
is absolute. Our tolerance level is zero and our tribal police and 
social service agencies work daily, on a cooperative basis with local, 
State and Federal agencies and community members to deal with these 
problems. Yet we are facing escalating threats of drug trafficking, 
narcotic distribution, related gang activity and weapons offenses, 
leading to devastating social, health, and environmental consequences. 
The social fabric of these criminal communities has changed. Elder 
abuse has expanded as a result of drug trafficking. Our young people 
are increasingly affected. More than 30 percent of all drug and alcohol 
arrests are juveniles.
    There is an unfortunate belief among smugglers that our open-ocean 
borders provide easy access for their free movement. We are committed 
to quashing that belief. We are working day and night, year around, to 
effect the strongest possible enforcement. We will not allow our lands 
to be an open door to the flow of poisons into our society. Our 
objective is to let the message be spread far and wide to those who 
would harm our people, ``Don't mess with Quinault!'' That message will 
be conveyed, in force, to those who dare to produce or distribute 
illegal narcotics or guns on our lands. Far too much is at stake for us 
to take any other position.
    We ask for your support in this endeavor.
    The Quinault Business Committee, our tribal legislative body, voted 
to combat these problems by forming the Quinault Nation Narcotics 
Enforcement Team (QNNET) in 2011. This agency continues to prevent and 
suppress narcotic trafficking and drug use through intensive 
investigations and collaboration efforts.
    The QNNET apprehension record includes more than 60 drug related 
arrests that led to successful prosecution by the appropriate agency. 
Seizures included cocaine, marijuana, heroin, prescription drugs, and 
methamphetamines. In early 2004, QIN's Tribal Code did not 
differentiate the punitive measures for those possessing marijuana from 
those possessing heroin or methamphetamine. At the present time, the 
legal codes are now rewritten and strengthened.
    QNNET has, against all odds, established itself as one of the top 
Tribal Narcotics units in the Northwest. QNNET, in cooperation with the 
U.S. Drug Enforcement Agency and State and local drug units has 
identified Mexican Drug Cartel members on the Quinault Nation 
Reservation and we have been working to rid ourselves of them. Last 
year, QNNET along with other agencies arrested members of a Mexican 
drug ring and seized more than three pounds of Heroin. QNNET assisted 
in the seizure of more than 19 pounds of Meth just outside the 
boundaries of the Reservation and provided information that led to the 
seizure of more than 255 pounds of Meth from a Mexican drug house in 
Modesto, California.
    QNNET continues to receive information regarding planes able to 
land on our beaches, alongside boats that have been observed by tribal 
members, which appeared to be used in off loading of drugs. The 
Quinault Nation has 26 miles of beaches that are not able to be 
patrolled due to a lack of staffing. That is a situation that must 
change. QNNET is also active in interdiction on the U.S. 101 Highway, 
considered by many to be an alternate route to the Canadian border.
    QNNET devotes time to addressing local drug issues with the Tribal 
Villages and providing education in our schools. QNNET has been very 
successful in removing drug dealers from the streets and to an 
increasing degree getting drug users into treatment.
    QNNET is in need of additional resources and training to address 
all of these issues. The potential for extreme violence is always 
present when dealing with Mexican Cartel members and others who choose 
to use the Quinault Indian Nation as a distribution center for 
narcotics.
    The regional topography renders the Reservation susceptible to drug 
smuggling and production. The Washington section of the United States-
Canadian border is approximately 430 miles in length, a significant 
portion of which is vast, dense forest. This includes more than 55 
miles of rural highways, 18 miles of open coastline, and a border that 
has 13 official ports of entry, leaving the rest of the border largely 
unpatrolled.
    Let there be no mistake. The Quinault Nation is at war with illegal 
drug smugglers, and we need the help of the United States Government to 
solve these problems and win this war.
    We continue to work toward resolution of various specific 
challenges, including: The updating of GPS and coordinate radio 
capabilities to field agents; provision of adequate broadband access, 
particularly in remote areas and the heavily forested lands; closed 
circuit surveillance of forest roads, public highways, and clandestine 
ports used by narcotic traffickers; interdepartmental cross-training 
for law enforcement officers; increasing case selection for 
prosecution; establishing strong cultural programs and traditional 
practices as a part of prevention standards and post-arrest care for 
offenders with mental health or chemical dependency issues for 
implementation by direct services providers; balancing community trust 
with operational confidentiality; building sustainable, diverse revenue 
sources; promoting interagency trust and open communication with 
Federal, military, and law enforcement agencies; developing community 
rapport without jeopardizing identity or confidentiality; and gaining 
access to incarceration and interrogation facilities.
                               conclusion
    In supporting our program, you are supporting the health and well-
being of tribal citizens as well as the Federal Trust Responsibility to 
our Tribe. I am very pleased to report to you that there is another 
very good reason to support the appropriations requests related to our 
drug, alcohol and weapons program--it's working!
    Since October 2010, our officers have expanded positive working 
relationships with Federal, State and local agencies. Together, we were 
able to bust a cartel-supported drug ring on the Reservation. We have 
seized more than 128 kilograms of drugs, more than $2.7 million in 
cash, drugs, etc., conducted 123 investigations that led to arrests, 
added a very valuable K-9 dog and handler to our force, and we have 
seen a drop in personal property crimes as a result of these and other 
measures.
    However, the influx of Cartel Members within the northern area of 
our Reservation continues to be a direct threat to the safety and 
welfare of our tribal members and employees, as well as others. This 
past year a tribal member was hunting in the northern area forest when 
she observed a body near a logging road. As QNNET arrived on the scene, 
the body had been removed and subsequent QNNET investigations did 
indicate that the dead body was the result of a drug related incident.
    As I have pointed out, the Quinault Nation has 26 miles of 
unprotected shoreline. Due to a lack of staffing and resources, QNNET 
is unable to actively patrol these areas of concern. A more proactive 
approach is an absolute necessity to address this issue.
    There is an urgent need for QNNET to remain funded. Additional 
staffing is needed to not only become more proactive in our approach to 
drug investigation but also for officer safety concerns. Without 
funding and additional staffing, it will be a challenge to stop the 
flow of drugs into Indian country and to protect the quality of life 
that each tribal member is entitled to and deserves.
    The Quinault Indian Nation is committed to continuing efforts to 
reduce the sale, use, and distribution of illegal drugs by 
investigating, arresting, and prosecuting offenders. With ongoing 
financial support from key partners, QIN will continue to leverage 
resources, and continue embracing positive activities and our culture 
to deter first use among tribal youth. We will continue to link 
offenders with culturally competent substance abuse treatment. We will 
also continue to build collaborative relationships with Federal, State, 
and local agencies to deploy joint counter drug operations leading to 
the arrest and successful prosecution of narcotic traffickers operating 
on or near the QIN Reservation.
    It is an honor to present this testimony to the House Committee on 
Appropriations Subcommittee on Commerce, Justice, Science, and Related 
Agencies. The issues presented to you herein are of utmost concern to 
us. We are determined to deal with them professionally and effectively 
and, with your continued support, we will make substantial progress on 
the objectives presented in a manner, which will positively affect the 
lives of our children, our elders, and all members of our nation.
    Thank you for your consideration and for your efforts to stand up 
for the rights and needs of our people, and for the implementation of 
the Federal Trust Responsibility to the Quinault Indian Nation.
                                 ______
                                 
           Prepared Statement of Restore America's Estuaries
    Restore America's Estuaries is a nonpartisan, nonprofit 
organization that has been working since 1995 to restore our nation's 
greatest estuaries. Our mission is to preserve the nation's network of 
estuaries by protecting and restoring the lands and waters essential to 
the richness and diversity of coastal life. Restore America's Estuaries 
is a national alliance of community-based coastal conservation 
organizations across the nation that protect and restore coastal and 
estuarine habitat. Our member organizations include: American Littoral 
Society, Chesapeake Bay Foundation, Coalition to Restore Coastal 
Louisiana, Save the Sound--a program of the Connecticut Fund for the 
Environment, Conservation Law Foundation, Galveston Bay Foundation, 
North Carolina Coastal Federation, EarthCorps, Save the Bay--San 
Francisco, Save the Bay--Narragansett Bay, and Tampa Bay Watch. 
Collectively, we have over 250,000 members nationwide.
    For fiscal year 2014, Restore America's Estuaries supports the 
following funding levels within the Department of Commerce, National 
Oceanic and Atmospheric Administration (NOAA):
  --Habitat Conservation & Restoration--$47.031 million.
  --Estuary Restoration Program--$1.5 million.
noaa, habitat conservation and restoration: community-based restoration 
                                program
    NOAA's Habitat Conservation & Restoration provides critically 
important funding for the Community-based Restoration Program (CBRP) to 
accomplish on-the-ground projects to restore the nation's coastal, 
marine, and migratory fish habitat. The program provides technical 
expertise--including engineering, construction, and monitoring--as well 
as funding to regional and national partners, and directly to local 
communities to carry out projects such as marsh and wetlands 
restoration, small dam removals, and hydrologic re-connections of tidal 
systems, all of which protect a variety of threatened and/or endangered 
species, provide healthy outdoor recreational opportunities, and help 
buffer coastal communities from the threat of erosion and coastal 
storms. Federal investments in restoration provide long-lasting 
benefits to local communities and economies.
    NOAA's Community-based Restoration Program provides funding through 
competitively-awarded partnerships. We believe the partnership model is 
a critical piece of the program's success because it helps to ensure 
that restoration projects meet community-driven priorities and engage 
local citizens in the restoration activity. The community-engagement 
aspect of the program is critical to long-term restoration efforts 
because restoration projects occur over time and require long-term 
community support. To date, the program has been highly successful at 
improving the health of coastal habitats across the nation, benefiting 
both the environment and the economy through partnerships. By working 
collaboratively with more than 1,500 organizations, CBRP has funded 
more than 2,300 small- to mid-scale on-the-ground projects to restore 
over 97,000 acres of habitat. This work has involved more than 290,000 
volunteers in projects, contributing more than 1 million volunteer 
hours.
    CBRP funding accounts for only a very small portion of the total 
NOAA Federal budget but provides dramatic results in coastal 
communities. The funding for this program is also very cost-effective, 
as the Federal investment is matched by local organizations and is used 
to leverage significantly more private and local investment in our 
nation's coasts. Depending on the project, Federal funds are leveraged 
between 3 and 5 times with private, local, and State funds. Maintaining 
funding for CBRP partnerships that accomplish locally driven 
restoration and engage communities and citizens is well worth the 
investment.
    The CBRP not only helps to improve the nation's degraded habitats 
but also helps create jobs and benefit local economies. NOAA data shows 
that restoration projects create between 17-33 jobs per $1 million 
invested. \1\ And unlike other sectors, these restoration jobs can't be 
outsourced and will remain in communities. First there are the 
immediate local jobs, followed by the significant long-term ecologic 
and economic benefits. Habitat restoration is critical to sustaining 
and rebuilding the fish populations needed to support sport fishing 
opportunities and the commercial fishing industry in the coming years. 
The resulting healthier habitats strengthen and revitalize America's 
communities by buffering against storms, preventing erosion, protecting 
vital infrastructure, eliminating public safety hazards, and providing 
new recreational opportunities.
---------------------------------------------------------------------------
    \1\ Table 1: http://www.habitat.noaa.gov/abouthabitat/
habitatconservationjobs.html (Accessed March 2013); http://
www.habitat.noaa.gov/pdf/RAE_Restoration_Jobs.pdf.
---------------------------------------------------------------------------
    Restore America's Estuaries urges your continued support and 
funding for Habitat Conservation & Restoration and asks that you fund 
the administration's fiscal year 2014 request of $47.031 million for 
Habitat Conservation & Restoration. We also request that you include 
the following language to ensure NOAA does not divert funding away from 
the intended purpose, the critically important community-based 
restoration:

    ``The restoration of coastal and estuarine habitats is of national 
importance and essential to the core mission of NOAA to achieve 
sustainable fisheries and resilient coasts. Within the funds provided, 
no less than $15,700,000 shall be made available for partnerships that 
support local fisheries habitat restoration and shoreline resiliency 
needs through the Community-based Restoration Program. The Committee 
recognizes that restoration priorities and projects are best decided by 
local stakeholders and interests, with technical and scientific 
expertise provided by NOAA. The Committee expects that NOAA will place 
greater emphasis on a partnership model that helps ensure habitat 
restoration projects continue to be driven by local communities and 
priorities. The committee also recognizes that ``large-scale projects'' 
are in fact a collective of multiple small- to mid-scale projects 
working toward the same goal. The Committee expects NOAA to maintain 
the small- to mid-scale project focus of CBRP that continues to provide 
broad ecosystem benefits, involve local communities, and contribute to 
larger-scale regional conservation or restoration plans. Projects shall 
be funded through partnerships to help ensure community engagement and 
participation which is critical for long-term local stewardship.''
                   noaa, estuary restoration program
    Authorized through the Water Resources Development Act of 2000 and 
reauthorized by Congress in 2007, the Estuary Restoration Act (ERA) 
established a comprehensive interagency program for the restoration of 
the nation's estuaries. The ERA's Estuary Habitat Restoration Council, 
comprised of the five primary Federal restoration agencies (USACE, 
NOAA, EPA, USFWS, and USDA-NRCS) is leading a coordinated approach to 
maximize benefits from restoration and address the pressures facing our 
nation's estuaries. With declining Federal resources, this level of 
coordination has never been more important. As current Council Chair, 
NOAA is leading efforts through the Estuary Restoration Program, while 
also maintaining an interagency ERA project database that serves as a 
useful and cost-effective clearinghouse for all agency restoration 
information. Maintaining funding for this important program is 
important for continued progress.
    In November 2012, the Estuary Habitat Restoration Council approved 
the 2012 Estuary Habitat Restoration (EHR) Strategy and 5-year action 
plan. The action plan identifies outcomes and milestones to ensure that 
restoration efforts are coordinated, evaluated, and tracked across 
agencies with the goal of ensuring efforts are effective and efficient. 
Maintaining funding for this important program is important for 
continued progress.
    Restore America's Estuaries urges your continued support of the 
Estuary Restoration Council and NOAA's Estuary Restoration Program and 
asks that you provide $1,500,000 in funding for fiscal year 2014.
                               conclusion
    Restore America's Estuaries greatly appreciates the support this 
Subcommittee has provided in the past for these important programs. 
These programs help to accomplish on-the-ground restoration work which 
results in major benefits:
  --Jobs.--Coastal habitat restoration projects create between 17-33 
        jobs per $1 million invested. That's more than twice as many 
        jobs as the oil and gas sector and road construction industries 
        combined.
  --More fish.----Traditional fisheries management tools alone are 
        inadequate. Fish need healthy and abundant habitat for 
        sustainable commercial and recreational fisheries.
  --Resiliency.----Restoring coastal wetlands can help knock down storm 
        waves and reduce devastating storm surges before they reach the 
        people and property along the shore.
  --Leverage.--Community-based restoration projects leverage 3-5 times 
        the Federal investment through private matching funds, 
        amplifying the Federal investment and impact.
    Thank you, Mr. Chairman and we appreciate your taking our requests 
into consideration as you move forward in the fiscal year 2014 
appropriations process. We stand ready to work with you and your staff 
to ensure the health of our Nation's estuaries and coasts.
                                 ______
                                 
 Prepared Statement of the Regional Information Sharing Systems Program
    The Regional Information Sharing Systems (RISS) Program helps 
thousands of criminal justice agencies save lives, solve crimes, and 
prosecute offenders. RISS has served the nation for almost 40 years, 
providing secure information and intelligence sharing capabilities, 
investigative and analytical services, and officer safety 
deconfliction. During these difficult fiscal times, law enforcement 
agencies have experienced reductions in funding and manpower. Agencies 
turn to and rely on RISS for its resources and support. In fiscal year 
2012, RISS's funding was reduced 40 percent, exacerbating an already 
critical situation. Meanwhile, the demand for RISS's services continued 
to increase. ``RISS is one of the most cost-effective resources out 
there.'' ``RISS is like an extra officer in our department.'' ``RISS--
The most important working tool for law enforcement to combat criminal 
activity and terrorism.'' These statements are examples of what 
officers are saying about RISS. It is critical that RISS receive 
appropriate funding to continue its support for these officers and our 
criminal justice community. It is respectfully requested that you 
restore RISS's fiscal year 2013 and fiscal year 2014 funding to its 
fiscal year 2011 level of $45 million.
    Although a number of RISS's services were reduced or eliminated in 
fiscal year 2012, RISS strived to maintain its critical services and 
resources, such as the RISS Secure Intranet (RISSNET), the RISS 
Criminal Intelligence Databases (RISSIntel), analytical services, and 
the RISS Officer Safety Event Deconfliction System (RISSafe). Without 
restored funding, RISS's ability to provide these services, support the 
growing needs of law enforcement, and respond to the increased demand 
for services will diminish, ultimately impacting law enforcement 
efforts to solve crimes and safeguard communities.
    RISS consists of six regional centers and the RISS Technology 
Support Center. The centers tailor their services to meet the needs of 
their unique regions while working together on nationwide issues. RISS 
is a proven, innovative, cost-effective, and evidence-based program 
that is used and trusted by thousands of local, State, Federal, and 
tribal criminal justice agencies. RISS serves hundreds of thousands of 
officers and public safety professionals in all 50 States, the District 
of Columbia, U.S. territories, Australia, Canada, England, and New 
Zealand. A Nebraska sheriff said, ``RISS provides resources that we 
could not otherwise afford. RISS helps our agency operate more 
efficiently, and without them, we would not be where we are today.''
   riss provides secure information, investigative, and intelligence 
                          sharing capabilities
    Historically, law enforcement and criminal justice agencies 
encountered obstacles related to information sharing, communications, 
and technology. Many agencies individually held pieces of information 
about criminals and their activities but lacked a mechanism to securely 
collect and exchange information. In 1997, RISS developed RISSNET, a 
secure infrastructure for law enforcement and criminal justice agencies 
to share information across jurisdictions. RISSNET is the only 
nationwide Sensitive But Unclassified (SBU) law enforcement information 
sharing cloud provider governed by its users. RISSNET houses millions 
of pieces of data, offers bidirectional sharing of information, and 
connects disparate State, local, and Federal systems. Agencies can 
easily connect to RISSNET, share information and intelligence in a 
secure environment, and query multiple systems simultaneously.
    RISSNET also serves as the secure communications infrastructure for 
a number of critical resources. Currently, 86 systems are connected or 
pending connection to RISSNET. There are more than 350 RISS and partner 
resources available via RISSNET to authorized users; the owners of 
these resources rely on RISSNET for its secure infrastructure. By 
connecting agencies and systems to RISSNET, hundreds of millions of 
dollars are saved and millions of data records are easily and quickly 
accessible by law enforcement. A Pennsylvania police officer said, 
``Connectivity to RISSNET is absolutely critical to solving 
multijurisdictional crimes.''
    The RISSIntel user interface provides for real-time, online 
federated search of 34 RISS and partner intelligence databases, 
including State systems, the California gang intelligence system 
(CalGang), and systems connected via the National Virtual Pointer 
System (NVPS), and does not require RISSNET users to have a separate 
user account with the respective partner systems. This simplified sign-
on approach enables officers to save time and quickly retrieve 
information. In fiscal year 2012, RISSIntel contained almost 2.8 
million intelligence records (not including those available via 
connected systems), and users made more than 4.7 million inquiries in 
RISSIntel.
    RISSGang is the only comprehensive gang resource that offers a 
criminal intelligence database, informational resources, and a secure 
bulletin board. RISS continues to connect gang systems. In fiscal year 
2011, RISS completed a system-to-system interface between RISSIntel/
RISSGang and CalGang, enabling users to initiate a federated search. In 
fiscal year 2012, RISS completed the connection of the Bureau of 
Alcohol, Tobacco, Firearms and Explosives' GangNET.
    RISS ATIX provides a secure platform for law enforcement, public 
safety, and private sector entities to share disaster, terrorism, and 
other information. RISS ATIX supports more than 200,000 professionals 
and consists of more than 40 community groups. RISS ATIX resources 
include secure Web pages, a discussion forum, a document library, and 
secure e-mail.
    Each RISS Center maintains secure Web sites to provide users with 
access to RISSIntel and other resources, such as the Cold Case Locator 
and the RISS Pawnshop Database. The number of investigative records 
available through these different systems exceeds 28 million.
                        riss's nationwide impact
    RISS's unique structure helps meet the needs of local, State, and 
tribal law enforcement while partnering with Federal agencies on a 
number of nationwide initiatives. For example, RISS is the only non-
Federal entity participating in the Assured SBU Interoperability 
Initiative under the auspices of the White House and the Office of the 
Program Manager, Information Sharing Environment (PM-ISE). This 
initiative seeks to expand federated access to resources and to provide 
simplified sign-on capabilities for officers to access multiple systems 
simultaneously. RISS is at the forefront in providing simplified, 
federated access. More than 10,000 users from trusted partner systems 
are using Federated Identity to access RISSNET resources.
    RISS currently supports 1,072 Federal member agencies. Examples of 
RISS's partnerships with Federal agencies and programs include the PM-
ISE, the United States Attorneys' Offices, the U.S. Department of 
State, the Diplomatic Security Offices, the United States Secret 
Service's Targeted Violence Information Sharing System, the U.S. Postal 
Inspection Service, and the National Motor Vehicle Title Information 
System. RISS supports the Nationwide Suspicious Activity Reporting 
Initiative by connecting systems to RISSNET and hosting State servers. 
RISS built and hosts the NVPS Message Hub. There are 10 databases 
connected through NVPS. RISS continues to connect fusion centers to 
RISSNET and integrate RISS services into fusion center operations. RISS 
was mentioned in the National Strategy for Information Sharing and 
Safeguarding, released by the White House in December 2012.
    RISS continuously seeks and is sought out by others to enable new 
information sharing partnerships that leverage its secure SBU 
capabilities. For example, several State Medicaid Fraud Control Units 
are using RISSNET to securely share information. More than 26 secure 
collaboration sites are housed on RISSNET.
    RISS is supported by many organizations, including the 
International Association of Chiefs of Police, the National Sheriffs' 
Association, the National Narcotic Officers' Associations' Coalition, 
and the National Alliance of Gang Investigators Associations. RISS's 
partnerships have resulted in an unprecedented level of information and 
intelligence sharing.
           riss enhances officer safety through deconfliction
    More than 19,000 law enforcement officers have died serving our 
nation. At the current rate, one officer is killed every 53 hours in 
the United States. Officer safety is of paramount importance to the law 
enforcement community and the citizens they serve. RISSafe is an 
essential component in helping ensure officer safety. RISSafe stores 
and maintains data on planned law enforcement events and identifies and 
alerts affected agencies and officers of potential conflicts impacting 
law enforcement efforts. Since RISSafe's inception in 2008, more than 
615,000 operations have been entered, resulting in more than 208,000 
identified conflicts. Currently, 23 RISSafe Watch Centers are 
operational, 17 of which are operated by organizations other than RISS, 
such as State agencies, fusion centers, and High Intensity Drug 
Trafficking Areas (HIDTA). These organizations have invested resources 
to support this critical program. The interaction between RISSafe and 
RISSIntel provides comprehensive officer safety event and subject 
deconfliction services. Many agencies have adopted policies mandating 
the use of RISSafe. In fiscal year 2012, RISS introduced RISSafe 
Mobile, which enables officers to access RISSafe from their smartphones 
and other mobile devices.
    RISSafe is the only comprehensive and nationwide deconfliction 
system that is accessible and monitored on a 24/7/365 basis and 
available at no cost to all law enforcement agencies regardless of RISS 
membership. It is impossible to put a cost to the number of officers 
RISSafe has already prevented from harm or, worse, death. A Washington 
police officer said, ``RISS services are the basis of our department's 
information and intelligence-led policing efforts and also provide the 
critical deconfliction component vital to the safety of our officers in 
the field.''
    RISS launched the RISS Officer Safety Website, which serves as a 
nationwide repository for issues related to officer safety, such as 
concealments, armed and dangerous threats, officer safety videos, 
special reports, and training.
        riss provides critical and diverse investigative support
    Many law enforcement agencies still do not have the support, 
resources, and/or funding to obtain analytical services, purchase 
investigative and surveillance equipment, send officers and personnel 
to training, research volumes of data, and develop intelligence 
briefings and other law enforcement-sensitive documents. RISS offers 
full-service delivery, from the beginning of an investigation to the 
ultimate prosecution and conviction of criminals. Using RISS's 
resources and services enables officers to:
  --Simultaneously query connected intelligence databases via RISSNET.
  --Retrieve information from specialized and investigative databases 
        and resources.
  --Use analytical products such as crime scene diagrams, link-analysis 
        charts, digital forensics, and audio/video services to aid in 
        arresting and prosecuting offenders.
  --Request assistance from research staff to help sift through 
        information, conduct research, and help identify the missing 
        piece of the puzzle.
  --Borrow specialized surveillance and investigative equipment, such 
        as global positioning systems, customized cameras, and 
        recording devices.
  --Obtain training on new and emerging topics, such as social media, 
        domestic terrorism organizations, and border and immigration.
  --Access critical publications and law enforcement-sensitive 
        briefings, including topics such as sovereign citizens, gun 
        violence, narcotics, and human trafficking.
    In fiscal year 2012, the RISS Centers developed 32,657 analytical 
products, loaned 4,597 pieces of specialized equipment, responded to 
184,553 requests for research assistance, and trained 53,308 
individuals. RISS is an excellent return on investment for our nation. 
Over the last 10 years, officers leveraging RISS's services arrested 
more than 48,000 offenders and seized more than $662.3 million in 
narcotics, property, and currency. Statistics are only one way to see 
the value of RISS; the real successes come directly from agencies and 
officers. To view success stories from your State as well as other 
information regarding RISS, please visit www.riss.net/Impact.
    It is respectfully requested that Congress restore fiscal year 2013 
and fiscal year 2014 funding for RISS to the fiscal year 2011 amount of 
$45 million so that this essential information sharing and public 
safety program can continue to serve our nation. Inadequate funding and 
support for RISS could diminish the nation's information sharing 
environment, hinder investigations, and impact the safety of our 
communities. It would be counterproductive to require local and State 
RISS members to self-fund match requirements, as well as to reduce the 
amount of Bureau of Justice Assistance discretionary funding. Agencies 
require more, not less, funding to fight the nation's crime problem. 
RISS is unable to make up the decrease in funding that a match would 
cause, and it has no revenue source of its own. RISS is A Proven 
Resource for Law Enforcement. Its services increase the ability to 
detect, prevent, identify, solve, and prosecute crime while creating a 
safer working environment for our nation's law enforcement. RISS is 
grateful to provide this testimony and appreciates the continued 
support of this committee.
                                 ______
                                 
              Prepared Statement of the Sac and Fox Nation
    Chairman Wolfe and distinguished members of the subcommittee, my 
name is George L. Thurman, and I am the Principal Chief of the Sac and 
Fox Nation. I thank you for the opportunity to present the Sac and Fox 
Nation's testimony before this esteemed Committee. We appreciate your 
dedication to Indian programs and respectfully submit a Tribal Specific 
Budget Request in the amount of $4.8 million to fully fund the Sac and 
Fox Nation Juvenile Detention Center. We understand the fiscal 
constraints of the Country and together we can provide a future that 
has many opportunities for self-sufficiency through Self-Governance.
                      about the sac and fox nation
    The Sac and Fox Nation is headquartered in Stroud, Oklahoma, and 
our Tribal jurisdictional area covers Lincoln, Payne, and Pottawatomie 
Counties. Of the 4,000 enrolled Tribal members, 2,600 live in Oklahoma. 
We are proud to pay tribute to a Sac and Fox descendent and Great 
Native American, Jim Thorpe. One of the most revered Olympic athletes 
who has ever represented the United States, Mr. Thorpe won the 
pentathlon and decathlon in the 1912 Olympics.
 tribal specific budget requests--$4.8 million for juvenile detention 
                                 center
    The passage of the Tribal Law and Order Act was applauded by the 
Sac and Fox Nation because we saw this as the opportunity for the 
Federal Government to finally fulfill the commitment to the Nation and 
fully fund our Juvenile Detention Center (JDC). In 1994, the Sac and 
Fox Nation JDC opened its doors after years of planning and 
construction made possible by funding from the Department of the 
Interior, Bureau of Indian Affairs. The JDC is the first juvenile 
facility designed for American Indians/Alaska Natives as well as the 
first juvenile facility developed under Public Law 100-472, the Self-
Governance Demonstration Project Act. The JDC is a full service, 24-
hour juvenile detention facility that provides basic detention services 
to all residents to ensure their health, safety and welfare and 
programs tailored to meet the specific needs of our clients.
    These programs include behavioral management, substance abuse, 
spiritual, cultural, self-esteem, arts and crafts, health and fitness, 
horticulture, nutrition, life skills, counseling and educational 
programs. The 39 Tribes included in the Southern Plains Region are 
willing to support the JDC but due to underfunding and staffing 
shortages, the JDC cannot accommodate the detention needs of the 
regional Tribes.
    In fiscal year 2013 appropriations testimony provided by Assistant 
Secretary Larry Echo Hawk, he requested $6.5 million for Detention/
Correction and an additional 18 FTEs. We take great exception to the 
this request inasmuch as the Department of the Interior/Bureau of 
Indian Affairs has never provided the full appropriations that were 
authorized for the planning and construction phases of the JDC. The Sac 
and Fox Nation, due to the failure of the full funding commitment by 
Federal officials not being honored, has had to utilize funds that 
could have been used for other social services needs. The Sac and Fox 
Nation is committed to working with the Federal Government in an effort 
to help them fulfill their financial commitment. With the promise of 
full funding realized, the JDC will be ready, willing and able to meet 
the needs of Tribes who need our help in guiding their children toward 
a successful future while providing a culturally and spiritually 
sensitive environment. However, the needs of these Tribes and the 
children we serve will continue to be unmet as long as new facilities 
are continually funded and constructed without funding for operations.
    In fiscal year 2004, the Office of the Inspector General issues the 
report, ``Neither Safe nor Secure''--An Assessment of Indian Detention 
Facilities, citing the existence of serious safety, security, and 
maintenance deficiencies at detention centers throughout Indian 
Country. One of the primary recommendations was the need to identify 
and remedy staffing shortages whereby Indian Affairs responded that 
``current facilities still remain understaffed by a total of 373 
positions (74 positions for Indian Affairs direct service programs and 
299 positions for programs operated by Tribes under Public Law 93-638 
and Self-Governance compacts). \1\
---------------------------------------------------------------------------
    \1\ Fiscal Year 2013 U.S. Department of the Interior Budget 
Justifications--Green Book.
---------------------------------------------------------------------------
    There is an opportunity for you as the Legislative Branch of the 
United States of America to work with the Sac and Fox Nation to improve 
the lives of Indian children that have made poor choices. These choices 
are usually based on the absence of guidance, culture, and discipline. 
The Sac and Fox Nation JDC is committed to the rehabilitation of our 
Native children. Fully funding the JDC will offer each juvenile the 
opportunity to receive continuing education through a local high 
school. The students are afforded everything provided by a public 
school, including a graduation ceremony if they successfully achieve 
the State requirements. The possibilities are endless but are 
unrealized because despite of tribal funds and various grants, the 
funding is inadequate to operate the facility.
    Therefore, the Sac and Fox Nation is requesting that the Federal 
Government recommit to funding for the JDC in the amount of $4.8 
million.
    The Sac and Fox Nation is proud to be a Self-Governance Tribe. 
Thank you.
                                 ______
                                 
           Prepared Statement of the Society for Neuroscience
    Mr. Chairman and members of the Subcommittee, my name is Larry 
Swanson, Ph.D. I am the Milo Don and Lucille Appleman Professor of 
Biological Sciences at University of Southern California. Over the past 
30 years, my work has focused on the structure and organization of 
neural structures involved in motivated and emotional behaviors, as 
well as the development of a wiring diagram of the nervous system more 
generally. This statement is in support of increased funding for the 
National Science Foundation (NSF) for fiscal year 2014.
    On behalf of the nearly 42,000 members of the Society for 
Neuroscience (SfN), thank you for your past support of neuroscience 
research at NSF. SfN's mission is to advance the understanding of the 
brain and the nervous system; provide professional development 
activities, information and educational resources; promote public 
information and general education; and inform legislators and other 
policymakers.
    This is an exciting time to be a neuroscientist. Advances in 
understanding brain development, imaging, genomics, circuit function, 
computational neuroscience, neural engineering, and many other 
disciplines are leading to discoveries that were impossible even a few 
years ago. Many of these discoveries are being made by neuroscientists 
who can trace their first grant back to NSF on their way to becoming 
independently funded investigators.
    SfN is appreciative that President Obama recognizes brain science 
as one of the great scientific challenges of our time. The recently 
announced Brain Research through Application of Innovative 
Neurotechnologies (BRAIN) Initiative will enable NSF and other Federal 
agencies to develop initial tools and conduct further planning that 
will help accelerate fundamental discoveries and improve the health and 
quality of life for millions of Americans.
    The field of neuroscience is poised to make revolutionary advances 
thanks to decades of global investment and path-breaking research. 
However, realizing this potential means today's critical seed funds 
must be backed by sustained, robust investment in the scientific 
enterprise, and SfN is encouraged by the President's request for an 
increase to the budget of NSF.
    Resources provided to NSF support the nation's best and brightest 
researchers at the forefront of promising discoveries, graduate 
students at the start of their careers, and the development of 
scientific tools and infrastructure that will be available to 
researchers. These researchers are the ones who will be answering some 
of the vexing questions facing the field of neuroscience: what are the 
genetic, cellular, and molecular mechanisms responsible for brain 
development? How do biology and our external environment and stimuli 
intersect to affect the way our brains function? How will new tools 
such as brain-machine interfaces, computational models, and advanced 
imaging techniques enhance the effectiveness of the field, deepen 
scientific capacity for inquiry, and contribute to better health and 
quality of life in the years ahead?
    Now is the time to take advantage of scientific momentum, to pave 
the way for improved human health, to advance scientific discovery and 
innovation, and to promote America's near-term and long-range economic 
strength. These goals require robust investments in NSF that reverse 
the tide of stagnant and shrinking funding. Virtually every directorate 
at NSF supports neuroscience research. NSF continues to search for new 
ways to encourage and incentivize creativity and integration across 
disciplines when it comes to neuroscience. This is evident in the 
recent NSF ``Dear Colleague Letter'' aimed at ``Accelerating 
Integrative Research in Neuroscience and Cognitive Science.'' SfN is 
very grateful for NSF's continued recognition of and support for cross-
disciplinary approaches, and we believe neuroscience is an exceptional 
example of ways the life and physical sciences intersect and complement 
one another.
    Seizing this moment can only happen if labs are able to pursue 
promising leads and innovative ideas can move forward. A constricted 
fiscal environment--compounded by sequestration--could stand in the way 
of that progress. It's impossible to say what breakthroughs will go 
undiscovered, but there is no doubt that this fiscal environment will 
result in delayed discoveries, with potentially huge opportunity costs 
for human health and the creation of new technologies based on models 
of neural network computation.
                    fiscal year 2014 budget request
    SfN supports President Obama's request of $7.626 billion for NSF, 
an 8.4 percent increase over fiscal year 2012. Let's work to put 
research on a trajectory of sustained growth that recognizes the 
promise and opportunity for improving the lives of Americans and as a 
tool for economic growth.
    Sustained growth in funding will enable the field to serve the 
long-term needs of the nation by continuing to advance science, improve 
lives, and promote America's near-term and long-range economic strength 
by investing in the proven economic engine of discovery. Continued 
investment in basic research at NSF is essential to laying the 
groundwork for discoveries that will inspire scientific pursuit and 
technological innovation for future generations.
    As noted above, NSF is a primary catalyst for understanding the 
connection between life sciences and physical sciences. Whereas the 
National Institutes of Health (NIH) may focus on basic research with an 
orientation toward a disease or health-related focus, NSF-supported 
neuroscience research is more likely to focus on specific functions of 
the brain, not necessarily tied to a specific disease or disorder. 
What's more, the ``physical sciences'' work supported by NSF has 
enabled the development of new technologies that have revolutionized 
neuroscience research in recent years.
    Aggressive investment in technology and scientific research is 
crucial to ensure America sustains its global leadership and 
competitiveness. Science is now a truly global enterprise that has the 
potential to revolutionize human knowledge, health, and wellness--the 
question is whether the U.S. will maintain its role leading the next 
generation of scientific advances.
    As the committee works to set funding levels for critical research 
initiatives for fiscal year 2014 and beyond, we ask you to help 
establish a national commitment to advance the understanding of the 
brain and the nervous system--an effort that will transform the lives 
of millions of people living with diseases and disorders of the nervous 
system and perhaps inspire the next generation of computing devices. 
Help us to fulfill our commitment to overcoming the most difficult 
obstacles impeding progress and to identifying critical new directions 
in basic neuroscience.
                          neuroscience and nsf
    SfN supports an increase in the budget of NSF because NSF-funded 
research is at the forefront of improving our understanding of 
neuroregeneration and rehabilitation, neuroimaging, and brain-computer 
interface to name but a few.
    The power of fundamental science unlocks the mysteries of the human 
body by exploring the structure and function of molecules, genes, 
cells, systems, and complex behaviors. Every day, neuroscientists 
advance scientific knowledge and medical innovation by expanding our 
knowledge of the human brain. Basic (also known as fundamental) 
research funded by the NSF continues to be essential for discoveries 
that will inspire scientific pursuit and medical progress for 
generations to come. Due to federally-funded research, scientists and 
healthcare providers have a much better understanding of how the brain 
functions.
    NSF-supported work is essential for the future of neuroscience. For 
example, the ``brainbow'' uses complex genetic engineering to label 
neighboring neurons in different colors, making them easier to 
differentiate and trace their connections. Such advances have only been 
possible within the last decade. But being able to trace these 
connections also highlights an increasingly common and complex 
problem--how to handle vast amounts of data that are collected. To 
store the images necessary to form a picture of 1 cubic millimeter of a 
mouse brain--about the size of the eye of a needle--would require the 
equivalent of 212,000 DVDs. NSF is leading the way in such 
computational research.
    We cannot rely on private industry to fund these ideas. Given the 
long-term path of basic science and industry's need for shorter-term 
return on investment, private industry depends on federally-funded 
research to create a strong foundation for applied research. As noted 
in a report issued by NSF in November 2012, research and development 
through universities, much of it driven by NSF, totaled more than $65 
billion in fiscal year 2011. The life sciences were a primary driver of 
that growth. This demonstrates how investment in basic research acts as 
a ``force multiplier,'' and why increasing investment in research--from 
the most basic to the translational--is so essential.
    The following are just two of the many basic research success 
stories in neuroscience emerging now thanks to strong historic 
investment in NSF and other research agencies:
The ``Connectome''
    Current knowledge about the intricate patterns connecting brain 
cells (the ``connectome'') is extremely limited. Yet identifying these 
patterns and understanding the fundamental wiring diagram or 
architectural principles of brain circuitry are essential to 
understanding how the brain functions when healthy and how it fails to 
function when injured or diseased. Recent research suggests that some 
brain disorders, like autism and schizophrenia, may result from errors 
in the development of neural circuits. This research suggests a new 
category of brain disorders called ``disconnection'' syndromes.
    While connectome research is primarily supported by NIH, key tools 
developed through NSF-sponsored research are essential to the project's 
success. The development of advanced technologies, along with faster 
and more data-efficient computers, now make it possible to trace the 
connections between individual neurons in animal models providing us 
with greater insight into brain dysfunction in mental health disorders 
and neurological disease. Scientists have already used these 
technologies to examine disease-related circuitry in rodent models of 
Parkinson's disease. Their findings helped explain how a new treatment 
called deep brain stimulation works in people, and are being explored 
for treatments of other diseases.
Brain-Machine Interface
    NSF supported research on human-centered computing (HCC) has played 
a critical role in efforts to restore motor control to the almost 2 
percent of the U.S. population affected by some sort of paralysis, be 
it a result of stroke, spinal cord or brain injury or other causes. 
Paralysis occurs when the link between the brain and a part of the body 
is severed, eliminating the control of movement and the perception of 
feeling in that area. Previous research has focused on understanding 
the mechanisms by which the brain controls a movement. Research during 
which scientists were able to record the electrical communication of 
almost 50 nerve cells at once showed that multiple brain cells work 
together to direct complex behaviors. However, in order to use this 
information to restore motor function, scientists needed a way to 
translate the signals that neurons give into a language that an 
artificial device could understand and convert to movement.
    Basic science research in mice lead to the discovery that thinking 
of a motion activated nerve cells in the same way that actually making 
the movement would. Further studies showed that a monkey could learn to 
control the activity of a neuron, indicating that people could learn to 
control brain signals necessary for the operation of robotic devices. 
Thanks to these successes, brain-controlled prosthetics are being 
tested for human use. Surgical implants in the brain can guide a 
machine to perform various motor tasks such as picking up food to eat. 
These advances, while small, are a huge improvement for people 
suffering from paralysis. Scientists hope to eventually broaden the 
abilities of such devices to include thought-controlled speech and 
more. Further research supported by NSF is working on developing non-
invasive interfaces for human-machine communication as well as 
providing tactile feedback. Understanding how neurons control movement 
has had and will continue to have profound implications for victims of 
paralysis.
    A common theme of both these examples of basic research success 
stories is that they required the efforts of basic science researchers 
discovering new knowledge, of physician scientists capable of adapting 
those discoveries into better treatments for their patients, and of 
companies willing to build on all of this knowledge to develop new 
medications and devices.
                     the future of american science
    As the subcommittee considers this year's funding levels, please 
consider that significant advancements in the biomedical sciences often 
come from young investigators. The current funding environment is 
taking a toll on the energy and resilience of these young people. 
America's scientific enterprise--and its global leadership--has been 
built over generations. NSF alone has awarded over 46,500 Graduate 
Research Fellowships since 1952. Many young scientists receive their 
first grants from NSF on their way to having careers as independently 
funded investigators. Without sustained investment, we will quickly 
lose that leadership. The culture of entrepreneurship and curiosity-
driven research could be hindered for decades.
    We live at a time of extraordinary opportunity in neuroscience. A 
myriad of questions once impossible to consider are now within reach 
because of new technologies, an ever-expanding knowledge base, and a 
willingness to embrace many disciplines.
    To take advantage of the opportunities in neuroscience we need an 
NSF appropriation that allows for sustained, reliable growth. We have 
entered an era where knowledge of nerve cell and circuit function has 
brought us to the threshold of a more profound understanding of 
behavior and of the mysteries of the human mind. This understanding, in 
turn, will have profound benefits for the American public and will help 
maintain American leadership in science worldwide. Thank you for this 
opportunity to testify.
                                 ______
                                 
            Prepared Statement of the Sea Grant Association
    Madam Chair and members of the Subcommittee, my name is LaDon Swann 
and I am the Director of the Alabama-Mississippi Sea Grant Consortium. 
I submit this testimony in my capacity as President of the Sea Grant 
Association (SGA). The SGA appreciates very much the steadfast support 
this Subcommittee has provided the National Sea Grant College Program 
over the years. As a result, Sea Grant has been able to deliver a 
number of quantifiable benefits to the residents of our ocean and 
coastal communities, which are documented below.
    To continue to achieve a high rate of return on Federal investment 
and to produce meaningful and quantifiable benefits to coastal 
residents in the future, the SGA recommends that the National Sea Grant 
College Program within NOAA be funded in fiscal year 2014 at the 
President's request of $72.7 million. The request is consistent with 
the guidance provided in the fiscal year 2012 conference report that 
said:

    ``The Committee recognizes the important role the Sea Grant program 
plays in connecting coastal and Great Lakes communities with practical 
research and results, and encourages the growth of this program in 
future budget requests.''

    The National Sea Grant College Program addresses national 
priorities at the local level, by identifying citizens' needs in order 
to help guide State and national research agendas. Sea Grant funds the 
best competitive science at our Nation's colleges and universities. The 
scientific discovery is effectively delivered through Sea Grant's 
robust extension, outreach and education programs to inform public and 
private decisionmaking in order to enhance the practical use and 
conservation of coastal, marine, and Great Lakes resources while also 
expanding economy and maintaining a sustainable environment.
    As part of the administration's proposal to consolidate the various 
Science, Technology, Engineering, and Mathematics (STEM) education 
programs within various agencies, the administration has proposed the 
termination of the John A. Knauss Marine Policy Fellowship Program, the 
Sea Grant-NMFS Fellowship program and Sea Grant's formal K-12 and 
informal public education programs in Sea Grant. The Sea Grant 
Association strongly opposes the termination of the education programs 
within the National College Sea Grant Program and asks the Congress to 
restore $4 million worth of funding for these Sea Grant education 
programs.
    Education (particularly STEM education) within the Sea Grant 
program is explicitly authorized in the legislation enacted by Congress 
to create the Sea Grant program. The Sea Grant statute recognizes and 
reinforces the linkage between research, education and extension by 
relying on the land-grant college and university model of research and 
education in service to the public.
    Sea Grant has been a leader in workforce development opportunities 
through two very important fellowship programs. The Sea Grant Knauss 
Fellowship Program provides a unique education experience to students 
who have an interest in ocean, coastal, and Great Lakes resources and 
in the national policy decisions affecting those resources. The program 
matches highly qualified graduate students with ``hosts'' within 
relevant Federal agencies and the Congress for a 1-year paid 
fellowship. The Sea Grant Knauss Fellowship Program is an integral part 
of the Sea Grant program because it integrates research, education, and 
public policy in a unique, highly effective way. Since the start of the 
Sea Grant Knauss Fellowship Program in 1979 more than 900 graduate 
students have participated in this program. Many former Fellows have 
obtained public and private sector leadership positions in marine 
policy, marine science and technology.
    The Sea Grant-NOAA Fisheries fellowship program responds to 
increasing legislative and management demands on NOAA for better 
understanding of fish populations as well as social and economic 
conditions in fishing communities. A National Research Council report 
and 2008 report to Congress highlight the growing and unmet need for 
Federal experts in fisheries stock assessments and economics. They 
discuss the critical national role of such experts in maintaining 
healthy marine population stocks and the $42 billion commercial fishing 
industry. The Sea Grant-NOAA Fisheries fellowship program encourages 
Ph.D. candidates to pursue careers in population dynamics, stock 
assessment and marine resource economics. Co-funded by the two 
agencies, the program makes a unique contribution to Federal workforce 
capacity and builds scientific collaboration between academic and NOAA 
Fisheries scientists.
    Over the longer-term Sea Grant's support of formal K-12 Education 
has helped thousands of students to pursue careers in STEM. Sea Grant 
sponsored education programs are aligned with national and State 
education standards and in many States have been the cornerstone to K-
12 marine science curricula. Sea Grant's informal education programs 
through its association with marine labs, aquaria, and coastal 
ecosystem learning centers have proved valuable in effecting positive 
behavior changes on youth and adults.
    The Federal cost for these two fellowship programs and other vital 
Sea Grant education activities is estimated at $4.0 million. The SGA 
strongly believes that what the Nation gets back over time in formal 
and informal STEM education and the training of marine policy and 
fisheries professionals is well worth the modest investment as an 
integral part of the National Sea Grant College Program. We hope the 
Subcommittee will support the reinstatement of these effective 
fellowship programs and highly targeted STEM education activities in 
Sea Grant as it reviews the administration's proposal.
        the return on investment to the nation through sea grant
    To those who ask if this Federal program is delivering value and 
results to the taxpayer--we believe the answer is a resounding ``yes.'' 
Highlights from the National Sea Grant Advisory Board's 2012 Biennial 
Report to Congress clearly demonstrates Sea Grant's important benefits 
to the Nation and the high return on its Federal investment:
  --$170 million in direct economic benefits to the Nation, which 
        represents nearly a 2.5 to 1 return on the Federal investment;
  --630 new businesses were created or retained, and more than 3,800 
        jobs were created or retained due to Sea Grant efforts;
  --900 communities across the Nation have adopted more sustainable 
        economic or environmental development practices and policies; 
        and
  --Sea Grant expanded the Nation's workforce by supporting more than 
        1,000 undergraduate and more than 950 graduate students, 
        resulting in 350 graduate or undergraduate degrees awarded.
    Approximately 95 percent of the Federal funding provided to Sea 
Grant leaves Washington and goes primarily to State university-led 
programs where it is used to conduct research, carry out extension and 
outreach activities, and deliver valuable services to States that 
participate in this program. In addition, Federal funding through the 
Sea Grant program has a significant leveraging impact with every two 
Federal dollars invested attracting at least an additional dollar in 
non-Federal resources in matching funding.
    For more than 40 years, the National Sea Grant College Program has 
worked with its university partners to create and maintain a healthy 
coastal environment and a robust and productive coastal economy. The 
Sea Grant network includes more than 30 programs based at top 
universities in every coastal and Great Lakes State, Puerto Rico, and 
Guam. Sea Grant brings the robust intellectual capacity that we have 
within our universities to bear to solve important societal problems 
and expand our Nation's work force. The programs within the Sea Grant 
network help citizens and businesses understand, conserve, and better 
utilize America's coastal, ocean and Great Lakes resources. Through a 
partnership between universities and the NOAA, Sea Grant directs 
Federal resources to pressing problems in local communities. The 
partnership with universities is a great source of efficiency, which 
differentiates it from other NOAA coastal programs. By drawing on the 
experience of more than 3,000 scientists, engineers, public outreach 
experts, educators and students from more than 300 institutions, Sea 
Grant is able to make an impact at local and State levels, and serve as 
a powerful national force for change.
      the economic importance of the nation's coastal communities
    It is important to recognize that 52 percent of the Nation's total 
population lives in coastal watershed counties. The Nation's coastal 
population increased by nearly 51 million people from 1970 to 2010 and 
by 2020, the coastal population is expected to grow by another 10 
percent or 15.6 million. According to NOAA, the coastal economy 
contributed $8.3 trillion to the Nation's Gross Domestic Product 
resulting in 66 million jobs and wages worth an estimated $3.4 
trillion.
    Recreational coastal fishing contributed about $73 billion in total 
economic impact supporting over 320,000 jobs. For commercial fishing, 
the average annual value of all U.S. marine fisheries from 2008 to 2010 
is estimated at $4 billion providing about 1 million jobs and 
generating over $32 billion in income.
    Our Nation's ports, often located in the heart of sensitive coastal 
ecosystems, are an essential driver of the U.S. economy. About $1.9 
trillion worth of imports came through U.S. ports in 2010 supporting an 
estimated 13 million jobs.
    Over 50 percent of the total energy produced domestically occurred 
in coastal States including natural gas production, electricity 
generation, and oil and gas production. Coastal areas are providing 
opportunities for renewable energy development with projects that seek 
to extract energy from the movement of ocean water due to tides, 
currents, or waves; from the temperature differential between hot and 
cold ocean water; and from strong winds in offshore ocean environments.
    In 2010 over 13.5 million people in the U.S. were employed in the 
tourism industry in coastal States and communities (transportation, 
lodging, food services, entertainment, and retail) in over 750,000 
business establishments, earning combined wages of $266 billion. The 
total economic value generated by the U.S. coastal tourism industry in 
2010 has been estimated at $531 billion.
 the role of sea grant in supporting the nation's coastal communities--
                     increasing coastal resiliency
    In addition to the annual positive scientific and economic impacts 
delivered by the National Sea Grant College Program, the relationships 
formed in coastal communities and with local stakeholders have proved 
extremely beneficial and supportive in disaster response. Beginning 
with hurricane Katrina and including the major disasters of the 
Deepwater Horizon oil spill and most recently hurricane Sandy, the Sea 
Grant network has provided substantial and much needed ``boots-on-the-
ground'' assistance to affected communities. Following each of these 
disasters, it was often Sea Grant extension, outreach and education 
programs that brought the first response to these impacted communities.
    Sea Grant works with Federal and State agencies to provide critical 
information following natural and man-made disasters. In the wake of 
these events, Sea Grant programs assist impacted communities and States 
by facilitating community planning and capacity building by working 
with Department of Commerce Disaster Response Teams, Federal Emergency 
Management Agency (FEMA) mitigation assessment teams, State resource 
agencies for fishery and aquaculture impacts, local governments, as 
well as others in addressing coastal impacts.
    Immediately following every event, Sea Grant extension 
professionals and scientists were there, helping communities assess 
impacts to coastal businesses including local marinas, aquaculture 
businesses and commercial fishing. Sea Grant also helped determine the 
extent of changes in coastal geology, barrier islands, beach erosion, 
and sand dune migration. Sea Grant capabilities allow the program to 
provide expertise and experience in assessing other environmental 
impacts such as marine debris and changes to water quality. Sea Grant 
adds to its ongoing efforts of providing coastal communities with 
technical assistance, helping to prepare community recovery plans, 
long-term resilience plans, and explaining the consequences of future 
mitigation choices ranging from seawalls to green infrastructure. Sea 
Grant has expanded its role to include the development of tools and 
programs for addressing the long-term health impacts of disasters on 
coastal residents.
    The funding in the President's fiscal year 2014 request for Sea 
Grant will allow the program to strengthen its focus on the development 
of more resilient coastal communities. Specific areas of competitive 
research to be supported within this focus area will include:
  --Marine-related energy sources and efficiency;
  --Wise use of water resources;
  --Climate adaptation;
  --Coastal processes studies;
  --Resilience from natural hazards;
  --Technology development; and
  --Resilient coastal businesses and industries, including fisheries 
        and tourism.
                          concluding thoughts
    America must use its coastal resources wisely to increase the 
economic development and resilience of our coastal communities while 
sustaining the health and productivity of the ecosystems on which they 
depend.
    With the administration's fiscal year 2014 request of $72.7 million 
for Sea Grant, the National Sea Grant College Program will be uniquely 
positioned to continue to make significant contributions to improve the 
lives and livelihoods of the Nation's coastal communities. We hope the 
Subcommittee will be able to support this request plus restore the $4 
million the administration eliminated from Sea Grant STEM education 
programs, including the Sea Grant Knauss Fellowship Program and the 
joint Sea Grant-NMFS Fellowship Program.
    Thank you for the opportunity to present these views. The SGA would 
be happy to answer questions or provide additional information to the 
Subcommittee.
                                 ______
                                 
     Prepared Statement of the Society for Industrial and Applied 
                              Mathematics
    Summary: This written testimony is submitted on behalf of the 
Society for Industrial and Applied Mathematics (SIAM) to ask you to 
continue your support of the National Science Foundation (NSF) in 
fiscal year 2014 by providing NSF with the highest possible funding 
level. In particular, we urge you to provide strong support for key 
applied mathematics and computational science programs in the Division 
of Mathematical Sciences and the Division of Advanced 
Cyberinfrastructure.
    Full Statement: We are submitting this written testimony for the 
record to the Subcommittee on Commerce, Justice, Science, and Related 
Agencies of the Committee on Appropriations of the U.S. Senate on 
behalf of the Society for Industrial and Applied Mathematics (SIAM).
    SIAM has approximately 14,000 members, including applied and 
computational mathematicians, computer scientists, numerical analysts, 
engineers, statisticians, and mathematics educators. They work in 
industrial and service organizations, universities, colleges, and 
government agencies and laboratories all over the world. In addition, 
SIAM has almost 500 institutional members, including colleges, 
universities, corporations, and research organizations.
    First, we would like to emphasize how much SIAM appreciates your 
Committee's continued leadership on and recognition of the critical 
role of the National Science Foundation (NSF) and its support for 
mathematics, science, and engineering in enabling a strong U.S. 
economy, workforce, and society.
    Today, we submit this testimony to ask you to continue your support 
of NSF in fiscal year 2014 and beyond. In particular, we request that 
you provide NSF with the budget request level of $7.625 billion.
    As we are reminded every day, the nation's economic strength, 
national security, and public health and welfare are being challenged 
in profound and unprecedented ways. Addressing these challenges 
requires that we confront fundamental scientific questions. 
Computational and applied mathematical sciences, the scientific 
disciplines that occupy SIAM members, are particularly critical to 
addressing U.S. competitiveness and security challenges across a broad 
array of fields: medicine, engineering, technology, biology, chemistry, 
computer science, and others. SIAM recognizes the challenging fiscal 
situation, and notes that in the face of economic peril, Federal 
investments in mathematics, science, and engineering remain crucial as 
they power innovation and economic growth upon which our economy and 
fiscal health depend.
                      national science foundation
    NSF provides essential Federal support for applied mathematics and 
computational science, including more than 60 percent of all Federal 
support for basic academic research in the mathematical sciences. Of 
particular importance to SIAM, NSF funding supports the development of 
new mathematical models and computational algorithms, which are 
critical to making substantial advances in such fields as neuroscience, 
energy technologies, genomics, analysis and control of risk, and 
nanotechnology. In addition, new techniques developed in mathematics 
and computing research often have direct application in industry. 
Modern life as we know it--from search engines like Google to the 
design of modern aircraft, from financial markets to medical imaging--
would not be possible without the techniques developed by 
mathematicians and computational scientists. NSF also supports 
mathematics education at all levels, ensuring that the next generation 
of the U.S. workforce is appropriately trained to participate in 
cutting-edge technological sectors and that students are attracted to 
careers in mathematics and computing.
    Below are highlights of the main budgetary and programmatic 
components at NSF that support applied mathematics and computational 
science.
NSF Division of Mathematical Sciences
    The NSF Division of Mathematical Sciences (DMS) in the Directorate 
for Mathematical and Physical Sciences (MPS) provides the core support 
for all mathematical sciences. DMS supports areas such as algebra, 
analysis, applied mathematics, combinatorics, computational 
mathematics, foundations, geometry, mathematical biology, number 
theory, probability, statistics, and topology. In addition, DMS 
supports national mathematical science research institutes; 
infrastructure, including workshops, conferences, and equipment; and 
postdoctoral, graduate, and undergraduate training opportunities.
    The activities supported by DMS and performed by SIAM members, such 
as modeling, analysis, algorithms, and simulation, provide new ways of 
obtaining insight into the nature of complex phenomena, such as the 
power grid, software for military applications, the human body, and 
energy efficient building systems. SIAM strongly urges you to provide 
DMS with the budget request level of $244.54 million to enable 
sustained investment by NSF in critical mathematical research and 
related mathematical education and workforce development programs.
    In particular, investment in DMS is critical because of the 
foundational and cross-cutting role that mathematics and computational 
science play in sustaining the nation's economic competitiveness and 
national security, and in making substantial advances on societal 
challenges such as energy, the environment, and public health. NSF, 
with its support of a broad range of scientific areas, plays an 
important role in bringing U.S. expertise together in interdisciplinary 
initiatives that bear on these challenges. DMS has traditionally played 
a central role in such cross-NSF efforts, with programs supporting the 
interface of mathematics with a variety of other fields. SIAM endorses 
DMS participation in NSF-wide initiatives such as Secure and 
Trustworthy Cyberspace (SaTC), to advance cybersecurity, and Cyber-
enabled Materials and Manufacturing for Smart Systems (CEMMSS), to 
develop computational tools for transforming materials discovery. SIAM 
also supports strong, continued investments in core DMS programs that 
underpin NSF's essential mathematical science research activities.
NSF Division of Advanced Cyberinfrastructure
    Work in applied mathematics and computational science is critical 
to enabling effective use of the rapid advances in information 
technology and cyberinfrastructure. Programs in the NSF Division of 
Advanced Cyberinfrastructure (ACI) in the Directorate for Computer and 
Information Science and Engineering (CISE) focus on providing research 
communities access to advanced computing capabilities to convert data 
to knowledge and increase our understanding through computational 
simulation and prediction.
    SIAM strongly urges you to provide ACI with the budget request 
level of $221.35 million to invest in the computational resources and 
science needed to solve complex science and engineering problems. In 
addition, SIAM strongly endorses ACI's role as steward for 
computational science across NSF, strengthening NSF support for 
relevant activities and driving universities to improve their research 
and education programs in this multidisciplinary area.
    SIAM strongly supports ACI data activities, including data 
infrastructure, tools, and repositories, as well as the NSF-wide Big 
Data initiative. The explosion in data available to scientists from 
advances in experimental equipment, simulation techniques, and computer 
power is well known, and applied mathematics has an important role to 
play in developing the methods and tools to translate this shower of 
numbers into new knowledge. The programs in ACI that support work on 
software and applications for the next generation of supercomputers and 
other cyberinfrastructure systems are also very important to enable 
effective use of advances in hardware, to facilitate applications that 
tackle key scientific questions, and to better understand increasingly 
complex software systems.
    SIAM continues to support the agency-wide initiative 
Cyberinfrastructure Framework for 21st Century Science and Engineering 
(CIF21). This program works to develop comprehensive, integrated, 
sustainable, and secure cyberinfrastructure to accelerate research and 
capabilities in computational and data-intensive science and 
engineering.
        supporting the pipeline of mathematicians and scientists
    Investing in the education and development of young scientists and 
engineers is a critical role of NSF and a major step the Federal 
Government can take to ensure the future prosperity and welfare of the 
U.S. Currently, the economic situation is negatively affecting the job 
opportunities for young mathematicians at universities, companies, and 
other research organizations. It is not only the young mathematicians 
who are not being hired that suffer from these cutbacks. The research 
community at large suffers from the loss of ideas and energy that these 
graduate students, postdoctoral fellows, and early career researchers 
bring to the field and the country suffers from the lost innovation.
    In light of this situation, SIAM strongly supports significant 
funding for the Graduate Research Fellowship (GRF) program and the 
Faculty Early Career Development (CAREER) program. Strong investments 
in these programs will support thousands of new graduate students, 
which will help develop the country's next generation of scientists.
    Before reaching the graduate and early career stage, young 
mathematicians and scientists gain critical interests and skills as 
undergraduates. SIAM supports efforts by NSF to improve undergraduate 
science, technology, engineering, and mathematics (STEM) education, and 
notes the key role that mathematicians play in training for these 
fields. SIAM strongly supports the proposed NSF and Department of 
Education initiative to improve K-16 mathematics teaching and learning. 
As interdisciplinary research questions become increasingly central to 
scientific progress, students need early exposure to research 
experiences and interdisciplinary challenges. SIAM also strongly 
supports the NSF Expeditions in Education (E<SUP>2</SUP>) initiative to 
link NSF research and education activities to enable hands-on learning 
on cutting-edge systems and catalyze student engagement.
         mathematics and international science and engineering
    Science knows no borders, and nowhere is this truer than in 
mathematics. Mathematical research typically advances through the close 
collaboration of small groups of researchers, without the need for 
expensive equipment and using universal mathematical notation to 
minimize language obstacles. In addition, mathematics, as an enabling 
discipline for all of science and technology, and as a foundation for 
science education, plays a key role in addressing many of the most 
challenging problems that the world faces, such as infectious disease 
and sustainable energy generation. International scientific cooperation 
is not just good science, however; it can also foster understanding and 
goodwill between societies more broadly. Mathematical and scientific 
activities can aid in promoting United States international policy 
goals by building relationships and trust with other countries, 
enhancing the global image of America, and spurring global development.
    SIAM believes strongly in the Federal Government's support of 
international science and technology initiatives that help advance U.S. 
foreign policy and security, including cooperative research programs 
that further scientific knowledge applicable to major societal 
challenges, promote development of research and education capabilities 
abroad, and introduce U.S. students to global issues and collaborative 
relationships.
                               conclusion
    We would like to conclude by thanking you again for your ongoing 
support of NSF that enables the research and education communities it 
supports, including thousands of SIAM members, to undertake activities 
that contribute to the health, security, and economic strength of the 
U.S. NSF needs sustained annual funding to maintain our competitive 
edge in science and technology, and therefore we respectfully ask that 
you continue robust support of these critical programs in fiscal year 
2014.
    We appreciate the opportunity to provide testimony to the Committee 
on behalf of SIAM. SIAM looks forward to providing any additional 
information or assistance you may ask of us during the fiscal year 2014 
appropriations process.
                                 ______
                                 
Prepared Statement of the Signers of the Teacher At Sea Alumni Petition 
                To Save the NOAA Teacher At Sea Program
    I respectfully submit the following outside witness testimony to 
this committee on behalf of the 274 people who signed our ``Save NOAA's 
Teacher At Sea Program'' petition, which can be found on-line at the 
following address: http://www.ipetitions.com/petition/noaatas/.
    The Teacher At Sea Program at NOAA is a rare gem. It is a program 
which has many years of proven work training teachers in science, 
technology, engineering and math (STEM) subjects and ocean science. It 
is a program which is unique and one that has generated exceptional 
results. Taking the program funds from such an extraordinary program 
and giving them to the Department of Education makes no sense. NOAA is 
uniquely set up to continue what it has been doing so well for so long. 
If you do anything to this program, expand it.
    The need for excellent training for teachers in STEM has never been 
greater in the history of public education in the United States. Only 
15 percent of our college graduates receive undergraduate degrees in 
the natural sciences or engineering. In China, that number is 50 
percent. In France, 47 percent. In Korea, 38 percent and in Singapore, 
67 percent. \1\ The Next Generation Science Standards have just come 
out and for the first time in decades, we have the beginnings of a 
national response to the need to elevate the training of the next 
generation in STEM areas which are so critical to our Nation's future. 
Now is the time to increase funding to the Teacher At Sea Program run 
by NOAA. This excellent program has developed a proven model for 
providing the highest quality teacher training experience and has been 
successfully operating for decades. Teachers are partnered with 
researchers and sent on research vessels where they work as part of the 
science crew on a NOAA research ship. The program allows teachers to be 
completely absorbed in learning for weeks at a time at the side of 
experts in the field. By working on ships at sea in remote areas, 
teachers experience science in a real, vivid and exciting way. This is 
not in a text book, not in a lab and not in any classroom.
---------------------------------------------------------------------------
    \1\ On, Committee, National Academy of Sciences, National Academy 
of Engineering, and Institute of Medicine. Rising Above the Gathering 
Storm: Energizing and Employing America for a Brighter Economic Future. 
New York: National Academies, (2007).
---------------------------------------------------------------------------
    One of the most striking things that I saw as a Teacher At Sea in 
the Bering Sea was that the adventurous side of this wonderful program 
enabled me to reach a set of students who were completely uninterested 
in every other part of the science curriculum. They reported being 
bored in class but would run home to watch the television program 
``Deadliest Catch'' on the Discovery Channel. I remember how shocked 
they were when they followed my adventures and realized that I was 
traveling to the same waters and doing much of the same activities, but 
was doing so to gather data for a research project. These students 
never looked at science the same way again. They were energized and 
engaged in the subject. Many for the first time.
    This program is life changing for students and teachers. Over the 
years, I have met many former Teacher At Sea participants. The words 
that all of us use to describe our experience are ``life changing.'' I 
use those words too. I do not use them lightly. I have taught in four 
States. I have seen a lot in education, and ``life changing'' is not 
something any of us in the program say or even think very often. The 
principal reason for our use of the term is the depth of the training. 
Spending weeks doing science in remote places at sea gives teachers an 
appreciation of ocean science, of research in remote places and of the 
adventure of science and learning. Teachers remember their experience 
and they view science differently from that time on. Most teacher 
training and coursework helps teachers to learn more about science and 
pedagogy. The Teacher At Sea program lets teachers experience real 
science in a unique way which is unlike anything else they do in their 
career. Teachers develop relationships with scientists which last for 
years and serve as a support in the classroom. Teachers stay on the 
ship for weeks at a time, not just for a few hours or a few days as 
they do in other courses or trainings that they take along the way. The 
depth of the experience is what sets this program apart. That 
difference is important. Only an agency dedicated to science could 
produce these kind of results. It is why this program needs to stay at 
NOAA where it currently resides.
    Oceans represent 72 percent of the Earth's surface. The United 
States loves its beaches and its bounty. We consume about 4.8 billion 
pounds of seafood a year. The seafood industry is just one of the many 
sectors of our economy which depend on the ocean. From fishing to 
shipping to oil exploration to tourism, the sea generates billions of 
dollars a year for the United States. But in spite of the importance of 
oceans and ocean science to our culture and our economy, this area of 
research has been ignored in many Earth Science curricula around the 
country. Fortunately, the new standards will change that for the 26 
States which have adopted them. However all States need to ensure that 
they have highly trained staff who can help implement what is for many 
a new area of curriculum. There is no better training anywhere in the 
world then working on the science crew of a research ship and learning 
the ins and outs of marine research directly from the scientists who 
conduct it. Teachers leave this experience with a vast array of 
knowledge which they bring back and transmit to the students they work 
with and the other teachers they work next to. In addition to 
knowledge, the teachers also form relationships with the scientists and 
often, those scientists serve as a resource for both teachers and 
students. In my experience, I was assisting a scientist who studied 
shell disease. My students, along with their homebase teacher, created 
an experiment and reported their data to the scientist after I had come 
ashore. The scientists wrote back and we had an exchange which deeply 
affected the students I worked with. The idea that they could 
contribute findings to his project--one which they had become very 
familiar with--was empowering to them, and for most, was the highlight 
of their year.
    Many of the ocean scientists who I have met over the years have 
expressed concern over the fact that fewer people are going into fields 
related to ocean science. Prevent this tragedy by funding programs that 
bring teachers and students together with marine scientists. We live in 
a period of time where the decisions human being make will determine 
the fate of much of the planet we share. The oceans and all creatures 
great and small that live in them are deeply effected by our human 
activity. From over-fishing, to plastic debris, to the introduction of 
invasive species, to oil spills, to changes in our climate, and more, 
there has never been a greater need for good marine scientists. Now is 
the time to increase funding to NOAA's Teacher At Sea which has a 
proven track record of bringing students, teachers and marine 
scientists together, and which has decades of experience educating and 
exciting young minds with the adventure of real science.
                                 ______
                                 
              Prepared Statement of The Nature Conservancy
    Thank you for the opportunity to comment on the fiscal year 2014 
appropriations for the National Oceanic and Atmospheric Administration 
(NOAA). The Nature Conservancy (Conservancy) is a non-profit 
conservation organization working around the world to protect 
ecologically important lands and waters for both people and nature.
    As the nation enters the fiscal year 2014 budget cycle and another 
year of fiscal challenges, the Conservancy recognizes the need for 
fiscal restraint and reiterates our concern that natural resource 
stewardship programs should not shoulder a disproportionate share of 
cuts in this budget. Hurricane Sandy and its aftermath have made it 
clear that addressing coastal resiliency and protecting coastal 
communities are fundamental to public safety, health, and economic 
well-being. Many of the NOAA programs highlighted below support the 
very coastal habitats that serve as natural buffers for storm surge and 
hurricanes and therefore protect people and property. Now, more than 
ever, these programs deserve our full support.
    Our recommendations this year generally align with the funding 
levels currently contained in President Obama's proposed budget for 
fiscal year 2014. As an organization that prides itself on public-
private partnerships with coastal communities and people who make their 
living from the sea, we strongly believe that the budget levels we 
support represent a prudent investment in our country's future. It is 
an investment that not only helps NOAA achieve its most critical 
missions by catalyzing local and regional action, but also reduces risk 
and saves money based on tangible economic and societal benefits that 
natural resources provide each year to the American people.
    Fisheries Management.--The 2007 amendments to the Magnuson-Stevens 
Fisheries Conservation and Management Act (MSFCMA) were intended to end 
overfishing in the United States and reduce destructive fishing 
practices in U.S. waters. Further, it included new provisions that 
create mechanisms for communities to engage in conservation efforts 
while securing the contribution of marine fisheries to their local 
economies. NOAA Fisheries, in implementing the MSFCMA, has made 
important strides in addressing these challenges and strengthening 
fisheries management; however, much more needs to be done. To recover 
fish stocks so that they provide food and jobs to struggling fishermen 
now and in the future, we need to reduce destructive fishing practices, 
restore coastal habitats that produce fish, and support the efforts of 
fishermen and local communities that depend on fishing--and do so in a 
way that engages fishermen in collaborative efforts. The following NOAA 
programs are essential to achieving healthy coastal habitats and 
continued robust fisheries management.
    Habitat Conservation and Restoration.--Coastal wetlands and 
nearshore waters produce the fish and shellfish that feed America. The 
health of these places is essential to the economic and social well-
being of those who live and work in coastal communities. Restoration 
and protection of natural defenses such as salt marshes, oyster reefs, 
seagrass meadows, and coral reefs help to provide flood control and 
prevent erosion to protect our communities from storm surges. Since 
2001, The Nature Conservancy and NOAA have partnered through the 
Community-based Restoration Program (funded under the Fisheries Habitat 
Restoration line along with the Open Rivers Initiative) to restore the 
health of degraded habitats in places and ways that benefit not just 
local marine life, but communities and coastal economies as well.
    Through the 130+ community-based projects supported in the first 
decade of this partnership, NOAA and the Conservancy have helped 
protect vital coastal and marine habitat, restore species that keep 
coastal systems healthy, remove invasive species, create shellfish 
spawning sanctuaries and reestablish water flows to estuaries. Beyond 
the environmental benefits, these projects show that restoration pays 
off for coastal communities, producing jobs for direct restoration work 
and supporting coastal communities through increased fish and shellfish 
production. A recent economic analysis of oyster reef restoration in 
the Northern Gulf of Mexico provided compelling evidence for such 
claims, finding that two reefs totaling 3.6 miles would increase 
economic output of commercial finfish and crab landings by $35,000 per 
year; cut wave height and energy significantly, reducing shoreline 
erosion and associated damages to private property and public 
infrastructure; and remove up to 4,160 pounds of nitrogen per year from 
Mobile Bay's waters. \1\
---------------------------------------------------------------------------
    \1\ Kroeger, Timm (2012). ``Oyster Reef Restoration in the Northern 
Gulf of Mexico: Ecosystem Services, Economic Benefits and Impacts, and 
Opportunities for Disadvantaged Coastal Communities.'' The Nature 
Conservancy.
---------------------------------------------------------------------------
    Through our on-the-ground experience, we recommend $47 million for 
Habitat Conservation and Restoration in fiscal year 2014, of which no 
less than $25.7 million should be dedicated to the Community-based 
Restoration Program (CRP). Additional funding beyond cooperative 
agreements and program administration of CRP should be dedicated to the 
Open Rivers Initiative.
    National Catch Share Program.--Catch shares give participating 
fishermen a stake in the benefits of a well-managed fishery and align 
the incentives for resource stewardship with the natural incentive for 
fishermen to increase their earnings with a sustainable business model. 
Transition to these systems is difficult and getting the design and 
implementation of these new catch share programs right, including 
provisions to engage fishing communities, is critical. The Conservancy 
supports the $28.2 million listed in the President's budget for the 
National Catch Share Program.
    Annual Stock Assessments.--Magnuson-Stevens mandated that annual 
science-based catch limits be in place in all fisheries to prevent or 
end overfishing by 2011. While this milestone has been achieved, there 
is room for continued improvement in fishery data collection and stock 
assessments. Accurate and timely stock assessments are essential for 
the sound management of fisheries and the sustainability of fishing 
resources. The Conservancy supports $69.3 million for annual stock 
assessments.
    Pacific Coastal Salmon Recovery Fund.--The Pacific Coast Salmon 
Recovery Fund (PCSRF) is the most critical Federal program addressing 
major threats to Pacific salmon so that these fish can continue to 
sustain culture, economies, recreation, and ecosystem health. PCSRF 
funding is tailored for each State, competitively awarded based on 
merit, and has funded hundreds of successful, on-the-ground salmon 
conservation efforts. PCSRF invests in cooperative efforts to conserve 
species under the National Marine Fisheries Service jurisdiction, and 
projects are matched at a 3:1 ratio (Federal/non-Federal) and have 
resulted in significant progress in protecting and restoring salmon 
across their range. Notably, the PCSRF has catalyzed thousands of 
partnerships among Federal, State, local, and tribal governments, and 
conservation, business, and community organizations. The Conservancy 
urges sustaining at least the fiscal year 2013 level of $65 million for 
the competitive and proven PCSRF grants program.
    Species Recovery Grants.--Through this program, NMFS provides 
grants to States to support conservation actions that contribute to 
recovery, or have direct conservation benefits for, listed species, 
recently de-listed species, and candidate species that reside within 
that State. The Conservancy supports $17.8 million for Species Recovery 
Grants.
                             ocean services
    Over the years and across many sites, NOAA has been an invaluable 
partner to the Conservancy. NOAA programs that provide practical, 
community-oriented approaches to restoration, resource management, and 
conservation are natural fits for the Conservancy's mission. The 
Coastal Services Center and National Estuarine Research Reserve 
programs educate hundreds of local community officials and 
practitioners on better ways to apply tools and science. In addition, 
NOAA's data, research, and monitoring of coastal and marine systems 
directly provide data and decision-support tools that inform the safe 
operations of industry, prioritize habitats for restoration, and 
advance science-based management decisions. The following funding 
recommendations highlight critical programs that support productive 
coastal communities and healthy coastal and marine environments.
    Coral Reef Conservation Program.--The decline of coral reefs has 
significant social, cultural, economic, and ecological impacts on 
people and communities in the United States and around the world. The 
Conservancy works with NOAA's Coral Reef Conservation Program under a 
competitively awarded, multi-year cooperative agreement to address the 
top threats to coral reef ecosystems: climate change, overfishing, and 
land-based sources of pollution. Together we develop place-based 
strategies and resilient marine protected area networks, measure the 
effectiveness of management efforts, and build capacity among reef 
managers globally. The Conservancy supports no less than $26.8 million 
to provide funding to support the Coral Reef Conservation Program.
    Coastal and Estuarine Land Conservation Program.--Created by 
Congress in 2002 and formally authorized in 2009, the Coastal and 
Estuarine Land Conservation Program (CELCP) has helped preserve 
approximately 45,000 acres of America's most important coastal areas. 
All Federal funding for CELCP is leveraged by at least an equal amount 
of State, local and private investments. There is significant demand 
for coastal conservation that is not being met. In the last several 
years, NOAA has identified and vetted more than $270 million in coastal 
projects that are eligible for CELCP funding. The Conservancy 
recommends no less than the $3 million present in the President's 
budget to support a program that utilizes both acquisition and 
conservation easements to protect coastal and estuarine lands 
considered important for their ecological, conservation, recreational, 
historical or aesthetic values. Land acquisition or conservation 
easements acquired with CELCP funds are protected in perpetuity so that 
they may be enjoyed by future generations.
    Regional Ocean Partnerships.--Funding will provide support to 
implement priority actions identified by the Regional Ocean 
Partnerships, including the Northeast Regional Ocean Council, the Mid-
Atlantic Regional Council on Oceans, the South Atlantic Alliance, the 
Caribbean Regional Ocean Partnership, the Gulf of Mexico Alliance, the 
West Coast Governors' Agreement on Ocean Health, and the Council of 
Great Lakes Governors. These multi-State collaborations originated to 
address regional priorities such as habitat conservation and 
restoration, energy siting, coastal resilience to severe storms, 
coastal water quality, and regional data and science needs. Additional 
funding should be provided to support State and regional engagement in 
the development of marine planning, including stakeholder processes and 
consensus building tools, analysis of data and information, and 
facilitation of broad public participation in the planning process. The 
Conservancy supports $5 million to advance vital regional ocean and 
coastal priorities.
    National Estuarine Research Reserve System.--The National Estuarine 
Research Reserve System (NERRS) partners with States and territories to 
ensure long-term education, stewardship, and research on estuarine 
habitats. Atlantic, Gulf, Pacific, Caribbean and Great Lakes reserves 
advance knowledge and stewardship of estuaries and serve as a 
scientific foundation for coastal management decisions. The Conservancy 
recommends no less than $22 million in the budget for the NERRS.
    National Marine Sanctuaries Program.--National marine sanctuaries 
support economic growth and hundreds of coastal businesses in sanctuary 
communities, preserve vibrant underwater and maritime treasures for 
Americans to enjoy, and provide critical public access for ocean 
recreation, research, and education. Investment in these sites does 
more than simply protect small areas of the ocean--it places a down 
payment for the many Americans whose livelihoods are dependent on a 
healthy ocean and coasts. The Conservancy supports no less than $46.4 
million for the National Marine Sanctuaries Program.
    Thank you for this opportunity to share with the Committee the 
Conservancy's priorities in NOAA's fiscal year 2014 budget. We would be 
pleased to provide the Subcommittee with additional information on any 
of the Conservancy's activities described here or elsewhere. Please 
contact me if you have questions on which we might be of assistance.
                                 ______
                                 
              Prepared Statement of The Planetary Society
    ``NASA! NASA! NASA!''
  --The crowd in Times Square after the Curiosity rover landed on 
        August 6th, 2012.

    The Planetary Society has deep concerns about the continued effort 
to defund Planetary Science in NASA's 2014 budget proposal. The budget 
ignores Congress's rejection of similar cuts proposed in fiscal year 
2013 as well as the public's strong support of this highly effective 
part of NASA. The proposed cut threatens U.S. leadership in deep space 
exploration and planetary research, and it creates negative long-term 
technological and engineering consequences for the aerospace industry. 
Without immediate investment in technology and mission development--not 
possible under the fiscal year 2014 proposal--the United States will go 
``radio dark'' in almost all regions of the solar system by the end of 
the decade.
    On August 6th of last year, millions of people around the world 
watched as NASA's Curiosity rover landed on Mars. It was NASA's 
greatest--and most visible--triumph in years; the result of a decade's 
worth of steady investment in planetary exploration. Curiosity captured 
the public's imagination, becoming the ``Apollo moment'' for a new 
generation of Americans by inspiring countless numbers to pursue 
careers in science, math, engineering, and related fields.
    But the fiscal year 2014 budget does not support the robust 
investment in Mars exploration required for there to be any more 
``Curiosity moments.'' NASA was able to assemble a new mission for 2020 
that duplicates the design of the Curiosity rover, but there are no 
longer the resources for long-term technology development to create the 
next generation of missions to the Red Planet. It is not clear whether 
the 2020 Rover will follow recommendations of the National Research 
Council's Planetary Science Decadal Survey and cache samples of Mars to 
be returned to Earth in the future. The fiscal year 2014 budget and its 
projection ensure a moribund future for our Mars program.
    The proposed budget for fiscal year 2014, $1.217 billion, 
represents the latest in a multi-year effort to underfund Planetary 
Science within NASA [Fig. 1]. Though this number looks larger than was 
projected in fiscal year 2013, there are important caveats to consider. 
Included in fiscal year 2014 are two new requests to the program: $50 
million for Pu-238 production previously located in the DOE budget, and 
$20 million for near-Earth object (NEO) detection in service of the 
asteroid retrieval mission. While both of these are important, we must 
consider $1.147 billion to be the ``true'' number when comparing to 
last year's appropriation. As such, fiscal year 2014 represents a $268 
million cut from levels approved by Congress in fiscal year 2013 
(before sequestration and rescission).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The fiscal year 2014 budget also ignores the $75 million approved 
by Congress in fiscal year 2013 to begin formulation activities for a 
mission to Jupiter's moon Europa and dismisses any possibility of a 
mission in the near future. We urge Congress to provide continued 
funding for a Europa mission and to encourage NASA and the 
administration to commit to this popular, scientifically important 
project.
    The Planetary Society would like to highlight one positive aspect 
of the fiscal year 2014 budget, which is that proper funding is 
requested to restart Plutonium-238 (Pu-238) development. Pu-238 is a 
power source for spacecraft that cannot use solar panels, such as 
missions to deep space or to targets bathed in shadow. The United 
States stopped producing Pu-238 in the late 1980s and our supply is now 
at critical levels. It takes many years to generate usable plutonium, 
and we strongly encourage Congress to fund its development as requested 
to prevent future shortages.
    In difficult economic times, The Planetary Society recommends that 
Congress prioritize the effective and productive Planetary Science 
Division within NASA and fund it at $1.5 billion per year. This is a 
modest increase above the request and represents less than 9 percent of 
NASA's total budget while supporting an extremely successful part of 
the agency. According to our analysis, this level is the minimum 
necessary to support a balanced program that follows the 
recommendations contained within the NRC's Planetary Science Decadal 
Survey, which includes a flagship mission to Europa.
    NASA is one of the great scientific and cultural institutions of 
the United States. It has the unique responsibility of inspiring the 
public through unprecedented achievements in human and robotic 
exploration into the depths of space. Decades of strong, bipartisan 
support of NASA have created the world's leading engineering and 
scientific space agency. In challenging economic times, we encourage 
Congress to support the part of NASA that has consistently delivered on 
its promises: Planetary Science.
                                 ______
                                 
 Prepared Statement of the United States Section of the Pacific Salmon 
                               Commission
    Mr. Chairman, my name is David Bedford, and I serve as a 
Commissioner on the United States Section of the Pacific Salmon 
Commission (Commission). The Commission was established in 1985 to 
oversee implementation of the Pacific Salmon Treaty (Treaty) between 
the United States and Canada. In May of 2008, the Commission concluded 
bilateral negotiations that developed revised salmon fishing regimes 
for the period 2009-2018. The provisions of the new fisheries 
agreements were approved by the Federal Governments of the United 
States and Canada and are being implemented for the period 2009-2018. 
Funding in the Department of Commerce budget for the programs intended 
to fulfill national commitments created by the Treaty was $10,859,253 
in the 2012 budget. Funding for the Treaty is located in three lines in 
the National Marine Fisheries Service budget for Salmon Management 
Activities: the Pacific Salmon Treaty line, the U.S. Chinook Agreement 
line, the 2008 Agreement line and in the International Fisheries 
Commissions line in Regional Councils and Fisheries Commissions.
    The implementation of the Treaty is funded through the Departments 
of Commerce, Interior and State. The Department of Commerce principally 
funds programs conducted by the States of Washington, Oregon, Idaho and 
Alaska and the National Marine Fisheries Service. The costs of the 
programs conducted by the States to fulfill national commitments 
created by the treaty are substantially greater than the funding 
provided in the NMFS budget. Consequently the States supplement the 
Federal Treaty appropriations from other sources including State 
general funds, Dingell-Johnson grants, and Pacific Coastal Salmon 
Recovery. To maintain programs necessary to meet treaty commitments 
funding for 2014 at the 2012 level of $10,859,253 may be sufficient 
provided that all of the other sources of funds remain available.
    The Pacific Salmon Treaty line Item of the National Marine 
Fisheries Service budget funded at $5,622,690 provides base support for 
the States of Alaska, Washington, Oregon, and Idaho and the National 
Marine Fisheries Service to conduct the salmon stock assessment and 
fishery management programs required to implement the Treaty's 
conservation and allocation provisions for coho, sockeye, Chinook, 
chum, and pink salmon fisheries. Effective, science-based 
implementation of negotiated salmon fishing arrangements and abundance-
based management approaches for Chinook, southern coho, Northern 
Boundary and Transboundary River salmon fisheries includes efforts such 
as increased annual tagging and tag recovery operations, harvest 
monitoring, genetic stock identification and other emerging stock 
identification techniques.
    The Chinook Salmon Agreement line item in Salmon Management 
Activities funded at $1,836,563 supports research and stock assessment 
necessary to acquire and analyze the technical information needed to 
fully implement the abundance-based Chinook salmon management program 
provided for by the Treaty. The States of Alaska, Washington, Oregon, 
and Idaho, and the 24 treaty tribes conduct projects selected in a 
rigorous competitive process.
    The International Fisheries Commissions line, under Regional 
Councils and Fisheries Commissions in the NMFS budget is funded at 
$400,000 and provides the U.S. contribution to bilateral cooperative 
salmon enhancement on the transboundary river systems which rise in 
Canada and flow to the sea through Southeast Alaska. This project was 
established in 1988 to meet U.S. obligations specified in the Treaty 
and has been funded annually at $400,000.
    The 2008 Agreement line supports programs necessary to reach the 
agreement on revised fishery provisions between the U.S. and Canada in 
2008. The level of funding needed for 2008 Agreement programs is 
$3,000,000. The U.S. Commissioners view continued funding in the fiscal 
year 2014 Federal budget as necessary to address Chinook salmon 
conservation needs and to meet existing treaty commitments.
    The core Treaty implementation projects included in the Pacific 
Salmon Treaty line, and the U.S. Chinook Agreement line under Salmon 
Management Activities as well as the International Fisheries Commission 
line under Regional Councils and Fisheries Commissions consist of a 
wide range of stock assessment, fishery monitoring, and technical 
support activities for all five species of Pacific salmon in the 
fisheries and rivers between Cape Suckling in Alaska to Cape Falcon in 
Oregon. The States of Alaska, Washington, Oregon, Idaho, the National 
Marine Fisheries Service (NMFS), and the 24 treaty tribes of Washington 
and Oregon conduct a wide range of programs for salmon stock abundance 
assessment, escapement enumeration, stock distribution, and fishery 
catch and effort information. The information is used to establish 
fishing seasons, harvest levels, and accountability to the provisions 
of Treaty fishing regimes.
    The base annual Treaty implementation funding of approximately $5.6 
million has remained essentially flat since the early 1990s while the 
growing complexity of conservation-based, and Endangered Species Act 
compliant fishing regimes has required much more intensive stock 
assessment, fishery compliance monitoring, and technical support 
activities. In order to continue to fulfill the Federal commitments 
created by Treaty, the States have had to augment Federal funding with 
other Federal and State resources. For example, additional funding has 
included Federal Anadromous Fish Grants, Federal Pacific Coast Salmon 
Recovery Funds (PCSRF), Federal Dingell-Johnson dollars, and State 
general funds. However, alternative sources of funding have seen 
reductions or in some cases been eliminated. The Anadromous Fish Grants 
were eliminated in the Federal fiscal year 2010 budget. Uses of PCSRF 
monies were constrained in fiscal year 2010 by new appropriations 
language and further constrained in 2012 by the NMFS. State dollars and 
Dingell-Johnson grants have been significantly reduced during the 
current economic downturn.
    The U.S. Fish and Wildlife Service measures the economic impacts of 
commercial and sport fisheries for the States involved in the Treaty at 
approximately $2 billion-$3 billion per year. Effective implementation 
of the Treaty is necessary to continue the Federal Treaty conservation-
based fishing regimes that contribute to the sustainability of salmon 
stocks, the significant number of jobs supported by the fisheries and 
the large economic return to the States and communities. To accomplish 
this funding is needed at the 2012 level of $10,859,253.
    This concludes the Statement of the U.S. Section of the Pacific 
Salmon Commission submitted for consideration by your committee. We 
wish to thank the committee for the support given us in the past. I 
will be pleased to answer any questions the Committee members may have.

  SUMMARY OF PROGRAM FUNDING FOR THE U.S.-CANADA PACIFIC SALMON TREATY
        DEPARTMENT OF COMMERCE, NATIONAL MARINE FISHERIES SERVICE
------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
Pacific Salmon Treaty Line Item:
    National Oceanic and Atmospheric Administration
     (NOAA):
        National Marine Fisheries Service (NOAA               $1,030,224
         Fisheries).....................................
        Alaska Department of Fish and Game..............       2,906,814
        Washington Department of Fish and Wildlife......         881,428
        Oregon Department of Fish and Wildlife..........         540,589
        Idaho Department of Fish and Game...............         263,635
                                                         ---------------
            Pacific Salmon Treaty line item total.......       5,622,690
International Fisheries Commissions line item (TBR)              400,000
 (Transboundary Rivers Agreement).......................
U.S. Chinook Agreement line item (LOA)..................       1,836,563
2008 Agreement line item:
        Coded Wire Tagging (CWT) Improvement Program....       1,500,000
        Puget Sound Critical Chinook Stock Program......       1,500,000
                                                         ---------------
          Total.........................................       3,000,000
                                                         ===============
          Total Department of Commerce--NOAA (including       10,859,253
           TBR).........................................
------------------------------------------------------------------------


</pre></body></html>
